<html>
<title> - CHRONIC WASTING DISEASE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                           CHRONIC WASTING DISEASE
=======================================================================

                        JOINT OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                             joint with the

                SUBCOMMITTEE ON FISHERIES CONSERVATION,
                          WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 16, 2002

                               __________

                           Serial No. 107-117

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov







                           U.S. GOVERNMENT PRINTING OFFICE
79-658                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 16, 2002.....................................     1

Statement of Members:
    Allard, Hon. Wayne, a United States Senator from the State of 
      Colorado...................................................    18
        Prepared statement of....................................    20
    Barrett, Hon. Thomas M., a Representative in Congress from 
      the State of Wisconsin,....................................    60
        Prepared statement of....................................    61
    Feingold, Hon. Russell, a United States Senator from the 
      State of Wisconsin, Prepared statement of..................     8
    Gilchrest, Hon. Wayne T. a Representative in Congress from 
      the State of Maryland, Prepared statement of...............     8
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin...............................................     5
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     4

Statement of Witnesses:
    Butler, Dr. James G., Deputy Under Secretary, Marketing and 
      Regulatory Programs, U.S. Department of Agriculture........    73
        Prepared statement of....................................    76
    George, Russell, Director, Division of Wildlife, Colorado 
      Department of Natural Resources............................    33
        Prepared statement of....................................    35
        Response to questions submitted for the record...........
    Groat, Charles G., Director, U.S. Geological Survey, U.S. 
      Department of the Interior.................................    66
        Prepared statement of....................................    69
        Response to questions submitted for the record...........    71
    McCallum, Hon. Scott, Governor, State of Wisconsin...........    22
        Prepared statement of....................................    24
    Miller, Michael, D.V.M., Wildlife Veterinarian, Wildlife 
      Research Center, Division of Wildlife, Colorado Department 
      of Natural Resources.......................................     9
        Prepared statement of....................................    14
    Morrison, Bruce, Assistant Administrator, Wildlife Division, 
      Nebraska Game and Parks Commission.........................    44
        Prepared statement of....................................    46
    Pacelle, Wayne, Senior Vice President for Communications and 
      Government Affairs, The Humane Society of the United States    88
        Prepared statement of....................................    91
        Response to questions submitted for the record...........    95
    Thorne, E. Tom, D.V.M., Chief of Services, Wyoming Game and 
      Fish Department............................................    40
        Prepared statement of....................................    42
    Wolfe, Gary J., Ph.D., Chronic Wasting Disease Project 
      Leader, Rocky Mountain Elk Foundation, Boone and Crockett 
      Club, Mule Deer Foundation.................................    83
        Prepared statement of....................................    86
        Response to questions submitted for the record...........    87
    Zebarth, Glen, D.V.M., North American Elk Breeders 
      Association................................................    77
        Prepared statement of....................................    79
        Response to questions submitted for the record...........    83

Additional materials supplied:
    Bastian, Frank Owen, M.D., Tulane University Health Science 
      Center, Statement submitted for the record.................   103
    Hart, Jerry, Arvada, Colorado, Letter submitted for the 
      record.....................................................   106
    Krut, Steve, Executive Director, American Association of Meat 
      Processors, Letter submitted for the record................   107
    Lundquist, Ronald, President, Colorado Sportsmen's Coalition, 
      Letter submitted for the record............................   108
    Map of Chronic Wasting Disease in North America submitted for 
      the record.................................................    71
    Southwick, Charles H., M.S., Ph.D., Professor Emeritus, 
      Environmental, Population and Organismic Biology, 
      University of Colorado, Statement submitted for the record.   110
    Schad, Mark P., President, Ohio Association of Meat 
      Processors, Director at Large, American Association of Meat 
      Processors, Letter submitted for the record................   111
    Steele, Dick, DVM, President, Colorado Sportsmen's Wildlife 
      Fund, and President, Western Colorado Sportsmen's Council, 
      Letter submitted for the record............................   112
    Young, John, DVM, President, Colorado Veterinary Medical 
      Association, Letter submitted for the record...............   114


              OVERSIGHT HEARING ON CHRONIC WASTING DISEASE

                              ----------                              


                         Thursday, May 16, 2002

                     U.S. House of Representatives

       Subcommittee on Forests and Forest Health, joint with the

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittees met, pursuant to notice, at 9:40 a.m., in 
room 1334, Longworth House Office Building, Hon. Scott McInnis 
[Chairman of the Subcommittee on Forests and Forest Health] 
presiding.

   STATEMENT OF THE HON. SCOTT McINNIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. McInnis. Good morning. Sorry for the delay in opening 
the Committee. I just want to recommend to all of you, do not 
throw a 100-pound bag of peat moss on your shoulder unless you 
have got a back brace.
    The Subcommittee on Forests and Forest Health comes to 
order. The Subcommittees are meeting today to hear testimony on 
Chronic Wasting Disease. We are deeply concerned about this 
situation.
    I ask unanimous consent that Representatives Kind, Barrett, 
Baldwin, Lucas, and Allard have permission to sit on the dais 
and participate in the hearing, Mr. Green, as well. Hearing no 
objection, so ordered. Mr. Ryan, as well. Any Member who wants 
to, they can sit on the panel.
    [Laughter.]
    Mr. McInnis. Under Committee Rule 4G, the Chairman and 
Ranking Member can make opening statements. If any other 
members have statements, they can be included in the hearing 
record under unanimous consent.
    At the outset, I want to thank my colleague and the 
Chairman of the Subcommittee on Fisheries Conservation, 
Wildlife and Oceans, Mr. Gilchrest, for joining with me in 
convening the hearing today.
    I also want to thank our witnesses, who have come from far-
flung parts of the country to be a part of this dialog. I want 
to give a special recognition to my longtime friend, Russell 
George, former Speaker of the House, now head of the Division 
of Wildlife, and his son, Tom. I must say, I have not seen this 
many Coloradans and Wisconsins in the same place since the 
Broncos ran roughshod--
    [Laughter.]
    Mr. Kind. Point of order, Mr. Chairman. Point of order.
    Mr. McInnis. The hearing is going to be pretty serious. I 
figured I would lighten it up here a little. But as a courtesy 
to our guests from Wisconsin, I promise that that will be my 
last reference to the Super Bowl. That was a little ad lib in 
there.
    [Laughter.]
    Mr. McInnis. Today, this joint Subcommittee hearing will 
explore an issue of immeasurable importance to the growing 
number of communities in wide-ranging parts of this country, 
the growing incidence of Chronic Wasting Disease in North 
America's wild and captive deer and elk populations. In a 
matter of just a few months, this once parochial concern has 
grown into something much larger and much more insidious than 
anyone could have imagined or predicted.
    As each day passes, this problem grows in its size, scope, 
and consequence. One thing becomes clear. Chronic Wasting 
Disease is not a Colorado problem. It is a Wisconsin problem or 
a Nebraska or Wyoming problem. It is a national problem and 
anything short of a fully integrated, systematic national 
assault on this simply will not do, which is precisely why we 
brought our group together here today.
    I am joined with my colleague, Mr. Gilchrest, in convening 
this hearing because I wanted to get the best and most 
knowledgeable minds in America on Chronic Wasting Disease into 
the same room, and I think we have accomplished that today to 
begin the process of developing an integrated and long-term 
vision focused on containing and ultimately eradicating this 
disease.
    Let me be clear on one point at the outset that is very, 
very important. Just because this hearing is being held in 
Washington, D.C., before a subcommittee in the U.S. House of 
Representatives does not mean that I, or, I dare say, any of my 
colleagues are even remotely hinting at the outside possibility 
that the Federal Government interfere with the primacy of the 
States when it comes to managing the wildlife and this disease. 
We emphatically are not. The people that have their hands in 
the soil are at the State level, not at the Federal level. The 
States are and will continue to be the decisionmakers in chief 
when it comes to managing this disease. That is how it ought to 
be.
    For my part, I cannot think of a better person than, for 
example, a Russell George to spearhead the attack on Chronic 
Wasting Disease in Colorado. Russ and other officials on our 
State panel are the world's preeminent authorities on Chronic 
Wasting Disease. Any attempt to take the reins of control out 
of their hands would be nothing short of foolhardy. On that 
point, I would venture to say everyone agrees.
    But as this problem has evolved and expanded over the 
course of the last several months, another reality has become 
readily obvious. Our friends in the States will need help. 
Without question, the time has come for Congress, Federal 
agriculture and wildlife officials to begin meaningful 
resources to bear in support of the State-led attack on Chronic 
Wasting Disease. Our role in day-to-day decisionmaking should 
not increase, but the measure of financial assistance and 
technical support must increase.
    In particular, the Federal Government should immediately 
step up and expand Chronic Wasting Disease related research. 
The long-term solution to this problem is summed up in three 
words: Research, research, research. There are other important 
ways for the Federal Government to assist, but research needs 
to be our No. 1.
    Before we start throwing money at this problem, though, the 
Federal Government needs to get its own house in order by 
developing a unified game plan between all of the many involved 
Federal agencies. It is abundantly clear that no such unified 
game plan now exists. To be fair to the multitude of involved 
Federal departments and agencies, this is a complex issue that 
exploded onto the national scene a few months ago, and so I am 
somewhat sympathetic to the fact that our Federal partners are 
not yet singing from the same song sheet.
    But unfortunately, with the disease popping up in new 
places all the time and appropriations season just around the 
corner, we do not have the luxury of time. So my charge to 
involved Federal agencies is this. Before Memorial Day, get 
Congress a unified and integrated game plan that lays out in 
specific terms how the Federal Government intends to support 
the State decisionmakers, what the division of labor between 
Federal agencies should look like, and how much money each of 
these agencies will need to fulfill its assigned mission.
    I do not want one proposal from the AG, one proposal from 
Interior, one proposal from APHIS, and one proposal from USGS. 
I do not want overlapping costs. I want an integrated, 
comprehensive proposal, and it can be done. So I want to put 
everyone on notice, it needs to be done soon.
    Now, if we do not get a unified recommendation out of the 
agency within the next few days, I have got a bill drafted and 
ready to go and I know some of my colleagues do, as well. My 
preference would be that the agencies write the game plan. The 
agencies are the experts. They are the ones that know how to 
coordinate this. This responsibility should not fall on the 
U.S. Congress. However, if it does, we are willing to accept 
it, and if we do not get that unified proposal, we have got one 
here for you. I look forward to discussing this further with 
our Federal panel.
    It is with this I thank all the members and witnesses for 
taking part in this critical decision today. I look forward to 
hearing each of your comments.
    I would also mention to our guests here today that last 
night they delayed some voting until today, so I expect to be 
interrupted throughout the morning with votes. It is an 
unfortunate part of doing business in the Congress. This is one 
of the reasons we asked the hearing start at 9:30 and also, 
what we are going to do is combine the first and second panel 
in hopes that we can give everyone a fair lesson.
    I also want to say to some of the experts out there, 
remember, you are experts talking to non-experts, so talk to us 
at tenth grade level. I mean, we really want to get an 
understanding of what this is about. We all have read in the 
papers and have kind of a basic knowledge, but your education 
to us is very important today and I appreciate you traveling 
these long miles, taking time away from your very important 
duties back in your respective States to help us assist you.
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    At the outset, I want to thank my colleague and the Chairman of the 
Subcommittee on Fisheries and Wildlife, Mr. Gilchrest, for joining with 
me in convening this hearing today. I also want to thank our witnesses 
who have come from far-flung parts of the country to be part of this 
important dialogue. I must say--I haven't seen this many Coloradans and 
Wisconsins in the same place since the Broncos ran-roughshod over the 
Packers in the Super Bowl a couple years back. But as a courtesy to our 
guests from Wisconsin, I promise that that will be both my first and 
last reference to a Super Bowl memory that I suspect many of our 
Wisconsin friends have tried to repress.
    Today, this joint Subcommittee hearing will explore an issue of 
immeasurable importance to a growing number of communities in wide-
ranging parts of this country--the growing incidence of Chronic Wasting 
Disease in North America's wild and captive deer and elk populations. 
In a matter of just a few months, this once parochial concern has grown 
into something much larger and more insidious than anyone could have 
ever imagined or predicted. As each day passes, and this problem grows 
in its size, scope and consequence, one thing becomes clear: Chronic 
Wasting Disease a Colorado problem, or a Wisconsin problem, or a 
Nebraska or Wyoming problem. This is a national problem. And anything 
short of a fully integrated, systematic national assault on this 
disease simply will not do.
    Which is precisely why we are here. I joined with my Colleague Mr. 
Gilchrest in convening this hearing because I wanted to get all of the 
best and most knowledgeable minds in America on Chronic Wasting Disease 
into the same room to begin the process of developing an integrated and 
long-term vision focused on containing and, ultimately, eradicating 
this scourge.
    Let me be clear on one point at the outset, however--just because 
this hearing is being held in Washington, DC before a Subcommittee in 
the U.S. House of Representatives doesn't mean that I--or I dare say 
any of my colleagues--are even remotely hinting at the outside 
possibility that the Federal Government interfere with the primacy of 
the States when it comes to managing the nation's wildlife and this 
disease. We emphatically are not. The States are and will continue to 
be the decision-makers-in-chief when it comes to managing this disease. 
That's the way it ought to be. For my part, I can't think of a better 
person than my good friend Russell George to spearhead the attack on 
Chronic Wasting Disease in Colorado. Russ and the other officials on 
our State panel are the world's preeminent authorities on Chronic 
Wasting Disease. Any attempt to take the reigns of control out of their 
hands would be nothing short of foolhardy. On that point, I would 
venture to say everyone agrees.
    But as this problem has evolved and expanded over the course of the 
last several months, another reality has become readily obvious--our 
friends in the States need help. Without question, the time has come 
for Congress and Federal agricultural and wildlife officials to bring 
meaningful resources to bear in support of the state led attack on 
Chronic Wasting Disease. Our role in day-to-day decision-making should 
not increase, but the measure of our financial assistance and technical 
support must. In particular, the Federal Government should immediately 
step up and expand Chronic Wasting Disease related research. The long-
term solution to this problem is summed up in three words--research, 
research, research. There are other important ways for the Federal 
Government to assist, but research should be our job one.
    Before we start throwing money at this problem, though, the Federal 
Government needs to get its own house in order by developing a unified 
game plan between all of the many involved Federal agencies. It is 
abundantly clear that no such unified game plan now exists. To be fair 
to the multitude of involved Federal departments and agencies, this is 
a complex issue that exploded onto the national scene just months ago, 
and so I'm somewhat sympathetic to the fact that our Federal partners 
aren't yet singing from the same song sheet. But unfortunately, with 
the disease popping up in new places all the time, and appropriations 
season just around the corner, we don't have the luxury of time. So my 
charge to the involved Federal agencies is this: before Memorial Day, 
get Congress a unified and integrated game plan that lays out in 
specific terms how the Federal Government intends to support state 
decision-makers, what the division of labor between the Federal 
agencies should look like, and how much money each of the agencies will 
need to fulfill its assigned mission. I don't want one proposal from 
AG, one proposal from Interior, one proposal from APHIS, and one 
proposal from USGS. I don't overlapping costs. I want one integrated, 
comprehensive proposal. So you've been put on notice.
    Now, if we don't get a unified recommendation out of the agencies 
in the next 10 days, I've got a bill drafted and ready to go, and I 
know some of my Colleagues do as well. My preference would be for the 
agencies to write the game plan. You're the experts. But if we don't 
get a unified proposal out of the agencies and soon, I've got one here 
for you. I look forward to discussing this matter further with our 
Federal panel.
    It is with this that I thank all of our Members and witnesses for 
taking part in this critical discussion today. I look forward to 
hearing each of your comments.
                                 ______
                                 
    Mr. McInnis. With that, Mr. Kind is going to present the 
statement for the Minority. Mr. Kind, the floor is yours.

 STATEMENT OF THE HON. RON KIND, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Kind. Thank you, Mr. Chairman. I want to thank you 
especially, as well as Chairman Gilchrest and Ranking Members 
Inslee and Underwood for moving forward on this very important 
hearing that we are about to have today. I want to thank each 
of our witnesses for your anticipated testimony and guidance in 
helping us try to develop an appropriate response to this.
    I want to especially recognize our delegation from 
Wisconsin, Governor McCallum and DNR Secretary Darrell Bazzell, 
as well as Agriculture Secretary Jim Harsdorf for coming out 
here for this important hearing. Obviously, you have had your 
hands full back in the State of Wisconsin, which is one reason 
we have so many of my colleagues in the Wisconsin delegation on 
the dais today. It is either going to be a hearing on CWD or we 
are going to be talking about milk pricing or something if you 
have a concentration of Wisconsin representatives in the same 
place at the same time on Capitol Hill.
    But this is a very important issue and, Mr. Chairman, I 
could not agree more with the remarks in your opening 
statement. This has to be about research, finding answers to 
the important questions that are out there right now and 
developing a comprehensive yet coordinated response to a very 
serious disease that no longer is isolated in a few Western 
States, but has now been detected east of the Mississippi, in 
the State of Wisconsin for the very first time, but also west 
of the Continental Divide.
    So this is a disease that is spreading throughout the 
continent and it is going to require a national response as 
well as the efforts that are currently taking place in States 
like Wisconsin, Colorado, Nebraska, Wyoming, the interest they 
now have down in Texas and some of the neighboring States that 
have large white-tailed deer population and also elk.
    This is a huge issue for us, Mr. Chairman, in the State of 
Wisconsin. I want to commend Governor McCallum and your staff 
and the various agencies for the rapid response that you have 
shown, given the early detection of CWD after the last deer 
hunting season. The problem that we have, though, is just a 
lack of information, good science in regards to what is the 
best response, how dangerous is this disease. We cannot close 
the door, quite frankly, with the paucity of scientific 
research that is out there right now in regards to how the 
disease spreads, the exposure of other livestock herds--given 
the importance of our dairy industry in the State, that is a 
big issue--and also the human health effects.
    That is why I think we are going to need to work together 
in a bipartisan fashion, Mr. Chairman, in order to work with 
the various agencies to come up with a comprehensive plan and 
approach, and perhaps in Wisconsin the problem is even more 
urgent given the intense density of our deer population. 
Whereas States out West, you have got maybe four to five deer 
per square mile, in the State of Wisconsin, you are talking 
about over 75, 75 to 100 deer per square mile, intensely 
concentrated deer population, but also given the economic 
effect.
    Every year, we have roughly 700,000 hunters that go into 
the field to enjoy a very enjoyable activity, deer hunting, 
myself included. With that, it generates a tremendous amount of 
economic activity in the State. In fact, the last time DNR did 
a comprehensive State survey in Wisconsin, back in 1996, they 
calculated it was roughly a $2.6 billion economic impact, deer 
hunting season alone, in the State of Wisconsin.
    It goes even more than just the effects on the deer herd, 
but it also affects our way of life, a very important tradition 
and quality of life that we enjoy in Wisconsin because now we 
are starting to hear some State officials saying that if we do 
not get ahead of this curve in the State of Wisconsin as 
rapidly as this disease has the potential of spreading, we may 
not have a white-tailed deer herd in Wisconsin in perhaps 20 to 
25 years.
    When I heard those comments, a chill went down my spine, 
Mr. Chairman, because I enjoy the sport. I hunt myself and I 
have two little boys who I want to pass this on to, and a lot 
of hunters that have contacted me are very concerned about that 
same thing. What is this going to mean in regards to the future 
of hunting and outdoor recreation generally in the State of 
Wisconsin?
    That is why I have been leading an effort, with the 
cooperation of the other Wisconsin delegation members, to try 
to help the State in doing what they are trying to accomplish, 
and that is to eradicate the disease before it spins out of 
control. We put in a request to the appropriators to 
appropriate some money to develop a live test for this disease. 
Right now in Wisconsin, we have to kill the deer and then send 
the deer head to Ames, Iowa, because we do not have testing 
facilities in Wisconsin alone. But there is also concern about 
a proposed 15,000 deer kill-off in a much larger geographic 
area at ground zero in the detection of this disease and some 
are starting to question whether that is the most appropriate 
response in dealing with this, and that is why we need to 
develop a live test so we can better track the pathology of 
this disease.
    We also submitted a request to USDA about six to 8 weeks 
ago requesting some emergency discretionary funds be released 
to the State of Wisconsin, $4 million, from CCC, an authorized 
program, discretionary funds that exist. Unfortunately, we were 
notified that USDA does not want to appropriate that money to 
the State of Wisconsin. They are interested in taking a 
national approach, which I find very alarming and very 
disappointing because this is an authorized program. There are 
funds available. What it does, then, is force other members, 
including our Ranking Member on Appropriations, Dave Obey, to 
get a $10 million line item request in a supplemental bill 
because we are not getting, we feel, the cooperation from our 
own department in helping our State deal with the outbreak of 
this disease and the added expense that has been incurred.
    In light of your remarks, Mr. Chairman, in regards to a 
comprehensive research approach to this, we need to be able to 
provide funding back to the States to deal with this, but I 
also believe we need to provide this focused, coordinated 
national effort at the Federal level to respond aggressively, 
and to that end, I introduced bipartisan legislation yesterday 
entitled ``The Chronic Wasting Disease Research and Response 
Act,'' H.R. 4740, that would create a national program to 
address CWD in wildlife. The Department of Interior would be 
the responsible agency for coordinating with the other Federal 
agencies, with States and local agencies and private entities 
in establishing this program for CWD.
    Very quickly, what the legislation calls for is a program 
to provide States with the technical assistance and funding 
that they are now requesting. It would design a national CWD 
monitoring and surveillance program, something that we 
currently lack today; conduct research on how CWD is 
transmitted and the risk to public health and other livestock 
herds and other animals; and develop a rapid, reliable, live 
animal diagnostic test for CWD to evaluate the ecological and 
environmental factors involved in the emergence and the spread 
of this disease; and develop safe methods for the disposal of 
potentially infected carcasses; and develop a public outreach 
and education strategy for the hunting community at large; and 
then assess the likelihood of transmission of CWD to non-
Federal lands and develop management options.
    I think that is the type of coordinated response that we 
are going to have to take with this, hoping to get the 
scientific answers to these very, very important questions.
    So I am looking forward to today's testimony with the 
various panel members, the experts that have been called to 
testify. The stakes are very, very high and yet time is running 
short given the potential for the spread of this, not just in 
the State of Wisconsin. We recognize that this is affecting 
more and more States and is going to become a large national 
and continent-wide issue unless we can get together, working on 
the same page, with an effective response.
    Thank you again, Mr. Chairman, for the hearing today and 
for allowing my participation and the participation of my other 
colleagues from Wisconsin. Thank you.
    Mr. McInnis. Thank you for your comments, Mr. Kind.
    I would like to insert in the record a statement from Mr. 
Gilchrest, Chairman of the Subcommittee on Fisheries 
Conservation, Wildlife, and Oceans.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement by The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    I am pleased to join with my distinguished colleague, Scott McInnis 
in scheduling this timely oversight hearing on the emerging problem of 
Chronic Wasting Disease as it affects populations of deer and elk.
    While Chronic Wasting Disease or CWD has thus far been limited to 
seven Western states and Wisconsin, it is essential that steps be taken 
to stop this fatal and contagious disease. This disease has impacted 
both captive and wild herds of deer and elk. It slowly progresses 
causing its victims to suffer a slow lingering death. This disease has 
the potential to devastate deer and elk herds across the nation. In 
fact, just two weeks ago, the Wisconsin Department of Natural Resources 
announced that 15,000 white-tailed deer would be killed to stop the 
spread of this disease.
    Sadly, there is much we do not know about CWD. For instance, what 
are the modes of transmission? What is responsible for the conversion 
of normal proteins to prions? Are prions even the infective agent? And, 
can CWD infect humans that consume meat from infected animals?
    I am anxious to work with my colleagues to develop a strategy for 
the Federal government to stop the spread of Chronic Wasting Disease. 
This role could include: money for testing, monitoring, research, 
education and proactive control measures. However, we can not sit idly 
by and allow CWD to infect deer and elk populations throughout the 
United States.
    I look forward to hearing from our distinguished witnesses and I 
hope they can enlighten us as to the next necessary steps in the 
escalating battle against this poorly understood and infectious 
disease.
                                 ______
                                 
    Mr. McInnis. I would also like to include in the record a 
statement from Senator Russell Feingold of Wisconsin on Chronic 
Wasting Disease.
    [The prepared statement of Senator Feingold follows:]

  Statement of The Honorable Russell D. Feingold, a Senator from the 
                           State of Wisconsin

    Thank you Mr. Chairman, I am pleased to have an opportunity to 
testify on this issue. I also deeply appreciate the care and effort you 
have taken to ensure that the view of states in which Chronic Wasting 
Disease is an emerging problem, like my home state of Wisconsin, are 
well represented at this hearing. I welcome Governor McCallum, and 
appreciate his willingness o share Wisconsin's timely experience in 
addressing this pressing concern.
    As the Committee knows, and as I have learned, Chronic Wasting 
Disease belongs to the family of transmissible spongiform 
encephalopathies (TSEs) diseases. TSEs are a group of transmissible, 
slowly progressive, degenerative diseases of the central nervous 
systems of several species of animals. Animal TSEs include, in addition 
to Chronic Wasting Disease (CWD) in deer and elk, bovine spongiform 
encephalopathy in cattle, scrapie in sheep and goats, feline spongiform 
encephalopathy in cats, and mink spongiform encephalopathy in mink.
    States like mine are now contemplating how and where their 
Department of Natural Resources will cull deer in an attempt to slow 
the spread of the disease, and it is a difficult choice. Wisconsin is 
contemplating a herd reduction of up to 15,000 animals in ten counties. 
With a disease that has no known mechanism of transmission, large scale 
herd reduction may not fully address the problem. Yet Wisconsin is in 
the difficult position of not being able to put off taking action to 
slow the epidemic until every scientific question has been answered in 
detail. Wisconsinites treasure the sight of deer in our woods and 
tourism and hunting are important to our state's economy, as well.
    I know that Governor McCallum will review our state's experience 
and the actions we are contemplating in greater detail. I am repeating 
some of these facts, Mr. Chairman, because I feel strongly that 
Wisconsin's struggles to manage the disease should not also be 
complicated by struggles to interact with a variety of different 
Federal agencies each with differing and intersecting responsibilities 
on the issue of Chronic Wasting Disease.
    In short, this oversight hearing is sorely needed and long overdue. 
In 1967, scientists in a northern Colorado wildlife research facility 
discovered CWD, a deadly illness in the lab's mule deer population. 
Thirty-five years later, the disease has spread to Kansas, Nebraska, 
Montana, Oklahoma, South Dakota, Wisconsin, and Wyoming. Without a 
swift and coordinated Federal response, this disease will spread across 
the nation, and I look forward to hearing from both Department of 
Interior and Department of Agriculture agencies about their efforts to 
date, and the solutions they propose.
    State wildlife and agriculture departments do not have the fiscal 
or scientific capacity to adequately confront the problem. Their 
resources are spread too thin as they attempt to prevent the disease 
from spreading, treat infected or exposed populations, and research for 
a cure. Help in the form of emergency funding, research grants, and 
scientific expertise is urgently needed. Federal and state cooperation 
will protect animal welfare, safeguard our valued livestock industry, 
provide relief to family elk ranchers, help guarantee America's food 
safety, and protect the public health.
    We must act quickly to end this disease, and a strong Federal 
program directed toward total elimination of this disease must be 
implemented. This hearing will help answer the. questions surrounding 
Chronic Wasting Disease, and help us coordinate our efforts to protect 
our national deer and elk populations.
    So, Mr. Chairman, I commend you for having this oversight hearing. 
I look forward to hearing from the government, Federal agency, and non-
governmental organizations on this. challenging problem.
                                 ______
                                 
    Mr. McInnis. Let me stress to the media that is in the room 
today that it is not our intent to create a panic as a result 
of this disease. We are just trying to figure out exactly what 
the threat assessment should be and we are going to rely very 
heavily on our witnesses today to guide us through that, 
because we want hunters coming to our States and so on. We need 
some guidance. If we are overstating the threat, let us know.
    Generally, under the Committee Rules, we ask the witnesses 
to keep their comments under 5 minutes. That is so that we all 
have an opportunity to have a two-way conversation through 
questioning later on. I am going to make an exception with Dr. 
Miller, and Dr. Miller, I ask you to keep your comments within 
10 minutes, the purpose being Dr. Miller is going to give us 
kind of a primer of what this disease is. He has condensed it, 
but 10 minutes is about as quick as he can do it.
    I would ask the first panel to be seated. We have got Dr. 
Miller, Colorado Department of Natural Resources; the Honorable 
Scott McCallum, Governor of the State of Wisconsin; Russell 
George, Colorado Department of Natural Resources; Dr. Thorne 
from the Wyoming Game and Fish Department, and Bruce Morrison 
from the Nebraska Game and Parks Commission.
    So if you would come up, Dr. Miller, we will start with 
you. For the panel's information, they are going to start our 
first vote at 10:00, so we will try and get through Dr. 
Miller's testimony first. Then we will go vote and return. You 
may proceed, Dr. Miller.

  STATEMENT OF MICHAEL MILLER, D.V.M., WILDLIFE VETERINARIAN, 
   WILDLIFE RESEARCH CENTER, DIVISION OF WILDLIFE, COLORADO 
                DEPARTMENT OF NATURAL RESOURCES

    Dr. Miller. Good morning, Mr. Chairman and Committee 
members. I am Michael Miller, staff veterinarian for the 
Colorado Division of Wildlife and I really appreciate the 
opportunity and the invitation to be here and offer you some 
background on your discussions today. I am sure all of you are 
obviously familiar with this problem, at least to some extent, 
and so what I want to do briefly is give you some key features 
of the disease by way of review, talk about its history and 
what we currently know about the distribution and occurrence of 
Chronic Wasting Disease in both free-ranging and farm deer and 
elk.
    The information I am presenting is actually a synthesis of 
data and these data have been generated by a number of State 
and Federal and university scientists who have actually been 
collaboratively working on Chronic Wasting Disease research for 
over two decades. In particular, please recognize the 
contributions of Dr. Beth Williams, who is actually in the 
gallery today, from the University of Wyoming; Dr. Terry 
Spraker from Colorado State University; Dr. Katherine O'Rourke 
and colleagues from the USDA ARS laboratory in Pullman; Dr. 
Byron Caughey, Richard Race, and colleagues from the NIH Rocky 
Mountain Laboratory in Hamilton; and Dr. Tom Thorne and 
colleagues from the Wyoming Game and Fish Department. All of 
them have helped us considerably over the years in advancing 
our collective understanding of Chronic Wasting Disease.
    Now, Chronic Wasting Disease, or CWD as we will probably 
refer to it most of the day, is one of a small but important 
group of diseases called transmissible spongiform 
encephalopathies, or TSEs, or prion diseases. These diseases 
are believed to be caused by strains of infectious, self-
propagating protein. These prion diseases are relatively new to 
science and many aspects of their biology are poorly 
understood. Some of the known prion diseases affect domestic or 
wild animals and others occur naturally in humans.
    There are three important prion diseases of food-producing 
animals. The most common and widespread of these is scrapie of 
domestic sheep and goats. It occurs in the United States and 
virtually worldwide and has been recognized as an animal health 
problem for over 200 years. Compared to scrapie, Chronic 
Wasting Disease is relatively rare and it affects native North 
American deer and elk in the cervid, or deer, family.
    The third of these diseases is actually one that has 
focused public attention on all the prion diseases. I am sure 
that you have all heard of bovine spongiform encephalopathy, or 
maybe BSE, or at the very least, ``mad cow disease,'' and are 
well aware of the impacts on agricultural economies in the 
United Kingdom and several European countries.
    I am also sure that you are aware that in a relatively 
small but significant number of cases, BSE apparently was 
transmitted to humans and manifested itself as a variant of 
Creutzfeldt-Jakob disease. Although sporadic CJD occurs in 
human populations worldwide with an attack rate of about one to 
two cases per million, the occurrence of this much rarer 
variant CJD in British citizens sparked a public health crisis, 
perceived if not real, that has influenced public perceptions 
about animal prion diseases both overseas and here in the 
United States.
    It is really important for you all to understand that 
Chronic Wasting Disease is not simply BSE in deer and elk. 
These are diseases in the same family, but we know that the 
strain of prion that causes wasting disease is quite different 
from the strain that causes BSE and also appears to be somewhat 
different from strains that cause scrapie.
    The true origin of Chronic Wasting Disease remains unknown, 
despite what you may read on the web or see in the newspaper. 
Whether it began as scrapie or as a sporadic disease of deer or 
elk is, and probably always will be, a mystery.
    The known natural host range of Chronic Wasting Disease is 
limited to three species, all from the deer family. These are 
mule deer, white-tailed deer, and elk. All three species show 
similar susceptibility and the disease does not appear to be 
naturally transmissible to domestic livestock or pets, to other 
wildlife species, or humans. Experimentally, Chronic Wasting 
Disease has been transmitted to several species using unnatural 
exposure routes, but in general, this experimental transmission 
is much less efficient than it is for scrapie, which does not 
appear to be a large problem outside the sheep and goats.
    The hallmark signs for end-stage Chronic Wasting Disease 
are emaciation and abnormal behavior in deer and elk. Other 
health problems can confound the diagnosis of Chronic Wasting 
Disease and so laboratories are necessary to confirm infections 
in suspect animals. Chronic Wasting Disease is inevitably fatal 
in deer and elk. There are no vaccines or treatments available 
to protect or cure susceptible animals.
    There are several important epidemiological features of 
Chronic Wasting Disease. The incubation period averages 20 to 
30 months with natural infections, but may be somewhat shorter 
or considerably longer in individual cases. Susceptibility 
appears to be pretty uniform between sexes and across age 
classes. The wasting disease appears to be maintained naturally 
in both captive and free-ranging populations through direct or 
indirect animal-to-animal transmission, and although we do not 
know exactly how the disease is transmitted, the agent is 
probably shed in feces, saliva, and perhaps urine.
    In addition, contaminated environments likely play a role 
in epidemics. In some cases, the wasting disease agent 
apparently persisted in heavily contaminated environments for 
years after all infected deer or elk had been removed, and this 
environmental persistence obviously represents a significant 
obstacle for eradicating Chronic Wasting Disease in places 
where it has already become well-established, either in 
captivity or in the wild.
    Chronic Wasting Disease is not new. The clinical syndrome 
of chronic wasting was first recognized in captive mule deer in 
Colorado in the late 1960's, but it is likely that this disease 
arose in captive and/or free-ranging cervids even earlier. In 
1978, Drs. Williams and Young recognized that this was, in 
fact, one of the TSEs. The disease was first detected in free-
ranging deer and elk in northeastern Colorado in the early 
1980's, but these almost certainly were not the first cases to 
occur in either State.
    Similarly, the first diagnosis was in a farmed elk in 
Saskatchewan, but the source of infection appears to have been 
farmed elk imported from South Dakota in the late 1980's, if 
not earlier. In the last 2 years, wasting disease has been 
detected in free-ranging deer in several locations well outside 
the original endemic focus, and precisely how and when these 
new foci of infection came about is not entirely clear. There 
is some value in recognizing these dates as milestones in the 
history of wasting disease, but I think we need to be careful 
about interpreting them as absolute time lines for the 
emergence of this disease.
    Surveillance systems for Chronic Wasting Disease in free-
ranging wildlife evolved in the absence of regulatory or 
economic pressure. To date, the motivations for reliably 
estimating the distribution and occurrence of wasting disease 
in native wildlife populations has actually been twofold. One 
is scientific curiosity and the other is a sense of 
responsibility for acquiring and conveying to the public 
accurate information about this disease and its occurrence in 
public resources. Similarly, the farmed elk industry recognized 
early on the value of detecting wasting disease in their herds 
as a basis for effective disease management.
    Using various combinations of surveillance, we have 
developed a pretty good understanding of the basic status of 
wasting disease in North America. There seem to be two 
relatively distinct epidemics, one in free-ranging cervids in 
northeastern Colorado, southeastern Wyoming, and the 
southwestern corner of the Nebraska panhandle. The other is in 
a relatively small number of farmed elk herds scattered across 
the U.S. and Canada with some apparent and unfortunate 
spillover into populations of free-ranging deer in 
Saskatchewan, northwestern Nebraska, and South Dakota.
    Let me give you some real quick highlights of the epidemic, 
the main epidemic in free-ranging deer and elk. Surveillance 
for clinical suspects has been going on since the 1980's and 
harvest surveys began in the 1990's. In all, about 15,000 deer 
and elk harvested or culled in Colorado, Wyoming, and Nebraska 
endemic area have been sampled to date. These surveys have 
revealed the contiguous endemic focus of wasting disease that 
primarily involves mule deer, but also includes white-tailed 
deer and elk where they occur in those areas.
    This so-called endemic area spans over 19,000 square miles 
of mixed native habits. The most intensively infected area 
extends from the Laramie Mountains in Wyoming south into north 
central Colorado. In this area, average infection rates exceed 
10 percent in sampled mule deer. Surveys have also been 
conducted over the last 5 years in other parts of Colorado and 
Wyoming, as well as in portions of a number of nearby and 
distant States by responsible wildlife management and animal 
health agencies. With few notable exceptions, none of these 
surveys have revealed other foci of wasting disease in free-
ranging cervids.
    In all, over 10,000 deer and elk from these other area have 
tested negative through the 2000-2001 sampling season and more 
data will be available for this last year fairly soon. At the 
very least, I think these data clearly demonstrate that, right 
now, wasting disease is not uniformly present across all of our 
native cervid populations here in the U.S.
    I want to turn your attention briefly to the status of 
wasting disease in farmed elk, and you may hear more about this 
later from Dr. Zebarth, but since the first diagnosis was made 
in farmed elk in 1996, epidemiological investigations and 
surveillance have disclosed infections in 62 game farms in six 
western States and two Canadian provinces with a few other 
herds under investigation. South Korea also apparently received 
infected elk from Saskatchewan in 1997, representing the first 
known extension of Chronic Wasting Disease beyond the North 
American continent. There are documented epidemiological 
connections among some, but not all, of the infected farm 
herds.
    The elk industry, in conjunction with responsible State and 
Federal animal health agencies has been quite aggressive in 
dealing with Chronic Wasting Disease and trying to develop a 
national industry program Of the infected elk farms identified 
to date, only a few remain under some form of quarantine and 
negotiated disease management. The remaining herds either have 
been or are in the process of being depopulated, and 
unfortunately, in a few cases, it does appear that infected elk 
farms may have exposed local free-ranging deer populations to 
Chronic Wasting Disease before infections wee detected.
    So although Chronic Wasting Disease is of understandable 
concern to a variety of interests, there is a considerable 
amount of information about it that can help us assess risk and 
guide your policy decisions. In the U.S., wasting disease is 
probably best viewed as two separate epidemics, one involving 
free-ranging cervids and the other involving captive elk. 
Neither of these epidemics are particularly new. Both epidemics 
are relatively well described, particularly in comparison to 
scrapie in the U.S. CWD is naturally maintained in both free-
ranging and captive deer and elk populations and, thus, 
management will be challenging in both settings.
    In the short term, Chronic Wasting Disease in captive elk 
is much more likely to be manageable than in free-ranging 
cervids, but I have no doubt that as new knowledge on wasting 
disease and other TSEs comes into play, that will help greatly 
in managing this situation in both captive and free-ranging 
populations.
    There are perceptions that Chronic Wasting Disease may 
somehow threaten human or traditional domestic livestock health 
and these perceptions clearly factor into the motivations for 
managing Chronic Wasting Disease, even though data and 
experiences to date suggest that those threats appear 
vanishingly small. We know, however, that Chronic Wasting 
Disease represents a significant threat to the health and long-
term stability of free-ranging deer and elk resources that are 
an important component of both the ecology and economy of 
virtually every State represented in this Congress.
    According to published model forecasts of Chronic Wasting 
Disease epidemics in deer populations, unmanaged outbreaks will 
likely devastate infected herds over a period of several 
decades. In the interim, the public value of these herds may 
well be diminished simply by virtue of their status as CWD 
infected.
    Mr. McInnis. Dr. Miller, I am sorry to interrupt you, but 
we have about eight-and-a-half minutes left, so we will have to 
adjourn temporarily and we will come back and let you finish 
your statement.
    Dr. Miller. Very good. I have one more sentence, but go 
ahead.
    Mr. McInnis. Oh, no, one more sentence.
    [Laughter.]
    Mr. McInnis. But I will tell you, I also want to have you 
address this. There have been accusations that the most likely 
cause of the wasting disease in western Colorado was the 
Division of Wildlife itself through its testing facilities, so 
if that is going to take you longer than a paragraph, we will 
come back. Otherwise, you can wrap up.
    Dr. Miller. That will take a few minutes, so certainly.
    Mr. McInnis. OK. Why do you not finish your one sentence, 
we will come back and address that, and then we will go on to 
the Governor. And please be patient. We will be back here as 
quickly as we can.
    I might also mention, Republican members, you have a 
conference. I would ask--I do not do this very often, but I 
would ask you to skip the conference and come back here because 
this is such a critical issue. We will continue this within 
about 15 minutes.
    Go ahead and finish your sentence and we will go on and 
vote.
    Dr. Miller. The threat posed to our valuable wildlife 
resources seems more than sufficient to justify more aggressive 
actions, fostered by State and Federal cooperation to identify 
foci of infection, contain these, and, where possible, 
eliminate Chronic Wasting Disease from our nation's free-
ranging deer and elk populations. Thank you for the opportunity 
to share this background.
    Mr. McInnis. Thank you, Doctor.
    [The prepared statement of Dr. Miller follows:]

   Statement of Dr. Michael Miller, Wildlife Veterinarian, Wildlife 
 Research Center. Division of Wildlife, Colorado Department of Natural 
                               Resources

    Good morning, Mr. Chairman and committee members. I am Michael 
Miller, Staff Veterinarian for the Colorado Division of Wildlife. I 
sincerely appreciate the invitation to appear before your Subcommittees 
to provide some background information on Chronic Wasting Disease of 
deer and elk as a foundation for today's discussions. I'm sure that all 
of you, as members of the Resources Committee, are at least somewhat 
familiar with this disease, so much of this may well be review. In the 
next few minutes I plan to briefly review key features of Chronic 
Wasting Disease, its history, and what we currently know about its 
distribution and occurrence in both free-ranging and farmed deer and 
elk.
    The information I'm presenting is a synthesis of data, much of it 
previously published in peer-reviewed scientific journals. These data 
have been generated by a number of talented state, Federal, and 
university scientists who have been collaboratively working on Chronic 
Wasting Disease for over two decades. In particular, please recognize 
the contributions that Dr. Beth Williams from the University of 
Wyoming, Dr. Terry Spraker from Colorado State University, Dr. 
Katherine O'Rourke and colleagues from the USDA ARS laboratory in 
Pullman, Washington, Dr. Byron Caughey and colleagues from the NIH 
Rocky Mountain Laboratory in Hamilton, Montana, and Dr. Tom Thorne from 
the Wyoming Game and Fish Department have made to our collective 
understanding of Chronic Wasting Disease in deer and elk.
The prion diseases
    Chronic Wasting Disease, or CWD, is one of a relatively small but 
important group of diseases called transmissible spongiform 
encephalopathies (or TSEs, or prion diseases). These diseases are 
believed to be caused by a number of unique strains of infectious, 
self-propagating prion protein. The prion diseases are relatively new 
to science, and many aspects of their biology are poorly understood. 
Some of the known prion diseases affect domestic or wild animals, while 
others occur naturally in humans.
    There are three important prion diseases of food-producing animals. 
The most common and widespread of these is scrapie of domestic sheep 
and goats, which occurs throughout the United States and virtually 
world-wide and has been recognized as an animal health problem for over 
200 years. Chronic Wasting Disease is relatively rare, affecting native 
North American deer and elk species in the cervid (or deer) family--
we'll spend most of our time today talking more about CWD. However, the 
third of these is the one that focused public attention on the prion 
diseases: I'm sure you've all heard of bovine spongiform 
encephalopathy, also called BSE or ``mad cow disease'', and are well 
aware of the impacts that this disease has had on agricultural 
economies in the United Kingdom and several European countries. I'm 
sure you're also aware that, in a relatively small but still 
significant number of cases, BSE apparently was transmitted to humans 
and manifested itself as a variant of Creutzfeldt-Jakob disease (or 
vCJD). Although sporadic CJD occurs in human populations world-wide 
with an attack rate of 1-2 cases/million people, the occurrence of 
variant CJD in British citizens sparked a public health crisis, 
perceived if not real, that has influenced public perceptions about 
animal prion diseases both overseas and here in the US.
    It's very important for all of you to understand that Chronic 
Wasting Disease is NOT simply BSE in deer and elk, as some might have 
you believe. Although these maladies are in the same disease family, we 
know that the strain of prion that appears to cause CWD is quite 
different from the strain that causes BSE, and also appears somewhat 
different from strains of scrapie that naturally infect domestic sheep 
and goats here in the U.S. and overseas. The true origin of CWD remains 
unknown (despite what you may read on the Web or in the newspaper)--
whether it began as scrapie or as a sporadic disease of deer or elk is, 
and probably will always be, a mystery.
Chronic Wasting Disease
    The known natural host range for CWD is limited to three species, 
all from the'deer'' (or cervid) family: mule deer and white-tailed deer 
(both in the genus Odocoileus), and elk (in the genus Cervus). All 
three natural host species show similar susceptibility to CWD, but 
there appear to be some species- or genus-specific differences that may 
influence how the disease behaves in each species. Chronic Wasting 
Disease does not appear to be naturally transmissible to domestic 
livestock or pets, other wildlife species, or humans. Experimentally, 
Chronic Wasting Disease has been transmitted to several species using 
unnatural exposure routes. In general, experimental transmission of the 
CWD prion is much less efficient than experimental transmission of 
scrapie. After over two centuries of experience with scrapie, this more 
common animal prion disease has not been shown to transmit naturally to 
species other than sheep and goats; this offers considerable 
reassurance that the natural host range of CWD is likely to be limited 
only to select species in the deer family.
    The hallmark clinical signs for end-stage CWD are emaciation and 
abnormal behavior. In practice, subtle changes in behavior, 
attentiveness, and locomotion can be seen in most infected animals some 
months before end-stage disease develops. Other health problems, 
particularly pneumonia and injury, can confound the diagnosis of CWD in 
deer and elk. Consequently, as with other animal TSEs, laboratory 
diagnosis is necessary to confirm infections in suspect animals.
    There are several important epidemiological features of CWD. We 
know to expect a prolonged incubation period in exposed deer and elk 
that averages somewhere in the range of 20-30 months with natural 
infections, but may be somewhat shorter or considerably longer (perhaps 
60 months or more) in individual cases. Susceptibility to CWD infection 
appears to be relatively uniform among species, between sexes, and 
across age classes; there does appear to be some genetic influence on 
susceptibility in elk but not deer. CWD appears to be maintained 
naturally in both captive and free-ranging cervid populations; 
epidemics persist in the absence of exposure to contaminated feeds or 
other likely outside sources of infection. Direct or indirect animal-
to-animal transmission, not necessarily along maternal lines, drives 
CWD epidemics. Although we don't know precisely how CWD is transmitted 
among deer and elk, the agent is probably shed in feces, saliva, and 
perhaps urine. In addition, contaminated environments likely play a 
role in epidemics and the recurrence of disease in some situations--in 
some cases, the CWD agent apparently persisted in heavily contaminated 
environments for years after all infected deer or elk had been removed. 
This environmental persistence obviously represents a significant 
obstacle for eradicating CWD in places where it is already well-
established, either in captivity or in the wild.
    Chronic Wasting Disease is not a new prion disease. The clinical 
syndrome of ``chronic wasting'' was first recognized in captive mule 
deer in Colorado in the late 1960s, but tying the first recognition of 
a disease like this to its first occurrence seems like a substantial 
leap of faith. Based on what we now know about its distribution and 
occurrence, it is quite plausible that CWD actually arose in captive 
and/or free-ranging cervids 40 or more years ago. In 1977, Drs. 
Williams and Young recognized that CWD was, in fact, a TSE. Within a 
few years of finally having a clear-cut diagnostic criterion, CWD was 
first detected in free-ranging elk and deer in northeastern Colorado 
and southeastern Wyoming--however, these were almost certainly not the 
first cases to occur in the wild in either state. Similarly, the first 
diagnosis of CWD in a farmed elk was made in Saskatchewan in 1996--in 
retrospect, this most assuredly was not the first case to occur in the 
elk industry in either Canada or the U.S. because Canadian 
investigations have shown that some infected elk were apparently 
imported into Canada from South Dakota in the late 1980s, if not 
earlier. In the last 2 years, CWD has now been detected in free-ranging 
deer in several locations well outside the original known endemic focus 
of southeastern Wyoming and northeastern Colorado. Precisely how and 
when these scattered foci of infection came about is not entirely 
clear. So, although there may be some value in recognizing these 
milestones in the history of CWD, it's important not to interpret these 
as absolute timelines for the emergence of this disease.
Approaches for assessing status
    Before proceeding into what we know about the status of CWD in both 
free-ranging and farmed cervids, I want to provide a bit of context on 
how we've come to know what we know. To truly appreciate how much we 
know about CWD, it's important to compare approaches for detecting CWD 
with traditional approaches for detecting TSEs in other animal species. 
For both scrapie and BSE, there has tended to be a focus on clinical 
cases as the means of detecting new infections. This is clearly an 
effective approach, particularly when such diseases are reportable, but 
there are biases and limitations inherent in this strategy. Moreover, 
these surveillance programs are often conducted in an atmosphere where 
there may be substantial economic penalties for owners of infected 
animals or herds.
    Please recognize that animals showing end-stage clinical disease 
represent the ``tip of the iceberg'' with respect to the overall rate 
of infection in the population of interest. Those of us working with 
CWD also recognized this some time ago, and modified our surveillance 
strategies accordingly. Initially, we used histopathology of brainstem 
samples as an adjunct to surveying populations for CWD, and gained a 
much better appreciation of the size and shape of the iceberg. 
Beginning in 1996, we adopted immunohistochemistry (IHC) of brainstem 
as our screening tool for surveillance, and again improved our 
appreciation of the iceberg's depth and magnitude. And, for the last 3 
years, we've been able to use IHC of tonsillar tissues to gain an 
almost, but not quite complete, picture of the CWD iceberg. We know 
even these IHC-based estimates of CWD prevalence are still a little 
low, but they're much closer to truth than data generated otherwise.
    Surveillance systems for CWD in free-ranging wildlife evolved in 
the absence of regulatory or economic pressure. To date, the 
motivations for reliably estimating the distribution and prevalence of 
CWD in native wildlife populations have been twofold: scientific 
curiosity, accompanied by a sense of responsibility for acquiring and 
conveying to the public accurate information about this disease and its 
occurrence in public resources. Similarly, the farmed elk industry 
recognized early on the value of detecting CWD in their herds as a 
basis for effective disease management. In this environment, three 
somewhat distinct approaches to CWD surveillance have evolved and are 
currently in use in varying combinations. An appreciation of the 
details and applications of each is important in interpreting data on 
CWD status.
    The foregoing caveats notwithstanding, surveillance for clinical 
suspects remains an effective tool for detecting new foci of CWD 
infection in both captive and free-ranging settings. Under these 
systems, clinical suspects are sampled whenever available. 
Histopathology of brainstem is usually sufficient to diagnose cases, 
but IHC is a valuable adjunct in many cases. Data are clearly biased, 
and consequently are of little use in estimating prevalence. This 
approach is very similar to traditional scrapie surveillance in the US.
    In some captive settings, CWD surveillance has been applied to all 
natural mortalities, and in some cases to all mortalities regardless of 
proximate cause. Several states have adopted this approach in rules 
that regulate their elk industries. Mortality-based surveillance is 
also an effective tool for detecting new foci of CWD infection, and has 
resulted in the disclosures of several infected elk farms over the last 
3 years. Here again, histopathology of brainstem (a specific portion 
called the ``obex'') is usually sufficient to diagnose cases, but IHC 
is a valuable adjunct. Inherent biases in these data limit their use in 
estimating prevalence. This approach is considerably more aggressive 
than traditional scrapie surveillance in the US, and has facilitated 
CWD detection in the elk industry.
    And finally, those of us investigating CWD in free-ranging 
populations over the last decade have developed efficient techniques 
for conducting geographically-targeted random sampling of harvested 
deer and elk to estimate prevalence and monitor trends. In these 
surveys, sections of obex and, more recently, tonsil are collected and 
examined via immunohistochemistry; infections can be staged further by 
histopathology. Data from these samples represent relatively unbiased 
point estimates of CWD prevalence. Unfortunately, comparable slaughter 
survey data for scrapie and BSE have not been reported formally, 
confounding comparisons of epidemic severity between CWD and, for 
example, scrapie in the US. This lack of comparable data has perhaps 
fostered misperceptions about CWD.
Current status in free-ranging and captive deer and elk
    Using various combinations of these 3 surveillance approaches, we 
have developed a good basic understanding of CWD's status in North 
America. At present, there appear to be 2 relatively distinct CWD 
epidemics occurring in North American cervid populations. One epidemic 
focus is in free-ranging cervids in southeastern Wyoming, northeastern 
Colorado, and the southwestern corner of the Nebraska panhandle. The 
other epidemic is occurring in a relatively small number of farmed elk 
herds scattered across the U.S. and Canada, with apparent spill-over to 
local populations of free-ranging deer in Saskatchewan, northwestern 
Nebraska, and South Dakota. Although a common source for both epidemics 
has been speculated, and would certainly be the most parsimonious way 
to explain the origins of CWD, no common thread linking all of these 
has been demonstrated to date.
    Alternatively, not knowing how or when CWD originated in the first 
place, it is conceivable that whatever event gave rise to CWD once 
could have occurred again in farmed elk, and that the two epidemics are 
not directly related. This also could perhaps explain the recent 
occurrences of CWD in Wisconsin and northwestern Colorado, where no 
known exposure source has been identified to date. Regardless of 
whether or not they have a common root origin, these epidemics, as we 
understand them today, appear to be essentially unrelated 
epidemiologically and are probably best considered independently.
    I'll first give some highlights of the main CWD epidemic in free-
ranging deer and elk.
    Chronic Wasting Disease has been recognized in free-ranging deer 
and elk since the early 1980s. This epidemic is likely related in some 
way to cases originally reported in captive research animals, but which 
came first is truly a chicken-or-egg question that we're probably never 
going to answer. Initially, clinical cases were recognized in both 
free-ranging deer and elk in northeastern Colorado and southeastern 
Wyoming. Surveillance for clinical suspects has been ongoing in both 
states since these first cases were detected. Harvest-based surveys 
were conducted intermittently beginning in 1983, and annually in some 
areas beginning in 1990. Since 1996, we've been using 
immunohistochemistry to enhance detection of infected animals. In all, 
about 15,000 deer and elk harvested or culled in northeastern Colorado, 
southeastern Wyoming, and western Nebraska have been sampled to date. 
Ongoing random surveys have revealed a contiguous endemic focus of CWD 
that primarily involves mule deer, but also includes white-tailed deer 
and elk where they occur in that area. This so-called ``endemic area'' 
spans over 16,000 mi2 of mixed native habitats. The most intensively 
infected area extends from the Laramie Mountains in Wyoming south into 
the northern Front Range in Colorado--in this area, average infection 
rates exceed 10% in sampled mule deer. This high prevalence ridge is 
surrounded by areas of successively lower prevalence. On the fringes of 
the endemic area, prevalence is 1% or less in deer. Elk reside in the 
western half of this area; CWD prevalence in this species is <1% in all 
of the areas sampled. Where white-tailed deer ranges overlap with mule 
deer, CWD prevalence is similar in both deer species. The spatial 
pattern of relative disease prevalence strongly suggests that what 
we're seeing is actually an epidemic occurring in slow motion, 
extending geographically through natural animal movements. Computer 
models suggest that CWD has likely been present in some of the more 
heavily infected areas for 35 years or more. Surveys have been 
conducted over the last 5 years in other parts of Colorado and Wyoming, 
as well as in portions of a number of nearby and distant states and 
provinces by responsible wildlife management and animal health 
agencies. With a few notable exceptions that you'll hear more about 
later, none of these surveys have revealed other foci of CWD presently 
exist in free-ranging cervids. In all, over 10,000 deer and elk from 
these areas had tested negative through the 2000-2001 sampling season. 
At the very least, these data clearly demonstrate that CWD is not 
uniformly prevalent across all of our native cervid populations in the 
U.S. and Canada.
    I now want to turn your attention briefly to the status of CWD in 
farmed elk.
    As is the case with CWD in free-ranging cervids, this disease has 
likely been in the captive wildlife industry for some time. The first 
report of a farmed elk with CWD came from Saskatchewan in 1996--it was 
a routine submission of an animal with chronic pneumonia that was 
refractory to treatment. Nearly 2 years later, a similar case was 
submitted from a South Dakota elk farm. Subsequent epidemiological 
investigations, as well as submissions made voluntarily or in 
compliance with mandatory surveillance rules, have led to disclosure of 
CWD infections in 62 game farms in 6 western states and 2 Canadian 
provinces; a few others remain under investigation. South Korea also 
apparently received infected elk from Saskatchewan in 1997, 
representing the first known extension of CWD beyond the North American 
continent. To date, all of the CWD cases in privately-owned cervids 
have occurred in elk. However, very little surveillance has been 
conducted in privately-owned captive deer herds to date. The apparent 
intensity of infections in herds studied to date has varied widely, and 
probably reflects influences of husbandry, as well as the duration of 
infection in a particular herd. There are epidemiological connections, 
documented through animal movements, among some but not all of the 
infected herds. And, although there is geographic overlap between the 
location of some infected Colorado farms and the endemic focus in free-
ranging deer, with one exception epidemiological investigations really 
don't support free-ranging deer as the most likely source of infection 
in these cases.
    The elk industry, in conjunction with responsible state and Federal 
animal health agencies, has been quite aggressive in dealing with CWD. 
Of the infected elk farms identified to date, only a few remain under 
some form of quarantine and negotiated disease management--the 
remaining herds either have been or are in the process of being 
depopulated. Before Federal funds were available through a national CWD 
program for captive elk in the US, many of the herds were depopulated 
voluntarily or with the help of industry funding. Both Canada and the 
U.S. are in the process of developing national CWD programs. In the 
interim, several states have programs and regulations for CWD in farmed 
cervids in various stages of development and implementation.
Managing Chronic Wasting Disease
    Although CWD is of understandable concern to a variety of 
interests, there is a considerable amount of information available to 
help assess risk and guide policy decisions. In the US, CWD is probably 
best viewed as 2 separate epidemics, one involving free-ranging cervids 
and the other involving captive elk. Neither of these epidemics is 
particularly new. Both epidemics are relatively well-described, 
particularly in comparison to scrapie in the US. CWD is naturally 
maintained in both free-ranging and captive cervid populations, and 
thus management will be challenging in both settings. In the short-
term, CWD in captive elk is much more likely to be manageable than CWD 
in free-ranging cervids. I have no doubt, however, that new knowledge 
on CWD and other TSEs will factor into future plans for further 
understanding and managing both problems.
    There are perceptions that CWD may somehow threaten human or 
traditional domestic livestock health. These perceptions clearly factor 
into motivations for managing CWD, even though data and experiences to 
date suggest those threats appear vanishingly small. We know, however, 
that CWD represents a significant threat to the health and long-term 
stability of free-ranging deer or elk resources that are an important 
component of both the ecology and economy of virtually every state 
represented in this Congress. According to published model forecasts of 
CWD epidemics in deer populations, unmanaged outbreaks will likely 
devastate infected herds over a period of several decades. In the 
interim, the public value of these infected herds may well be 
diminished, simply by virtue of their status as CWD-infected. At 
present, the threat posed to our valuable wildlife resources seems more 
than sufficient to justify more aggressive actions, fostered by state-
Federal cooperation, to identify foci of infection, contain these and, 
where possible, eliminate Chronic Wasting Disease from our nation's 
free-ranging deer and elk populations.
                                 ______
                                 
    Mr. McInnis. We will reconvene in a few minutes.
    [Recess.]
    Mr. Gilchrest. [Presiding.] The hearing will come to order. 
We appreciate your patience during the vote and we will go to 
Senator Allard for his opening statement, and then if there are 
any questions, we will discuss just for a few minutes with 
Senator Allard. I will take the Chair until Mr. McInnis gets 
back, and then we will proceed under regular order.
    Mr. Allard, welcome.

 STATEMENT OF HON. WAYNE ALLARD, A UNITED STATES SENATOR FROM 
                     THE STATE OF COLORADO

    Senator Allard. Thank you, Mr. Chairman. It is always nice 
to have a Wayne testify in front of Wayne.
    Mr. Gilchrest. Yes, sir, absolutely.
    Senator Allard. Wayne Gilchrest.
    Mr. Gilchrest. We have something in common, then.
    Senator Allard. Yes, I guess we do.
    Mr. Chairman, I want to thank you for the opportunity to 
speak before you this morning on Chronic Wasting Disease and 
for holding this very timely oversight hearing. My comments--I 
want to emphasize the fact that we have ignored the problem of 
Chronic Wasting Disease entirely too long and I think that we 
need to focus on improving our diagnostic capabilities and 
research, something that is more timely. We also need to 
increase capacity.
    Mr. Chairman, I made some formal remarks and I would like 
to submit those for the record and then I will speak from an 
outline.
    Mr. Gilchrest. Without objection.
    Senator Allard. As a Senator, Chronic Wasting Disease 
presents a great animal health challenge. As a veterinarian, 
Chronic Wasting Disease presents an even greater challenge to 
the scientific communities of both the States and the Federal 
Government. This morning, you will hear from experts--you have 
already begun to hear from them--from across the country 
describing the diseases and some of the issues will be new to 
this committee. There is a lot of education that needs to go on 
in that regard. However, it is not new to the people of 
Colorado and Wyoming who have been dealing with this problem 
for over 20 years.
    The experts will tell us that although we have learned a 
tremendous amount from Chronic Wasting Disease, or commonly 
referred to as CWD, there is much that we do not know and much 
that we must do to eradicate it. One thing we do know is that 
legislation without thoughtful deliberation is not the answer. 
As in all critical environmental issues, sound science is the 
answer.
    The disease is quite simply a mystery. The origin and 
transmission of CWD is unknown. Unfortunately, the treatment of 
Chronic Wasting Disease is all too familiar. The only way to 
treat an animal or to contain the disease is to destroy the 
animal and cull the herd. This is not an unusual procedure in 
diseases that are important to the livestock industry. We find 
ourselves using the same procedure in eradication of such 
things as brucellosis and tuberculosis that affect animals.
    Together, we must embark on an ambitious and sound 
scientific commitment for research and investigation to end 
Chronic Wasting Disease. The impact that CWD will have on 
wildlife and agriculture is undeniable and the economic and 
emotional toll of the disease cannot be overstated. But 
communities that are economically relying upon deer and elk-
related enterprises will feel the impact of the disease as 
concern about the disease grows. But we can stop this and we 
must stop this.
    We have an opportunity to restore cervid health, to contain 
the disease, and most importantly, to eradicate the disease. 
This is the challenge that I urge the experts here and in the 
States to accept, and to accept by taking decisive action by 
funding research to completely eradicate Chronic Wasting 
Disease.
    It is clear that Federal resources are required to help the 
States keep CWD from spreading, to treat infected or exposed 
populations, and to greatly expand research for testing and 
possible cures. Assistance in the form of emergency funding and 
competitive research grants are vital components of the CWD 
offensive. Federal and State cooperation will protect animal 
welfare, safeguard our valued livestock industry, provide 
relief to family elk ranchers, help guarantee America's food 
safety, and protect the public health.
    Chronic Wasting Disease presents a common problem to the 
States and the Federal Government, this is reflected in the 
fact that both State and Federal stakeholders are present here 
today. Federal agencies must work together to provide our 
nationwide system of universities with the research funding 
that is necessary to attack the disease. This Federal conduit 
role will allow universities to unravel the CWD mystery while 
Federal agencies cooperate within to provide vital insight 
through our CWD programs at the United States Department of 
Agriculture and the Department of Interior.
    Specifically, I call for a nationwide increase in 
diagnostic capabilities. There are some facilities across the 
Nation that have already developed CWD programs and these must 
be expanded. Others must be created. I also suggest the 
creation of a cost share program that would establish a State-
wide network of veterinarians who, because of their medical 
training, are perfectly situated to assist hunters and 
landowners who bring deer and elk to them for the CWD testing.
    Undoubtedly, the spread of CWD and the increased awareness 
of the disease will cause the demand for testing to grow 
exponentially. We must be prepared to handle a large volume of 
cases efficiently and reliably. We must develop new testing 
methods to help us understand the disease as well as developing 
a live test. We must localize the disease. Ultimately, we must 
direct research for a cure.
    The challenge we face is to achieve what we all recognize 
as a common objective, to understand CWD and to eradicate it. 
But we must act quickly or this disease will redefine the 
wildlife characteristics of our States.
    I thank the Chairman for allowing me to make my comments at 
this proceeding.
    Mr. McInnis. [Presiding.] Thank you, Senator, and again, I 
appreciate you taking the time to come over and do this. Sorry 
about the delay of the vote. Also, we look forward to working 
with you as you and I work together in the State. We look 
forward to working with our colleagues on the other side.
    Senator Allard. Thank you, Mr. Chairman. I do look forward 
to working with you as we move forward to try and solve this 
very serious problem.
    Mr. McInnis. Thank you.
    Senator Allard. Thank you.
    [The prepared statement of Senator Allard follows:]

Statement of The Honorable Wayne Allard, a U.S. Senator from the State 
                              of Colorado

    Mr. Chairman, I thank you for the opportunity to speak before the 
hearing this morning on Chronic Wasting Disease, and for holding this 
timely oversight hearing. As a Senator, Chronic Wasting Disease 
presents a great animal health challenge. As a Veterinarian, Chronic 
Wasting Disease presents an even greater challenge to the scientific 
communities of both the states and the Federal Government.
    This morning, you will hear experts from across the country 
describe a disease that may be new to many on this committee. However, 
it is not new to those of us in Colorado and Wyoming, who have been 
dealing with it for over twenty years. The experts will tell us that, 
although we have learned a tremendous amount about Chronic Wasting 
Disease, or CWD, there is much that we do not know and much that we 
must do to eradicate it. One thing we do know is that legislation 
without thoughtful deliberation is not the answer; as in all critical 
environmental issues, sound science is the answer.
    The disease is quite simply a mystery--the origin and transmission 
of CWD is unknown. Unfortunately, the treatment for Chronic Wasting 
Disease is all too familiar. The only way to treat an animal or to 
contain the disease is to destroy the animal and cull the herd. 
Together, we must embark on an ambitious and sound scientific 
commitment for research and investigation to end Chronic Wasting 
Disease.
    The impact CWD will have on wildlife and agriculture is undeniable, 
and the economic and emotional toll of the disease cannot be 
overstated. Communities that are economically reliant upon deer and elk 
related enterprises will feel the impact of the disease as concern 
about the disease grows. But we can stop this, and we must stop this. 
We have an opportunity to restore cervid health, to contain the 
disease, and, most importantly, to eradicate the disease. This is the 
challenge that I urge the experts here and in the states to accept, and 
to accept by taking decisive action by funding research directed toward 
the complete eradication Chronic Wasting Disease.
    It is clear that Federal resources are required to help the states 
keep CWD from spreading, to treat infected or exposed populations, and 
to greatly expand research for testing and possible cures. Assistance 
in the form of emergency funding, cost share agreements, and 
competitive research grants are vital components of the CWD offensive. 
State and Federal cooperation will protect animal welfare, safeguard 
our valued livestock industry, provide relief to family elk ranchers, 
help guarantee America's food safety, and protect the public health.
    Chronic Wasting Disease presents a common problem to the states and 
the Federal Government. This is reflected in the fact that both state 
and Federal stakeholders are present today. Federal agencies must work 
together to provide our nationwide system of universities with the 
research funding that is necessary to attack the disease. This Federal 
conduit role will allow universities to unravel the CWD mystery, while 
Federal agencies cooperate with them to provide vital insight through 
its own CWD programs within the United States Department of Agriculture 
and the Department of Interior.
    Specifically, I call for a nationwide increase in diagnostic 
capabilities. There are some facilities across the nation that have 
already developed CWD programs, and these must be expanded. Others must 
be created. I also suggest the creation of a cost share program that 
would establish a statewide network of veterinarians who, because of 
their medical training, are perfectly situated to assist hunters and 
landowners who bring deer or elk to them for CWD testing. Undoubtedly, 
the spread of CWD and the increased awareness of the disease, will 
cause the demand for testing to grow exponentially--we must be prepared 
to handle a large volume of cases efficiently and reliably. We must 
develop new testing methods to help us understand the disease, as well 
as developing a live test. We must localize the disease. Ultimately, we 
must direct research for a cure.
    The challenge we face is to achieve what we all recognize as a 
common objective--to understand CWD and to eradicate it. But, we must 
act quickly or this disease will redefine the wildlife characteristics 
of our states. I thank the Chairman for allowing my comments at this 
proceeding.
                                 ______
                                 
    Mr. McInnis. We are going to move back to Dr. Miller. Let 
me just say as a caution to those of you who have not been in 
front of me before as guests of the Committee, shut the phones 
off. No pagers, no phones. If your phone rings, you will be 
asked to leave the room, so please do not do it and cause us an 
embarrassment.
    Dr. Miller, you may proceed.
    Dr. Miller. Actually, I am at your service for questions. I 
am done with my formal comments.
    Mr. McInnis. Just respond very briefly. I mean, we do not 
know how this disease started--
    Dr. Miller. We do not know how or when this disease 
started. There is lots of speculation, but the truth is that it 
has been around for quite some time. It has moved both with 
research animals and with privately owned animals. In all 
likelihood, it has also moved in the wild naturally. Quite 
honestly, what is done is done and I think we all need to look 
at ways to move forward from here, figure out where the disease 
is, and as Senator Allard indicated, try to get rid of it as 
best we can.
    Mr. McInnis. Thank you very much.
    Governor, thank you for making the effort to come down 
here. I really appreciate it. You have got a great State up 
there and we look forward to working with you from the Federal 
level. As I hope you noted in my earlier remarks, our role here 
is really to be assistance to your State, not to take over the 
ramrod of this thing. We depend very heavily on the resources 
that you have as far as expertise and so on.
    So, Governor, welcome to the Committee. You may proceed.

  STATEMENT OF HON. SCOTT McCALLUM, GOVERNOR OF THE STATE OF 
                           WISCONSIN

    Governor McCallum. Thank you, Mr. Chairman. I did note your 
earlier remarks and I am glad you did not repeat the Bronco-
Packer portion, which is the only part I remember, Mr. 
Chairman.
    [Laughter.]
    Mr. McInnis. Keep in mind, I still control the Committee, 
so we may go back to that.
    [Laughter.]
    Governor McCallum. Mr. Chairman, thank you and the members 
of the Subcommittee for holding the hearing on CWD, a disease 
that in Wisconsin, anyway, we believe is the most serious 
wildlife disease that we have ever faced, and is witnessed by 
the size of the Wisconsin delegation that is here. A majority 
of our Congressional delegation is here and I appreciate very 
much the support they have provided and the bipartisan fashion 
in which they are working to help us address this. If it were 
not for the time limit, I would say wonderful things 
individually about each of them, but I know there is a time 
limit, so I will move on.
    I am joined, as well, today by Darrell Bazzell, who is our 
Wisconsin Secretary of the Department of Natural Resources, and 
Jim Harsdorf, Wisconsin's Secretary of the Department of 
Agriculture, Trade, and Consumer Protection. In Wisconsin, when 
we have discovered this disease, we said this is not going to 
be by department. It is not going to be partisan. So we 
immediately had our three agencies that will deal with this 
working together to set up a task force, a team to work with 
the public, the landowners, farmers, conservationists, hunters 
as to the approach we would take.
    The concern about CWD from a national perspective did take 
a quantum leap when we learned on February 28 that it had been 
found in our State. It was a very sad day for us in Wisconsin. 
Although we are probably best known as America's Dairyland and 
producers of great cheeses and title town of the Green Bay 
Packers--I just added that on my own for you, Mr. Chairman--
    [Laughter.]
    Governor McCallum. --we are also one of the top three deer 
States in the country. In the fall of 2000, hunters in our 
State harvested 619,000 deer. This is the highest annual 
harvest of white-tailed deer ever recorded by any State in the 
country.
    In addition to our great wild deer herds, we have nearly 
1,000 deer and elk farms in Wisconsin. We are among the 
nation's leading producers of farm-raised venison. Deer 
contribute, as was mentioned earlier, well over $1 billion to 
Wisconsin's economy.
    I have set a State goal of eradicating CWD from Wisconsin, 
if possible, but we need Federal help if we are to do so.
    Wisconsin is the easternmost State to find the disease in 
the wild and we have white-tailed deer that seem to be the most 
susceptible of the species to contract CWD. Perhaps the biggest 
concern is the scale of the issue that we are dealing with.
    Over the last 10 years, our fall population of wild deer 
has averaged about 1.5 million animals. Our annual deer harvest 
is larger than the combined deer and elk harvest from Wyoming, 
Colorado, Nebraska, and South Dakota. Our 1,000 deer and elk 
farms are raising approximately 30,000 animals.
    We have responded quickly as a State since February 28. In 
April, our Agriculture Department adopted new, stringent rules 
that prohibit the importing of captive cervids that have not 
been participating in the CWD monitoring program for 5 years. 
We are also requiring the testing of our deer and elk farms 
where animals leave the farm, dead or alive. We are 
recommending that the depopulation of the wild deer herd within 
a 300-square-mile eradication zone where we found CWD-positive 
deer. We estimate that prior to fawns being born this month, 
there are nearly 15,000 deer to be removed.
    We can lower the deer herd to a point where CWD cannot 
sustain itself, and if we are going to do that, we may need to 
keep the deer herd at this level for three to 5 years. This is 
a tremendous sacrifice for local landowners and it will be a 
very costly project for the State.
    We are also trying to lower the population in the 13 deer 
management units that surround the eradication zone by about 50 
to 75 percent. This would require a deer harvest of nearly 
100,000 additional deer.
    Much like a major forest fire, CWD can overwhelm the 
disease-fighting resources of a single State. We need your 
financial assistance. In the roughly 80 days since we 
discovered CWD in Wisconsin, our State has spent $600,000 in 
responding, and literally hours ago, our legislature in a 
special session that I called passed a measure, bipartisan 
vote, to appropriate another $4 million. I say that in the 
context of what States are going through with very large State 
deficits, but that is how important it is in Wisconsin.
    Nearly 2 months ago, I sent a letter to Secretary Ann 
Veneman asking for $18 million in Federal assistance over the 
next 4 years. I would like your assistance in any way that we 
can that the Federal Government will provide grants to State on 
the front lines trying to battle CWD.
    The second area where we need immediate and comprehensive 
Federal assistance is in the diagnostic testing for CWD. Simply 
put, the total lab capacity in the country cannot match the 
testing needs we have in Wisconsin alone. The CWD surveillance 
testing needs for Wisconsin over the next 12 months exceeds 
60,000 animals.
    The specter of ``mad cow disease'' in Britain and the 
recommendation from the World Health Organization that no one 
eat meat from a CWD-positive animal has caused concern among a 
large portion of the public. We have more than 700,000 deer 
hunters in Wisconsin, including myself and many of the members 
sitting on your panel. If just 15 percent of them, just 15 
percent of them requested to have their deer tested for CWD, it 
would add more than 100,000 deer to the equation.
    We are investing $900,000 in our Wisconsin Veterinary 
Diagnostic Lab to provide the capability to run the gold 
standard CWD test. We are also taking steps to prepare for the 
new rapid CWD tests when they are available. We need USDA 
assistance to provide training to our employees and to provide 
all the needed approvals to add our laboratory to seven 
existing labs within the existing CWD system.
    We also have several private labs in Wisconsin poised to 
invest large sums of money and energy to meet the needs of 
Wisconsin hunters to have their deer tested. These private labs 
need a decision this month on whether USDA will allow CWD 
testing to be done by them, and if so, under what requirements. 
This is a fundamental question for our State. I urge USDA to 
find a way to constructively harness the energy of the private 
sector in the CWD war.
    If we are to develop a national CWD strategy, we must 
realize that we cannot protect the deer and elk farms of our 
country without protecting the wild herds of deer and elk. To 
protect our wild herds, we must protect the captive herds. We 
need a comprehensive approach.
    I will close by thanking you for holding this hearing and 
giving me the chance to represent Wisconsin's CWD needs. I also 
want to say thank you to APHIS for all the cooperation we have 
already received from both the Veterinary and Wildlife Service 
branches of their agency. The Wisconsin offices have done 
everything they can to help us combat CWD. Thank you.
    Mr. McInnis. Thank you, Governor.
    [The prepared statement of Governor McCallum follows:]

Statement of The Honorable Scott McCallum, Governor, State of Wisconsin

    Mr. Chairman, I want to thank you and members of this subcommittee 
for holding a hearing on Chronic Wasting Disease (CWD), a disease that 
I believe is the most serious wildlife disease we've ever faced. I am 
joined today by Darrell Bazzell, Wisconsin's Secretary of the 
Department of Natural Resources and Jim Harsdorf, Wisconsin's Secretary 
of the Department of Agriculture, Trade and Consumer Protection.
    Now that Dr. Miller has done an excellent job laying out the basics 
of the disease, I and my colleagues from the great states of Colorado, 
Wyoming and Nebraska will attempt to describe how this disease is 
causing serious problems in our states. CWD presents the same very 
serious threat to all of us, but each state has it own unique 
challenges to deal with. I would like to share with you a Wisconsin 
perspective.
What's at risk?
    The concern about CWD from a national perspective took a quantum 
leap when we learned on February 28th that it had been found in our 
state. It was a very sad day for us. To gain a full understanding of 
what I mean by that you need to learn a little about our state.
    Although we are probably best known as America's Dairyland, a 
producer of great cheeses, and the home of the Green Bay Packers, we 
are also one of the top 3 deer states in the country. Wisconsinites 
cherish the scenic beauty of our state. The white-tailed deer is an 
integral part of that beauty. It is also our state wildlife animal. I'm 
not exaggerating when I say that for many in my state, the quality of 
their life is greatly affected by the health of the deer herd. In the 
fall of 2000, hunters in our state harvested 619,000 deer. This is the 
highest annual harvest of white-tailed deer ever recorded by any state 
in the country. In addition to our great wild deer herds, we have 
nearly 1,000 deer and elk farms in Wisconsin. We are among the nation's 
leading producers of farm-raised venison. Deer contribute over 1 
billion dollars to Wisconsin's economy. We have a lot at risk and, 
quite simply, Chronic Wasting Disease is threatening our way of life in 
Wisconsin. Because of this, I have set a state goal of eradicating CWD 
from Wisconsin if at all possible. We need your help if we are to do 
so.
The Wisconsin Battleground
    Wisconsin brings a whole new set of concerns to the CWD 
battleground. We are the easternmost state to find the disease in the 
wild and we have white-tailed deer that seem to be the most susceptible 
of the species known to contract CWD. Perhaps the biggest concern is 
the scale of the issues we are dealing with.
    Wisconsin's wild and farmed deer herds, as with most states, have 
undergone great growth in the last 40 years. Over the last 10 years, 
our fall population of wild deer has averaged nearly 1.5 million 
animals. Our annual deer harvest is larger than the combined deer and 
elk harvest from Wyoming, Colorado, Nebraska and South Dakota. Our 
1,000 deer and elk farms are raising approximately 30,000 animals. As 
you can see we have a very large at-risk population of animals in our 
state and left unchecked CWD seems certain to spread across our state.
    We have responded quickly as a state since February 28th. In April, 
our Agriculture Department adopted new, stringent rules that prohibit 
the importing of captive cervids that haven't been participating in a 
CWD monitoring program for 5 years. We are also requiring testing for 
all our deer and elk farms where animals leave the farm, dead or alive. 
That same month, we collected more than 500 deer from the CWD-infected 
area to better determine the location and prevalence of the disease in 
southwest Wisconsin.
    It is important that we all understand that CWD is the enemy here 
and to treat the disease, we must take drastic action. We are 
recommending the depopulation of the wild deer herd within a 300-square 
mile-eradication zone where we have identified CWD-positive deer. We 
estimate that prior to fawns being born this month, there are nearly 
15,000 deer to be removed.
    This week, Department of Natural Resource's staff began removing 
deer on state-owned land. Shortly, we will begin to issue deer removal 
permits to willing landowners to shoot deer to lower the population on 
private property. This fall, we will offer unprecedented, extended gun 
deer seasons and bag limits to allow hunters to take all the deer they 
can. Finally, we will offer state-assisted deer removal to landowners, 
if they desire.
    We are working on a landscape that is nearly all privately owned. 
Without landowner and hunter cooperation in fighting CWD, our efforts 
will fail. Fortunately, the majority of landowners so far have 
indicated a willingness to help. This will be a long battle. If we can 
lower the deer herd to a point where CWD can't sustain itself, we may 
need to keep the deer herd at this level for 3-5 years. This is a 
tremendous sacrifice for local landowners and it will be a very costly 
project for the state.
    We are also trying to lower the population in the 13 deer 
management units surrounding the eradication zone by 50-75%. This would 
require a deer harvest of nearly 100,000 additional deer.
How can the Federal Government help?
    As I said earlier, we will need your help in fighting CWD. Much 
like a major forest fire, CWD can overwhelm the disease fighting 
resources of a single state. We do need your financial assistance. In 
the roughly 80 days since we discovered CWD in Wisconsin, our state has 
spent $600,000 in responding.
    This week I called our state legislature into special session to 
approve $4 million dollars in emergency state funding and helpful 
statutory changes to fight the disease.
    Nearly two months ago, I sent a letter to Agriculture Secretary Ann 
Veneman asking for $18 million in Federal assistance over the next four 
years. Today, I would like your assurance that the Federal government 
will provide grants to the states that are on the front lines fighting 
CWD. Wisconsin will do everything it can to help prevent CWD from 
spreading to other mid-western states.
    The second area where we need immediate and comprehensive Federal 
assistance is the diagnostic testing for CWD. Simply put, the total lab 
capacity in the country cannot match the testing needs we have in 
Wisconsin alone. The CWD surveillance testing needs for Wisconsin over 
the next 12 months exceeds 60,000 animals. This figure, which is likely 
not achievable, includes testing deer from the eradication zone, the 
surrounding 13 deer management units, and surveying as much of the rest 
of the state as we can handle. If we add the testing desired for food 
safety reasons, the number increases dramatically.
    Dr. Miller indicated that CWD is a disease of perception in terms 
of the human health risk. I couldn't agree more. It is comforting that 
CWD has not yet been documented to cause human illness and that the CWD 
prions have not been found in venison. However, the specter of Mad Cow 
disease in Britain, and the recommendation from the World Health 
Organization that no one eat meat from a CWD positive animal, causes 
concern in a large portion of the public. We have more than 700,000 
deer hunters in Wisconsin. If just 15% of them request to have their 
deer tested for CWD, it will add more than 100,000 deer to the 
equation.
    Currently, Wisconsin has no in-state testing capacity, but we are 
moving quickly to change that. We are investing $900,000 in our 
Wisconsin Veterinary Diagnostic Lab, to allow us to run the gold 
standard CWD test. We are also taking steps to prepare for the new 
rapid CWD tests when they are available. With luck, we may be running 
some tests by early summer. We need USDA APHIS assistance to provide 
training to our employees and to provide all the needed approvals to 
add our laboratory to the seven existing labs within the national CWD 
system.
    We also have several private labs in Wisconsin poised to invest 
large sums of money and energy to meet the needs of Wisconsin's hunters 
who want their deer tested. Deer season starts September 14 and much 
work needs to be done in the next 120 days if they are to offer 
testing. These private labs need a decision this month on whether USDA 
will allow CWD testing to be done by them, and if so, under what 
requirements. This is a fundamental question for our state.
    I urge USDA to find a way to constructively harness the energy of 
private enterprise in the war on CWD. If confidence in the safety of 
venison falls and causes deer hunters not to participate in the gun 
deer season, it will have many negative consequences. First and 
foremost, the growth of the herd will have negative impacts on 
agriculture, native vegetation and vehicle-deer collisions.
    The Federal Government could also act as a clearinghouse or 
repository of critical CWD information for access by states and the 
general public. For example, the disposal of carcasses from CWD-
infected areas has received a lot of discussion in Wisconsin. I suspect 
the Federal agencies have already addressed this issue and could save 
states a lot of time if they shared their analysis.
    Finally, there are many key and basic research questions about CWD 
that we need help answering. How does the transmission of CWD occur? Is 
CWD contamination of the environment a key factor? Does CWD act the 
same in white-tailed deer as in mule deer or elk?
    As we develop a national CWD strategy, we must realize that we 
can't protect the deer and elk farms of our country without protecting 
our wild herds of deer and elk. To protect our wild herds, we must 
protect the captive herds. We need a comprehensive approach.
    I will close by thanking you for holding this hearing and giving me 
the chance to represent Wisconsin's CWD needs. I also want to say thank 
you to APHIS for all the cooperation we have already received from both 
the Veterinary and Wildlife Services branches of your agency. Your 
Wisconsin offices have done everything they can to help us combat CWD.

                              Attachments:

            Additional Wisconsin CWD Informational Documents

    <bullet> LMap of CWD eradication zone and surrounding CWD 
management zone.
    <bullet> LMap of where CWD testing has occurred in Wisconsin.
    <bullet> LMap of deer and elk farms in Wisconsin.
    <bullet> LRequest to Secretary Veneman for financial assistance.
    <bullet> LCWD Research Priorities
    [GRAPHIC] [TIFF OMITTED] 79658.001
    
    [GRAPHIC] [TIFF OMITTED] 79658.002
    
    [GRAPHIC] [TIFF OMITTED] 79658.003
    
    [GRAPHIC] [TIFF OMITTED] 79658.004
    
    [GRAPHIC] [TIFF OMITTED] 79658.005
    

                              Attachment 5

               Wisconsin's thoughts on CWD Research Needs

    Development of Alternative Diagnostic Tests: Current tests for CWD 
require killing the animal and removing the brain stem. Preparation and 
laboratory analysis then takes almost a week. In addition, laboratory 
capacity for CWD diagnosis is limited to a small number of labs around 
the country. Development of rapid diagnostic tests and the capacity to 
process many samples are needed to test the large volume of hunter-
harvested deer and to quickly assure Wisconsin's hunters about the test 
status of their venison. In addition, development of an effective live 
animal test is needed for the deer and elk farmers. Better 
understanding of environmental contamination and the ability to 
reliably disinfect disease-impacted captive facilities are critical for 
effective regulation of Wisconsin's captive deer and elk industry.
    Disease dynamics: Understanding disease dynamics in white-tailed 
deer is a critical, fundamental research need. There is no current 
research available on CWD dynamics in white-tailed deer populations--
high density or otherwise. Available information on the rate at which 
animals become infected, the time required for infected individuals to 
become infectious and to develop clinical symptoms, and the time span 
before infected animals die must be inferred from a small body of 
research on other deer species (mule deer and elk). Anecdotal 
information suggests that progression of CWD in white-tailed deer may 
be quicker than in these other species. We need to understand the 
dynamics of CWD to understand the current risks and develop effective 
control strategies. Basic information is also needed on the current 
distribution and prevalence of CWD within Wisconsin.
    Disease Transmission: Mechanics of transmission is essential 
knowledge needed to control the spread of CWD throughout Wisconsin's 
deer herd. Despite 20 years of research on western deer species, we do 
not have a complete understanding of transmission routes from one 
animal to another. Current research is addressing transmission in mule 
deer in Colorado and the transmission process may be similar between 
species of deer and elk. However, thorough understanding of the 
transmission process and the mechanism by which CWD spreads in 
Wisconsin's white-tailed deer is critical for development of effective 
management strategies to combat this outbreak and to prevent future 
outbreaks. Information is needed on the mechanism of transmission 
between wild and captive deer and elk. In addition, transmission of the 
disease from the environment (water, soil, etc.) to deer and 
persistence of the disease in the environment needs to be investigated 
to understand the long-term implications of the disease and to make 
informed decisions on responsible disposal of deer carcasses that 
hunter may not want to consume.
    Population and Social Dynamics of White-tailed Deer: An 
understanding of the population and social dynamics of white-tailed 
deer in the CWD affected area is essential. The population consequences 
of CWD, the rate of spread, and the ability to manage the outbreak are 
all driven by the population and social dynamics of the host species. 
Available information on population consequences is limited to low-
density mule deer in Northeastern Colorado and Southeastern Wyoming. 
The role of population density on the rate of spread of CWD needs to be 
known. Rates of reproduction, natural and human-caused mortality, and 
dispersal in eastern white-tailed deer populations are likely very 
different from those of Rocky Mountain mule deer. Knowledge of the 
movements of white-tailed deer is specific to the habitat occupied and 
may determine the likely rate of spread of CWD and how large an area 
surrounding the infected area should be included for special 
management. Increased understanding about the effect of CWD infection 
on reproductive success and on mortality from other sources (hunter-
harvest, deer-vehicle accidents, predation) is needed to accurately 
assess the effects of CWD on white-tailed deer populations. Species-
specific differences in behavior may affect the rate of transmission 
between individuals and the spread of the disease within and between 
populations. All these population dynamics data are needed to model 
likely impacts and spread of CWD and to develop effective strategies to 
combat the disease.
    Social Consequences: The area of southwestern Wisconsin affected by 
CWD is a landscape of privately owned small farms. The effectiveness of 
disease management efforts will depend primarily on the cooperation and 
participation of local landowners and deer hunters. Stakeholder 
attitudes toward the seriousness of CWD, their personal long-term goals 
for the deer population in the area, their willingness to cooperate and 
participate in disease management actions, and their perception of 
health risk to humans associated with venison consumption need to be 
known. The willingness of meat processors and taxidermists to handle 
deer in the infected area should also be known. Research on the human 
dimensions of CWD management will be critical for developing effective 
management strategies.
    Interspecific Transmission of the CWD: Additional research is 
critically needed to understand the potential for CWD transmission to 
humans, other wildlife, and livestock. Research is underway evaluating 
if cattle can be infected by using the same environment or sharing food 
sources with infected deer. Additional current research is looking at 
the potential for CWD spread to humans, using primate models. 
Creutzfeldt-Jakob Disease (CJD) is the human analog of CWD. It is known 
to occur worldwide, and occurs in the USA at a rate of about 1/
1,000,000 population, affecting primarily persons over the age of 65. A 
new form of this disease called new variant CJD has never been found in 
the USA, but has occurred in Europe, primarily in England, where the 
disease was presumably contracted by eating beef from cattle infected 
with bovine spongiform encephalopathy. New variant CJD tends to occur 
in much younger individuals than classic CJD. The Bureau of 
Communicable Diseases (BCD) of the Division of Public Health (DPH), in 
cooperation with the CDC, currently maintains surveillance for CJD-like 
disease when it occurs in persons under the age of 56. This is an 
effort to detect the new variant form of the disease if it ever occurs 
in the USA. The DPH proposes to enhance these surveillance activities 
by expanding them to include both forms of CJD in all ages using the 
following means:
    <bullet> LThe Bureau of Health Information would perform 
surveillance of death certificates. Since CJD is invariably fatal, 
examination of death certificates is a fairly sensitive method of 
detecting potential cases. Cases in which CJD is listed as a cause of 
death would then be marked for follow-up investigation.
    <bullet> LFund a fellowship within the UW Department of Neurology 
to perform medical chart reviews for the Bureau of Communicable Disease 
on possible CJD cases identified through the death certificate 
surveillance. This expertise in clinical neurology does not reside 
within the BCD. Additionally, the funded Fellow would conduct at least 
two seminars for interested physicians and infection control 
practitioners to increase awareness of the CJD surveillance system and 
of the disease itself.
    Monitoring of the Disease Management Program: Wisconsin is planning 
an aggressive management program to combat CWD. Given uncertainty 
associated with many aspects of this disease it will be critically 
important to monitor changes in disease prevalence, deer populations, 
and human attitudes over time to assess the effectiveness of the 
management program and to adapt management strategies as additional 
knowledge is gained. Important issues include the efficiency of 
alternative deer population reduction strategies and the impact of deer 
population reductions on changes in the prevalence of the disease 
across time and space. It will be necessary to integrate the results of 
field research into computer modeling to assess the effectiveness of 
management actions.
                                 ______
                                 
    Mr. McInnis. Mr. George?

 STATEMENT OF RUSSELL GEORGE, DIRECTOR, DIVISION OF WILDLIFE, 
            COLORADO DEPARTMENT OF NATURAL RESOURCES

    Mr. George. Good morning, Mr. Chairman. I am Russell 
George, Director of the Colorado Division of Wildlife. Mr. 
Chairman, it is a matter of enormous personal pride that I join 
you here together this morning.
    May I say, first of all, thank you to the Committee and the 
Chairman for convening this hearing. Already, much is in motion 
because of the hearing. By drawing attention to this issue from 
this level, all of us have stepped up our efforts in 
communication with one another and in anticipation and planning 
for this enlarged level of discussion.
    Mr. Chairman, I would like to commend your staff. They have 
been enormously helpful to us in all of this, and I have to 
admire how little time they had to become as knowledgeable and 
competent in this complex area of science as they have become. 
We appreciate their support.
    Mr. Chairman, I have submitted a formal statement and 
remarks. I would ask that that statement be entered into the 
record, and then in the few moments I have, I am going to try 
to imagine how we can get our arms around this discussion.
    You are going to hear many of the important and salient 
points about this process repeated a number of times from 
several sources, and even though I think we would rather not 
repeat, the fact that we do is emphatic, then, on the 
importance of each of those points.
    Listening to the Governor of Wisconsin reminds me that our 
situations are so similar and that our respective staffs have 
been working together for a long time. We admire and appreciate 
that relationship, and may I say, Governor, I suspect we are 
going to get to see a lot more of each other and our staffs 
will, as well, as time goes on.
    The Colorado Governor and Wisconsin Governor both have the 
same view of Chronic Wasting Disease. We need to get on it, get 
after it, be aggressive about it, try to stop it in its tracks 
if you can, and I appreciate that effort and I think that is 
exactly right.
    In many ways, I think we know far less about Chronic 
Wasting Disease than we know, and therein lies the challenge. 
For example, we do not know where the disease comes from, as 
you have heard from Dr. Miller. We do not know altogether how 
it is transmitted. We do not know how it remains in the 
environment or how long it remains. We do not know how to treat 
it. There is no treatment. So we do not know how to prevent it. 
We do not know how to stop it.
    When you are talking diseases, that is a pretty significant 
lack of knowledge, and that is the key, I think, for all of us 
being here, is to recognize that and then together decide how 
do we begin to fill that absence of knowledge.
    Now, we do know some things about Chronic Wasting Disease 
and I think it is important to emphasize those. In the first 
instance, I think it is important to recognize that there is no 
evidence that Chronic Wasting Disease poses a threat to humans. 
In fact, what we do know suggests strongly that Chronic Wasting 
Disease is not a threat to humans. In Colorado, we have 
continued to coordinate and cooperate with the Colorado 
Department of Public Health and Environment and with the 
National Centers for Disease Control. We like to rely upon the 
experts in human health to talk to us about the relationship of 
Chronic Wasting Disease and human health, and we are working 
from the point of view that there is virtually no risk of 
Chronic Wasting Disease to human health. It is very important 
for us to focus on that.
    Likewise, we may say that there is no science to support 
any concern that Chronic Wasting Disease is a risk to other 
livestock health. This is other than elk and deer. But there is 
no reason to believe Chronic Wasting Disease is a problem in 
domestic livestock health issues. But again, those are 
scientific inquiries. We need to always focus our attention and 
be sure that that is true.
    Other things we know about the disease. We know it is 
infectious. We know it passes from animal to animal. We know it 
passes from the environment to animals. We also know that the 
disease knows no difference between wild deer and domestic 
deer. The disease knows no difference between wild elk and 
domestic elk. The disease knows no fences, and clearly, as we 
have talked today, the disease does not recognize State 
boundaries.
    The other thing that we know is that once an animal is 
infected, that is a dead animal. It is that certain. Once 
infected, the animal is dead, and that is where we are at this 
point in time in science.
    We also know that if we do nothing, the disease will not go 
away. Others will say to you that, well, Mother Nature provided 
it to us, Mother Nature will take care of it. That is not good 
wildlife management, I submit to you, and the modeling that we 
have done tells us that quite the opposite is true. Now, bear 
in mind, modeling is just that. It is a projection based upon 
whatever data you put into it. But our models tell us that if 
we leave it where we find it, in about 50 years, in all 
likelihood, it will wipe out the herds that it has infected.
    Think of Colorado or Wisconsin or Wyoming or anywhere in 
the United States without healthy large herds of deer and elk. 
That is not where we want to be with this. So that is why it is 
critical that we have the hearing here today. It is critical 
why we work in every way we can on this.
    The States have stepped up to the plate on this. I am 
satisfied we have done a great deal. The Governor has talked 
about Wisconsin's efforts. Colorado has a similar long list of 
things that we have done and will continue to do.
    We have been working with Chronic Wasting Disease for about 
20 years now. You heard earlier that it was first recognized as 
a separate, distinct disease in research facilities in 
Colorado, 20, 30 years ago. We have worked with it in the wild 
for those years in the northeast part of Colorado.
    Before this latest incident in western Colorado, we had 
already stepped up our efforts considerably in the Colorado 
Division of Wildlife, recognizing the importance of getting 
ahead of this disease. Our policy in Colorado has been to 
locate the disease wherever we find it, get our arms completely 
around it, define its outer boundaries, and then move those 
boundaries inside and try to, if not eradicate, certainly lower 
the incidence of the disease until we think we have it at a 
level that is manageable so that there is less infection over 
time instead of more.
    Then as this new incident occurred in western Colorado, it 
caught us by surprise because we had been testing and we were 
confident from all of these tests that we did not have it 
there. But it is there, we think in a small area and a small 
amount, but it just reminds us that Mother Nature is in charge 
here and there is not all that much we can do to manage it.
    Mr. Chairman, I could go on, but that is my time. I 
appreciate your indulgence on it. I will be available for 
questions. But thank you very much for having us here.
    Mr. McInnis. Thank you, Mr. George. That was very helpful.
    [The prepared statement of Mr. George follows:]

 Statement of Russell George, Director, Division of Wildlife, Colorado 
                    Department of Natural Resources

    Good morning, Mr. Chairman. I am Russell George, Director of the 
Colorado Division of Wildlife. Thank you for the invitation to appear 
before you today to address the important topic of Chronic Wasting 
Disease, commonly referred to as CWD. As you know, the State of 
Colorado has been dealing with the challenges presented by this disease 
for more than 20 years. Despite our experience, research and control 
efforts, much about this disease remains unknown and today CWD commands 
more of our attention and resources than ever before.
    The recent and unprecedented appearance of CWD in the western half 
of Colorado has forever changed our management approach. In situations 
where the disease appears poised to spread beyond its historic range in 
our state, as in the case of the West slope incident, we will 
aggressively attempt to eradicate it. Such an undertaking may require 
considerable money and manpower. In recognition of that fact, our 
Legislature, at the request of Governor Owens, recently approved a 
significant amendment to our budget. That amendment provides the 
Division of Wildlife with an additional $1.9 million in resources to 
combat this threat to our wild deer and elk.
    I would like to emphasize that the appearance of CWD outside of its 
previous historic range in northeastern Colorado threatens more than 
just the elk and deer of our State. If allowed to persist unchecked, 
the disease has the potential to negatively impact rural economies that 
rely heavily upon tourism and hunting--activities that are directly 
dependent upon abundant and healthy wildlife. It is for these reasons 
that the Governor of Colorado requires an aggressive approach to 
controlling and eliminating CWD. Last month Governor Owens also 
appointed a special State task force of affected interests and experts 
to monitor our management progress and to recommend new actions to 
combat this threat. He has also joined with other Western Governors to 
exchange information and to facilitate a more coordinated regional 
management approach. Such sharing and coordinating of information will 
be a key to the successful management of CWD.
    Chronic Wasting Disease was considered a western concern for quite 
some time because within the United States, CWD had been diagnosed only 
in farmed (captive) cervids in the states of Montana, South Dakota, 
Colorado, Nebraska, Oklahoma and Kansas. Furthermore, it had only been 
confirmed in wild (free-ranging) deer and/or elk in the states of 
Wyoming, Colorado, Nebraska and South Dakota. The recent outbreak of 
this disease in the State of Wisconsin underscores the fact that CWD is 
a truly a national concern, no longer one ``safely'' confined to the 
West. It is now more important than ever that cooperation and 
communication occur at both the state and Federal levels.
    Please allow me to highlight some areas I consider ripe for state-
Federal cooperation or partnership.
Monitoring and Surveillance
    Many state wildlife agencies will increase efforts this fall to 
monitor the distribution and prevalence of CWD in wild populations of 
cervids, especially states with elk or deer game farms. Relying solely 
upon testing of symptomatic or ``clinical'' free-ranging animals will 
no longer suffice in many cases. States must also be prepared to cull 
wild deer and elk in situations where hunter-supplied samples are 
inadequate or nonexistent. Considerable staff time and equipment are 
required for such an undertaking. If existing equipment such as 
vehicles, trailers and ATV's are used replacement equipment may be 
required because of concerns about allowing potentially contaminated 
items outside of areas where known CWD positive animals exist. In some 
situations, aircraft may be required to position staff, cull animals 
and remove carcasses from inaccessible areas. The use of Federal 
employees, equipment and facilities could be helpful in many of these 
situations. Congress should give clear direction to appropriate 
agencies to help state efforts.
Testing
    We are very concerned that state, regional and national testing 
labs will not be able to timely process the volume of samples 
anticipated this fall as a result of the discovery of CWD in Wisconsin 
and on the West slope of Colorado. In addition to the increased 
surveillance desired by wildlife managers and the public, hunters will 
want assurances that their wild game is safe to eat. These demands will 
contribute significantly to laboratory workloads around the country. 
Meeting this demand will require existing labs to gear up or otherwise 
convert their operations. Expanded or new facilities are likely to be 
required as well. We have had some preliminary discussions with Federal 
agencies for access to their lab facilities, but we need to be sure 
they can more quickly provide those resources. Additional lab 
facilities will be needed by September to meet hunter demands. The help 
of this committee and Congress will be crucial in helping us reach our 
goal.
Depopulation
    Agricultural and wildlife agencies must be prepared to depopulate 
exposed or suspect captive herds. These agencies must also be able to 
destroy carcasses following testing. Thus far, carcasses have been 
chemically digested, incinerated or buried in landfills. Each approach 
requires additional funding and equipment not traditionally available. 
Federal help in sharing in those costs will be vital.
Proactive Approaches
    In addition to managing CWD where it has been found, agencies need 
to consider aggressive means to limit the spread of the disease. Two 
efforts that will require additional funds are whole-herd buy-outs and 
double fencing of all existing captive-cervid facilities. We have 
undertaken both of these steps in Colorado, but we must be prepared to 
do more to prevent the spread of CWD to new areas.
Research and External Peer Review
    An increase in research on TSEs in general and CWD in particular is 
needed. The management of CWD requires a thorough understanding of 
transmission, etiology, natural host range, and relationship to other 
TSEs, as well as the development of tools to diagnose, treat and 
prevent CWD. The Federal Government can facilitate collaboration and 
encourage wildlife-specific research by using such incentives as cost 
sharing or research grants to state wildlife, agriculture and public 
health agencies. Concerned publics will be more comfortable with 
management actions that are securely grounded in science. In some cases 
the science is not keeping pace with management demands. As a result, 
some segments of the public are questioning state agency strategies and 
plans. Federal government coordination of support for professional peer 
review of state and regional efforts will help address the public's 
concerns.
Communication and Education
    Around the country, state agricultural, wildlife and public health 
agencies are working to independently develop communications strategies 
and capabilities. Public interest and concern regarding CWD is 
increasing exponentially. Popular literature, web pages and public 
presentations are in ever-greater demand. Again, agency staff and 
funding are severely strained as a result. Federal assistance to 
develop products to ensure timely and consistent information on this 
issue of national concern will be important.
National Role in Developing Uniform State Standards for the Captive 
        Cervid Industry
    Individual states have begun to adopt or consider a variety of 
regulations governing the testing, monitoring, identification, movement 
and record-keeping of captive deer and elk. It is becoming increasingly 
more difficult for the captive cervid industry and for state regulatory 
agencies themselves to track and comply with these varied rules. Thus 
there is a great need for states to cooperate in establishing uniform, 
science-based regulations that will protect both wild and captive herds 
from CWD. Existing Federal regulations that apply to captive cervids 
(e.g., U. S. Department of Agriculture's Interim Rules regarding CWD) 
should be reviewed to ensure that wild cervids are adequately protected 
and for consistency with these uniform state standards.
    Before I conclude, I would like to make you aware of several 
activities the State of Colorado is engaged in regarding CWD. I have 
already mentioned the Governor's CWD Task Force. I would also like to 
note that the Colorado Division of Wildlife is co-hosting a national 
conference on CWD in Denver on August 6-7, 2002. In addition, we are 
participating in a multi-state effort to develop a more uniform and 
consistent state approach to managing CWD in wild deer and elk. We have 
also initiated external peer review of our management activities to 
date. I am proud to say that Dr. Mike Miller of our staff continues to 
conduct and collaborate on groundbreaking CWD research with others 
around the country.
    In summary, I would like to emphasize that there are many 
opportunities for the Federal Government to assist States in CWD 
management and research. That assistance can be provided in such forms 
as expertise, personnel, equipment, facilities, regulations, policy and 
funding. For example, Colorado alone has identified a need for more 
than $5 million in research, control and testing needs beyond what we 
have been able to provide at the state level. I would urge you to 
consider the most streamlined and efficient mechanisms for making such 
funding available including direct block grants to the states, grants 
that pass through no more than one Federal agency, or simple cost-
sharing.
    This is also an appropriate time for me to state that I view state 
wildlife agencies as having the primary responsibility for managing 
wild cervids. State wildlife agencies have acted quickly in response to 
CWD outbreaks. While we do need additional tools, this should not cause 
a shift of primary jurisdiction over resident wildlife to Federal 
agencies.
    Thank you for the opportunity to share my thoughts and concerns 
regarding Chronic Wasting Disease with you and your distinguished 
colleagues. I would be pleased to answer any questions you might have.
                                 ______
                                 
    [The response to questions submitted for the record by Mr. 
George follows:]

June 28, 2002

The Honorable Scott McInnis
Chairman, Subcommittee on Forests and Forest Health
Committee on Resources
U.S. House of Representatives
Washington, DC 20515

Dear Members,

    Before answering the questions you submitted on June 4, 2002, I 
would like to express my sincere gratitude to the members of the 
Subcommittees on Forests and Forest Health, and Fisheries, 
Conservation, Wildlife and Oceans for your joint efforts on this 
extremely important issue. You have provided the forum to increase the 
public's awareness and elevated the discussion to a point where real 
progress is within sight. I look forward to continuing our work 
together as we develop the cooperative state-Federal model that will 
give us the best chance to effectively manage Chronic Wasting Disease. 
The stakes could not be higher and I am grateful for your interest and 
cooperation in this matter.
    If I or any member of my staff can be of further assistance to you, 
please do not hesitate to call on us.

Sincerely,

Russell George
Director

Attachment

                      Questions from the Majority:

What do you consider to be the appropriate role for the Federal and 
        state governments to play in managing Chronic Wasting Disease 
        (CWD) in free ranging wildlife?
    The respective states have historically maintained plenary 
authority and responsibility for wildlife within their borders. CWD 
presents an unprecedented challenge to state agencies charged with the 
responsibility for managing wildlife. State governments, however, most 
appropriately address this challenge. Maintaining state autonomy will 
allow for streamlined management and allow states to develop management 
strategies specifically designed to address CWD within their borders. 
As an example, Wisconsin faces a different set of challenges than 
Colorado. Each state should have the ability to develop management 
schemes specific to their situation while working cooperatively with 
each other. Federal oversight would impede the ability of states to 
respond quickly and effectively to new developments within their state.
    The Federal Government is not without a significant role in the 
battle to control and hopefully eliminate CWD. The recent availability 
of funds to buy out exposed elk ranches in Colorado will have a 
positive impact on our ability to manage this disease. Additional funds 
may be necessary for future buy outs and Federal participation will be 
critical. In addition, as Governor Scott McCallum testified to your 
committee, the Federal Government is uniquely able to act as a 
repository and clearinghouse for critical CWD information. The Federal 
Government will also play a critical role in the development of 
research. Block grants to the respective states to facilitate and 
expedite ongoing research will be critical. The Federal Government 
should take advantage of the opportunity to initiate additional 
research projects to fill in gaps of knowledge or to expand on existing 
research consistent with the parameters outlined in response to 
Question 2 from the minority, infra.
What are some of the differences in managing this disease in game 
        animals compared to free ranging animals? Will applying the 
        theories and practices behind management of CWD in game animals 
        be effective and/or efficient in managing CWD in free ranging 
        animals? Please explain.
    In the U.S., CWD is best viewed as two separate epidemics. One 
involves free-ranging cervids and the other involves captive deer and 
elk. Neither of these epidemics is particularly new. Both epidemics are 
relatively well described, particularly in comparison to scrapie in the 
U.S. CWD is naturally maintained in both free-ranging and captive 
cervid populations, and thus management will be challenging in both 
settings. In the short term, CWD in captive deer and elk is much more 
likely to be manageable than CWD in free ranging cervids. New knowledge 
on CWD and other TSEs will factor into future plans for further 
understanding and managing both problems. There are many similarities 
between the strategies adopted to manage CWD in wild deer and elk and 
those used in the management of the disease in captive deer and elk. 
Much remains to be learned in both cases. What we learn as a result of 
management in either situation will be of some value in the other 
environment.
    We know that CWD represents a significant threat to the health and 
long-term stability of free ranging deer or elk resources that are an 
important component of both the ecology and the economy of virtually 
every state in the U.S. According to published model forecasts of CWD 
epidemics in deer populations, unmanaged outbreaks will likely 
devastate infected herds over a period of several decades. In the 
interim, the public value of these infected herds may well be 
diminished, simply by virtue of their status as CWD-infected. At 
present, the threat posed to our valuable wildlife resources seems more 
than sufficient to justify more aggressive actions, fostered by state 
and Federal cooperation designed to identify and contain foci of 
infection and where possible, eliminate Chronic Wasting Disease from 
our nation's free-ranging deer and elk populations. The potential 
adverse impact to the captive industry pales in comparison to the 
impact that would be felt by state and local economies throughout the 
country if CWD were allowed to expand unchecked in wild deer and elk 
populations.
Should the Federal Government support the management of wildlife for 
        the sake of wildlife rather than as a potential source for 
        infection for game herds? Why?
    The intrinsic value of wildlife alone justifies management for its 
own sake. In addition to its intrinsic value, wildlife provides 
immeasurable contributions to the quality of life for the residents of 
Colorado and its visitors. Healthy deer and elk populations provide 
recreational opportunities for both hunters and those who come to 
Colorado for the chance to view these majestic animals in their natural 
environments. Local economies receive millions of dollars in revenue 
from hunting and wildlife related recreational activities. Public 
ownership of wildlife, and the concomitant obligation to protect this 
public resource, is a uniquely American concept. The support of the 
Federal Government, both fiscal and through additional research is 
consistent with the concept of public ownership of this important 
resource.
    While the Colorado Division of Wildlife understands and supports 
efforts to control and eradicate CWD in captive facilities and game 
farms, the value of wildlife both intrinsically and for the economic 
benefits provided justify protection of wildlife as a distinct 
objective.
Mr. McInnis has introduced a bill to define the Federal role in 
        managing CWD in deer and elk, and to define the authorities of 
        the Federal agencies. An important element assures that Federal 
        wildlife agencies partner with state wildlife agencies and that 
        Federal agriculture agencies partner with state agricultural 
        agencies. Could you comment on this bill?
    The concept of Federal partnership with the corresponding state 
agencies appears to be entirely appropriate under the circumstances. 
The needs of agriculture and wildlife overlap in many areas but are 
entirely distinct in others. For instance, both agriculture and 
wildlife would benefit from research that would explain the method of 
transmission between animals. On other issues, the interests are more 
discreet and don't have direct overlap. For instance, U.S. Fish and 
Wildlife (and the other branches of the Department of Interior) would 
play an important role in supporting management of CWD in wild cervid 
populations. Both the U.S.D.A. and U.S. Fish and Wildlife Agency will 
play significant roles in helping control and manage CWD. Each agency 
would presumably act as a repository and clearing house for information 
and scientific data relative to CWD. U.S.D.A. would focus on 
agricultural impacts and data while U.S. Fish and Wildlife would most 
logically compile and disseminate data on impacts of CWD on wild cervid 
populations throughout the United States. In addition, the block grants 
and other forms of financial assistance would most efficiently flow 
through the Federal agency with the greatest area of concurrent 
jurisdiction, e.g. money for the depopulation of captive facilities 
through U.S.D.A and reimbursement for state wildlife agency culling 
effort expenditures through U.S. Fish and Wildlife.

                      Questions from the Minority:

What is the most effective way to get the States monies for research? 
        Does it make sense for the Federal government to cost share 
        with the States?
    The most efficient delivery system for facilitating research on CWD 
would most likely include a streamlined process for making block grants 
available with a minimum of billing and reporting requirements. 
Resources spent insuring compliance with Federal requirements will only 
reduce the available resources for researching and managing CWD. Open-
ended grants that allow the grantee to select which objectives or 
projects are most in need of resources would provide optimum 
flexibility for the states and at the same time ensure that Federal 
funds were spent in an appropriate manner. For example, a CWD block 
grant might contain objectives such as the reduction/elimination of CWD 
positive deer/elk, reduction/elimination of CWD exposed captive deer/
elk, research in transmission of CWD between species or within the same 
species. The state applicant would select the projects that are most 
important to their situation and propose funding levels for each 
project within a total state allocation.
    Colorado supports cost sharing on the research and management of 
CWD. We support a relatively high percentage of Federal participation 
but think its important for the respective states to show a commitment 
to expanding the knowledge base relative to the management and research 
of CWD in both wild and captive cervids.
What type of research should the Congress fund to help us better 
        understand how the disease is transmitted?
    An increase in research on TSEs in general and CWD in particular is 
needed. The management of CWD requires a thorough understanding of 
transmission, etiology, environmental persistence, natural host range, 
relationships to other TSEs, as well as the development of tools to 
diagnose, treat and prevent CWD. Additional research on variations in 
genetic susceptibility of deer and elk is also needed. The Federal 
government can facilitate collaboration and encourage wildlife specific 
research by using such incentives as cost sharing or research grants to 
state wildlife, agriculture and public health agencies and 
universities. Concerned publics will be more comfortable with 
management actions that are securely grounded in science. In some cases 
the science is not keeping pace with management demands. As a result, 
some segments of the public are questioning state agency strategies and 
plans.
                                 ______
                                 
    Mr. McInnis. Dr. Thorne?

STATEMENT OF E. TOM THORNE, D.V.M., CHIEF OF SERVICES, WYOMING 
                    GAME AND FISH DEPARTMENT

    Dr. Thorne. Thank you, Mr. Chairman, for this opportunity 
to speak to the Subcommittee on Chronic Wasting Disease and on 
the critical needs that the State of Wyoming has for Federal 
funding in dealing with this disease in our free-ranging deer 
and elk.
    Governor Jim Geringer has asked that I stress to you, along 
with the other Governors, how important Chronic Wasting Disease 
is regarded to be in the State of Wyoming. We commend you and 
the other Subcommittee members for recognizing the significance 
of CWD to affected States and for exploring how Congress and 
the Federal Government may help.
    I have been working with wildlife diseases for 
approximately 30 years in a research and management and an 
administrative perspective. You can tell by my gray hair, I 
have been working on them a little bit longer than Dr. Miller 
has, and I think both Dr. Miller and I would agree, we have 
never seen this kind of national interest in a wildlife disease 
before and I think that is quite significant.
    Mr. Chairman, I submitted a written statement for the 
record, and if you would accept that, I will summarize my 
comments here.
    Wyoming has been addressing Chronic Wasting Disease since 
1978 and we have done considerable work to outline the area 
that is involved. Like Colorado, we have it as an endemic 
disease. It occurs in about 11,000 square miles of southeast 
Wyoming and we have worked hard to retain it in that area.
    We participated in a great deal of research on Chronic 
Wasting Disease. We are lucky in Wyoming in that we have some 
of the world's leading scientists on Chronic Wasting Disease. 
We have a long track record of cooperative and collaborative 
research with the folks in Colorado. Between us, we have some 
of the best facilities and some of the best scientists for 
working on research on Chronic Wasting Disease.
    In the last couple of years, there have been literally 
thousands of farm deer and elk that have been killed to control 
the disease within the farm elk and deer industry and this has 
cost the Federal Government millions of dollars, primarily in 
the form of indemnity to pay for the losses of those animals. 
Similarly, in other States, and Wyoming is not one of them, 
where there have been new foci of infection, those States are 
responding by killing large numbers of free-ranging deer and 
this is also costing them a huge amount of money, but it is 
being done with State license dollars by the wildlife 
management agencies.
    Somehow, there is a widespread belief that because no 
individual owns this wildlife, there is no loss when they are 
destroyed to control a disease. But, in fact, we all own these 
wildlife, they are important to all of us, and there are huge 
losses when they are destroyed.
    Surveillance for Chronic Wasting Disease was initiated in 
Wyoming in 1983, and since then we have been dealing with 
surveillance, management and research, and public outreach and 
public information. We believe that public outreach is a very 
important part of the Chronic Wasting Disease program. We feel 
it is important that the public knows what is going on with 
Chronic Wasting Disease. We feel it is extremely important that 
we keep our hunters informed about the disease. They need to 
know, as Mr. George said, that we see no evidence that this is 
a disease that is transmitted to humans or that it makes a 
public health threat, but they need to know that the disease 
does exist and that it is one of the members of the 
transmissible spongiform encephalopathies.
    Wyoming would like to expand its Chronic Wasting Disease 
program. We are in the process of preparing a Chronic Wasting 
Disease Management Plan that would incorporate and expand the 
activities that we currently have in place and we would like to 
address newly emerging issues. In addition, we are working with 
Wyoming, Nebraska, and Colorado on a multi-State CWD plan which 
should go further to coordinate our management activities.
    The States with CWD in free-ranging deer and elk 
communicate frequently and they cooperate where it is 
practical. Wyoming and Colorado have been collaborating in many 
CWD research projects, and in addition, we have worked with and 
we want to recognize some of the Federal labs that have worked 
on this disease, especially the ARS labs in Pullman, 
Washington, and Ames, and the National Institutes of Health lab 
in Hamilton, Montana. They have played a significant role.
    Recently, Secretary of Agriculture Ann Veneman declared a 
CWD emergency in order to free up money to combat CWD in the 
game farm industry. But the economic importance of free-ranging 
deer and elk eclipses the economic value of game farms, and yet 
very little Federal money has been made available to the States 
to pay for the very expensive management, surveillance, and 
research that is necessary for them to address Chronic Wasting 
Disease.
    In conclusion, Mr. Chairman, I would like to stress that 
CWD is clearly a national problem and deserves Congressional 
attention, especially through funding to the States for CWD 
activities. A model is present by which Congress appropriates 
money to Montana, Idaho, and Wyoming to address another 
national disease problem. That one is brucellosis in free-
ranging elk and bison in the greater Yellowstone area. Under 
that model, Federal dollars are appropriated through USDA APHIS 
for grants to the three States to participate in activities as 
they relate directly to brucellosis in free-ranging wildlife. 
Perhaps Congress could use a similar approach to this to 
provide financial assistance to the States for addressing CWD 
in free-ranging deer and elk.
    Mr. Chairman, we appreciate your opening remarks this 
morning and the commitment that you stressed in preserving the 
very vital role of the States and their primacy for managing 
free-ranging wildlife. This is of critical importance to the 
States and we hope that through this exercise, we do not lose 
some of that.
    Mr. Chairman, thank you for the opportunity to share these 
comments with you and I would be happy to answer questions.
    Mr. McInnis. Thank you, Dr. Thorne.
    [The prepared statement of Dr. Thorne follows:]

 Statement of E. Tom Thorne, DVM, Chief of Services, Wyoming Game and 
                            Fish Department

    Thank you, Mr. Chairman and distinguished members of the 
subcommittees, for the opportunity to comment on Chronic Wasting 
Disease (CWD) in Wyoming and on associated critical needs for Federal 
funding to states with CWD in free-ranging deer and elk. Governor Jim 
Geringer has asked me to represent him and Wyoming and asked that I 
stress that CWD is regarded to be of critical importance to Wyoming.
    In Wyoming the Game and Fish Department and University of Wyoming's 
State veterinary Laboratory are responsible for CWD management, 
diagnostics, surveillance, and public outreach. We commend you and 
other subcommittee members for recognizing the significance of CWD to 
affected states and for exploring how Congress and the Federal 
Government can help.
    Dr. Mike Miller, Colorado Division of Wildlife, has provided an 
excellent review of the science of CWD. I will not repeat the technical 
background he presented, but I hope you were impressed that CWD, a 
transmissible spongiform encephalopathy (TSE), is a very unusual 
disease about which there seem to be more questions than answers and 
which is very difficult to control. As much as anything, it is a 
disease of negative perceptions.
    In Wyoming CWD was first detected in a deer at the Department's 
Sybille Wildlife Research and Conservation Education Unit in 1978; it 
was detected in a free-ranging elk in 1986 and a free-ranging deer in 
1990. It was undoubtedly present long before it was detected in the 
wild or at the research facility, and it is impossible to determine if 
it occurred first in free-ranging or captive, research cervids. As far 
as we can tell, CWD is restricted to approximately 11,000 square miles 
of southeast Wyoming where it now is considered endemic. The University 
of Wyoming and Game and Fish Department have collaborated since the 
early 1980s on CWD surveillance, diagnostics, and research. Wyoming is 
fortunate to have experienced, world-recognized CWD researchers and 
outstanding facilities for CWD research at the Sybille Wildlife 
Research Unit and the University's Wyoming State Veterinary Laboratory.
    Chronic Wasting Disease in free-ranging and captive deer and elk in 
southeast Wyoming and northeast Colorado was little more than a curious 
disease, which attracted little attention and even less research money 
until the late 1980s when the bovine spongiform encephalopathy (BSE, 
``mad cow disease'') epidemic began to ravage the cattle industry of 
the United Kingdom. Although there may be more differences than 
similarities between CWD and BSE, CWD began to attract attention, but 
not research dollars, simply because it was, and still is, the only 
animal TSE known to occur in free-ranging, uncontrolled non-domestic 
animals.
    Interest in CWD increased considerably after new variant 
Cruetzfeldt-Jacob Disease (nvCJD) in humans in the U.K. was linked to 
BSE in 1996 and when CWD was diagnosed in captive, commercial farmed 
elk in Saskatchewan in 1996 and in South Dakota in 1997. The increased 
attention being focused on CWD still was not accompanied by funding for 
research, surveillance, management, or public outreach. Indeed, except 
for a small amount of money for surveillance from USDA-APHIS, state 
wildlife management agencies in Colorado and Wyoming diverted money 
from other wildlife management needs to fund CWD activities related to 
free-ranging wildlife.
    In 2001, Secretary of Agriculture Veneman declared a CWD emergency 
in recognition that CWD was about to be, if not already, out of control 
in the commercial farmed elk industry. Since then many millions of 
Federal dollars have been spent by USDA-APHIS to combat CWD in the elk 
farm industry. This is commendable and appropriate because, among other 
things, it reduced opportunities for transmission of CWD to new foci of 
infection outside the endemic area of southeast Wyoming and northeast 
Colorado. However, new foci of infection, at least one of which is 
associated with a game farm, have been identified in Nebraska, 
Colorado, South Dakota, and Wisconsin within the last year. There are 
now five states with CWD in free-ranging deer, which in conjunction 
with CWD continuing to spread in the game farm industry, has resulted 
in CWD being regarded as a National crisis. The five states with CWD in 
free-ranging deer are now expected to aggressively address CWD and are 
responding as best they can, but they are receiving little or no 
Federal funding and do not have the necessary resources for these 
activities.
    It could be stated that there are three types of CWD outbreaks now 
occurring in the United States and Canada: 1) Until CWD was discovered 
in the game farm industry, the only known CWD was in free-ranging deer 
and elk of southeast Wyoming and contiguous northeast Colorado. The 
disease also occurs in research facilities operated by the Wyoming Game 
and Fish Department and the Colorado Division of Wildlife within the 
affected area. This is the endemic area and is the only place CWD is 
known to be established as a self-maintained disease. Prevalence of CWD 
within the endemic area varies from less than 1 percent to 
approximately 15 percent. The size of the endemic area is likely 
increasing as the disease spreads, but spread appears to be very slow. 
2) The second CWD outbreak is occurring in commercial captive cervids 
as the game farm CWD outbreak. Once introduced into a game farm, CWD 
appears to readily become established, although it may be years before 
it is detected. Prevalence of CWD in farmed cervids is variable, and in 
at least one case prevalence exceeded 50 percent. Game farm to game 
farm spread appears to readily occur, sometimes over great distances, 
via intrastate and interstate transport of affected game farm cervids. 
In at least one location, and probably others, CWD has moved to from 
farmed cervids to free-ranging deer outside the affected premise. 3) 
This has contributed to the third type of outbreak--CWD hot spots or 
new foci of CWD outside the endemic area. New foci of infection are 
cause for considerable concern, because, if the disease becomes 
established, they will become endemic areas where control or 
eradication may not be possible. It is possible, especially where high 
densities of white-tailed deer are involved, these new endemic areas 
could spread to involve huge multi-state and provincial areas of North 
America.
    The advent of CWD in game farms and new foci of infection has 
resulted in the current CWD crisis and this Congressional hearing. 
Thousands of farmed deer and elk have been killed in attempts to 
control or eradicate the disease at costs of many millions of Federal 
dollars, primarily for indemnity to owners. Similarly, in new foci of 
CWD, thousands of deer are being killed in order to determine the 
extent of infection and in hopes of eradicating it before it becomes 
endemic. The difference is that where new foci of CWD are being 
addressed, it is being done not with Federal dollars, but state 
wildlife management agency resources and no indemnity is paid for 
publicly-owned deer and elk.
    In Wyoming, game farms are highly restricted and there is only one 
elk farm; it is well outside the endemic area and does not have CWD. 
The scarcity of game farms in Wyoming probably explains why we do not 
have game farm CWD and have not identified any new foci of CWD.
    Surveillance for CWD in free-ranging deer and elk in Wyoming was 
initiated in 1983, and CWD-related activities have been ongoing and 
expanding since then. These activities have addressed management, or 
containment, efforts; research; and information and education 
activities. Management and containment activities include: targeted and 
hunter-killed surveillance of CWD within and outside the CWD endemic 
area; prohibited translocation of live deer and elk from the endemic 
area; no movement of live deer and elk from the Sybille Wildlife 
Research Unit; killing deer and elk with symptoms suggestive of CWD to 
decrease opportunities for transmission; an unsuccessful attempt in 
1987 to eradicate CWD at the Sybille Wildlife Research Unit by 
depopulating all deer and elk present; participation in numerous 
interstate coordination and research meetings; strict regulations 
requiring 60-month CWD-free certification before a new elk can be 
imported to the state's single game farm; and extensive, TSE diagnostic 
services at the Wyoming State Veterinary Laboratory.
    Wyoming has some of the world's leading authorities on CWD and 
outstanding facilities for CWD research. Therefore, Wyoming is an 
active participant in CWD research, including: research to determine if 
CWD will transmit from deer to cattle; the pathogenesis of CWD in elk 
and deer; evaluation of a variety of blood and tissue tests for CWD; 
evaluation of tonsilar biopsy for diagnosis of CWD; mechanisms of 
transmission of CWD; studies of the presence of CWD in reproductive 
tissues; pathology of CWD and evaluation of changes over time; strain 
typing of CWD agents by bioassay and biochemical means; studies of the 
susceptibility of humans and cattle by molecular techniques and 
transgenic mice; studies of geographic distribution and dynamics of 
CWD; and an elk infectious dose titration study.
    Wyoming regards information and education efforts regarding CWD to 
be important. This is especially relevant given the complex and unique 
nature of CWD and the high volume of misinformation in circulation and 
associated misperceptions regarding CWD. Public outreach efforts in 
Wyoming have included: numerous press releases, responses to telephone 
inquiries, and interviews with reporters, writers, radio, and 
television; agency-developed television and radio stories; training 
presentations to agency personnel; informational letters to limited 
quota hunters, taxidermists, and meat processors in the endemic area; 
informative letters to hunters whose animal tested positive for CWD 
during hunter-killed surveillance; identification of CWD-affected hunt 
areas and information on CWD in hunter information booklets and hunting 
orders; pamphlets on CWD; and production of a training video on CWD.
    Wyoming would like to expand its CWD program and is in the process 
of preparing a CWD Management Plan that will incorporate and expand 
activities currently in place and address newly emerging issues. In 
addition, Wyoming, Nebraska, and Colorado are working on developing a 
multi-state CWD plan, which should further coordinate the states' CWD 
management activities.
    States with CWD in free-ranging deer and elk communicate frequently 
and cooperate where practical. Wyoming and Colorado have and are 
collaborating in many CWD research projects. In addition, the states 
recognize and very much appreciate diagnostic services and advice 
provided by USDA National Veterinary Services Laboratory and crucial 
research conducted by USDA Agricultural Research Services laboratories 
in Pullman, Washington, and Ames, Iowa. The National Institutes of 
Health laboratories, especially at Hamilton, Montana, also have 
conducted important research on CWD.
    As previously mentioned, the Secretary of Agriculture recently 
declared a CWD emergency in order to free up money to combat CWD in the 
game farm industry. But the economic importance of free-ranging deer 
and elk eclipses the economic value of game farms; and, yet, very 
little Federal money is being made available to states to help pay for 
very expensive management, surveillance, outreach, and research 
necessary to address CWD in free-ranging deer and elk.
    In Wyoming, as an example, it is estimated that in 2001 deer and 
elk hunters spent $182.7 Million and supported approximately 4,800 
jobs. In addition, elk and deer are important to Wyoming's tourism 
industry, which in 2000 contributed almost $1.5 Billion and 27,000 jobs 
to its economy. Deer and elk are of equal, or greater importance, to 
many other states. If CWD is left uncontrolled and is allowed to become 
endemic in other areas, it could adversely affect deer populations and, 
through negative perceptions, have severe impacts upon hunting and 
hunting's contributions to the economies of many states.
    Although Federal agencies have limited jurisdiction for management 
or health of free-ranging deer and elk, CWD is clearly a national 
problem and deserves Congressional attention, especially through 
funding to states for CWD. A model is present, although much smaller in 
scale, by which Congress appropriates money to Montana, Idaho, and 
Wyoming to address another national wildlife disease problem--
brucellosis in the Greater Yellowstone Area. Under this model, Federal 
dollars are appropriated to USDA-APHIS for grants to the three states 
to participate in Greater Yellowstone Interagency Brucellosis Committee 
activities as they relate directly to brucellosis in free-ranging 
wildlife. Perhaps Congress could use an approach similar to this to 
provide the financial support states desperately need to address CWD in 
free-ranging deer and elk.
    Mr. Chairman, thank you for the opportunity to share these thoughts 
with you today. I would be happy to answer any questions you may have.
                                 ______
                                 
    Mr. McInnis. Mr. Morrison?

STATEMENT OF BRUCE MORRISON, ASSISTANT ADMINISTRATOR, WILDLIFE 
          DIVISION, NEBRASKA GAME AND PARKS COMMISSION

    Mr. Morrison. Thank you, Mr. Chairman. I am Bruce Morrison 
of the Nebraska Game and Parks Commission and I would like to 
thank you and this Committee for giving CWD the national and 
Congressional attention it needs to address it properly.
    I have also prepared a written statement, and if you will 
accept that for the record, I will brief it here.
    The Nebraska Game and Parks Commission began surveying for 
Chronic Wasting Disease in 1997 in its wild deer and elk 
population after it had been discovered in a captive situation 
in our State. We discovered it in the wild in 2000 and since 
then have made additional confirmations of positive animals in 
Nebraska.
    Nebraska Game and Parks Commission, as the other States 
have mentioned, has expended a large amount of money since 
1997, over $1 million directly related to CWD efforts. This is 
mainly in surveillance, monitoring, and control. We do not have 
a research facility similar to Wyoming or Colorado, so we have 
been working closely with them on research. We need additional 
funding for that.
    I would like to emphasize a few points in my time here. One 
is, as Dr. Thorne mentioned, the States are working together. 
We are developing a regional plan. We meet two to three times a 
year, and in March when we met, the Governor of Wisconsin sent 
representatives from their DNR, Department of Natural 
Resources, to participate, and that was sincerely appreciated.
    So everybody that has confirmed CWD is working together via 
USDA. The Agricultural Research Service and APHIS have been 
very helpful in Nebraska and other places. So that Federal-
State cooperation is occurring. The funding to make sure it 
continues is what is needed and the mechanism to set it in 
concrete, so to speak, so that we have one program nationwide 
addressing the CWD issue is there with the funding necessary 
that the States can utilize.
    The APHIS program in the brucellosis area, I was going to 
mention. One of the benefits of being last is everybody covers 
your points, so you have got to struggle for things to say at 
times, but the USDA APHIS Veterinary Services has the expertise 
in veterinary sciences. They have the experience in working 
with the States on various issues, whether it is livestock 
disease or wildlife disease, to be one of the natural avenues 
for sending some of the funding in.
    I would also like to recommend that this Committee and 
others look seriously at the lab capacity available. As 
mentioned before, it is estimated that the States, not only the 
ones with CWD but those looking for it, will be submitting over 
100,000 samples nationwide this year and the lab capacity to 
handle that is not available at this time.
    The allowance of USDA to private labs to let them do the 
testing, the licensing, so to speak, of several other labs is 
needed and needed quickly before this fall hunting season comes 
on because they have to get the machine, they have to have the 
staff training to be able to do the testing.
    Any fight against CWD will be a long-term commitment. It 
will not be a short timeframe. Coming from the management side, 
there will be some controversy involved, especially with the 
depopulation efforts as Nebraska, South Dakota, Colorado, and 
Wisconsin are attempting in wild deer populations. In Nebraska, 
we are also depopulating, which is the correct way of saying 
killing, several hundred wild deer in an attempt to control the 
focus of CWD in a small area. So we need the funding to do 
this, to do the testing, and to do the research, and to 
maintain lab facilities that can do the work we need done.
    The Federal Government game plan that has been asked for is 
an excellent idea, but it must have State input because the 
State authority over wildlife, as you very aptly stated, has to 
be maintained, and that is very, very important to us. It is 
imperative that any actions taken by this Congress recognize 
that authority, and I think we can rest assured it will with 
your opening statement, Mr. Chairman.
    In closing, I would just like to state the State of 
Nebraska is committed to continuing this fight against CWD as 
long as it takes, even if we have to do it alone. I am very 
heartened to see that we do not have to do it alone and I think 
we will achieve victory, but it will be a long-term victory and 
it will only be through Federal and State cooperation. Thank 
you, Mr. Chairman.
    Mr. McInnis. Thank you, Mr. Morrison.
    [The prepared statement of Mr. Morrison follows:]

    Statement of Bruce Morrison, Assistant Administrator, Wildlife 
              Division, Nebraska Game and Parks Commission

    Good morning Mr. Chairman and distinguished members of the 
subcommittee. I am Bruce Morrison, Assistant Administrator of the 
Wildlife Division of the Nebraska Game and Parks Commission, a 
certified wildlife biologist and a wildlife disease specialist. Thank 
you for giving the ongoing fight against CWD the Congressional and 
national attention it needs. I am grateful for the opportunity to 
testify before you today and present the views of the State of Nebraska 
as concerns Chronic Wasting Disease (CWD). Nebraska is one of the 
unfortunate states that has confirmed the presence of this disease in 
our wild deer populations. Since November of 2000, a total of 14 
animals in four counties have tested positive for CWD. Additionally, 
three captive wildlife facilities in the state have had Rocky Mountain 
Elk test positive. The wild occurrences of this disease have, so far, 
been restricted to the extreme western portion of our state and all 
counties where it is found border Colorado, Wyoming and/or South 
Dakota. The state has been working diligently with state and Federal 
agencies from throughout the United States and Canada in our attempts 
to identify endemic areas, conduct surveillance, reduce the chance for 
spread through population reductions, develop a regional management and 
research plan and, hopefully, eventually eradicate CWD in North 
America. I would like to stress that the cooperation between the 
various state wildlife agencies and USDA-APHIS and USDA-ARS has been 
excellent and that cooperation should continue. Additional concerns 
include the potential for the loss of revenue through hunting license 
sales and the demise of business opportunities associated with hunting 
and wildlife viewing by the citizens of Nebraska. The estimated income 
loss if we loose the opportunity to utilize the renewable natural 
resource of our cervid populations in over 500 million dollars 
annually.
    As previous witnesses have testified, CWD is a fatal brain disease 
of cervid populations. There is currently no acceptable, easy 
administered live test nor known cure for the disease. Efforts by the 
Colorado Division of Wildlife, Wyoming Game and Fish Department, 
University of Wyoming, Colorado State University, USDA-APHIS and USDA-
ARS have advanced our knowledge of the disease but they have been 
unable to conduct all the research needed due to lack of funding and 
proper staffing levels. The Nebraska Game and Parks Commission, South 
Dakota Department of Game, Fish and Parks and the Wisconsin Department 
of Natural Resources have recently joined in the effort since finding 
CWD amongst wild cervids in their state. However, even with the added 
partners, the funding and staffing levels present in the effort to 
combat CWD are woefully inadequate. In spite of the fact that deer 
hunting contributes millions of dollars annually to the economy of the 
United States, funding for CWD research and monitoring has not been 
forthcoming. Yet, this disease threatens to substantially reduce deer 
hunting in those areas where it occurs, and thus negatively impact the 
economy of those regions. Added to the mix is the remote possibility 
that CWD could, sometime in the future, jump the species barrier and 
infect cattle, where the potential economic impact would be 
catastrophic to the United States. Therefore, it is imperative that the 
states and Congress take action now to halt the spread of this disease 
and, through scientific research, find a method to eliminate it from 
North America. Such an effort will not be quick or inexpensive. It will 
require a long term commitment by the professionals involved and by the 
citizens of America to fund the effort.
    The fight against CWD in Nebraska, as elsewhere, has become a 
costly effort, taking much needed resources away from other wildlife 
management programs and efforts. The dedication of staff time to this 
battle has removed the ability of the Nebraska Game and Parks 
Commission to respond in a positive manner to other issues that impact 
the natural resources of our state. Additionally, with the increased 
public interest in this disease, the state's efforts will be increasing 
over the next few years, further diminishing our financial resources. 
Since this disease has the potential to impact the rural economy of 
numerous towns and villages as well as the agricultural community and 
since diseases do not respect political boundaries, it is proper that 
additional Federal resources be provided for the battle. Additionally, 
with the large increase in the number of states implementing disease 
monitoring actions this fall, the lab capacity of those accredited for 
CWD testing will be strained. Turn around time for tests could stretch 
into months if action is not taken to increase capacity, especially in 
those states with confirmed CWD in their wild cervid populations.
    Current needs facing the State of Nebraska include;
    1. LFunding for research into testing methodologies, transmission 
methods and environmental contamination. Estimated need is $750,000.
    2. LFunding for providing double fencing at infected game farms and 
research facilities. Estimated need is $500,000.
    3. LFunding to maintain the Panhandle Veterinary Laboratory on a 
year-round basis for processing samples. Estimated need is $250,000.
    4. LAdditional staff to collect and quickly process samples for 
infection rate determination. Estimated need is $150,000
    5. LAdditional laboratory and disposal equipment to properly 
extract and prepare samples for testing and safely dispose of 
biological material. Estimated need is $75,000.
    6. LFunding for the testing of hunter and agency harvested animals 
for CWD. Estimated need is $50,000.
    The total of these needs is $1,775,000 annually for the ongoing 
fight against CWD. It is only through the infusion of these sums of 
money that we will be able to continue and win this battle. This is 
only Nebraska's needs. The remaining states with confirmed CWD also 
need funding assistance. There is also a critical need for a national 
program for funding for testing for CWD in those states where CWD has 
not been confirmed. Such a program should be administered by USDA-APHIS 
through the state wildlife agency.
    It is imperative that any action taken by this Congress or any 
Federal agency recognize the authority of the state wildlife agency to 
manage the wildlife populations within their borders. This authority 
must be maintained while working together in a cooperative manner to 
address a national issue.
    The State of Nebraska is committed to continuing the fight against 
CWD and to working with all interested parties and agencies to achieve 
victory. It is only by working together and pooling all our resources 
can we make significant advances in this effort.
    Thank you for the opportunity to present the views of the State of 
Nebraska on this important issue and I would be willing to answer any 
questions you may have.
                                 ______
                                 
    Mr. McInnis. I will begin the questioning. I have two 
points of inquiry, both with Mr. George.
    Mr. George, as Congress grapples with drawing the lines of 
responsibility in terms of which Federal agencies are going to 
partner with the States and in which areas, what is your 
preference as to which agency or department should spearhead 
the Federal support efforts when it comes to managing the wild 
part, the wild elk and deer herds?
    Mr. George. Thank you, Mr. Chairman. I think it is 
important to remember that agriculture has a constituency that 
is somewhat different from Interior's constituency, just as we 
are in Colorado. The Colorado Department of Agriculture has a 
different mission than the Colorado Division of Wildlife. Now, 
there are many places where these overlap, but there are many 
places where those responsibilities, constituency-driven 
demands, are different.
    So I think the Federal model should be the same as we try 
to strive for in Colorado, and I am sure other States, is that 
you each focus on your own mission, but where you have the 
contacts and the overlaps, you work together, and that 
resources should be able to move freely back and forth over 
that common area. But it should not come from one direction 
only in any instance because of those different constituencies.
    Mr. McInnis. So, in other words, at the Federal level, the 
Department of Agriculture with the captive herds, the 
Department of Interior would be best with the wild herds?
    Mr. George. That would be my agreement, yes.
    Mr. McInnis. Let me ask one other thing. If we do not 
eradicate--the reason you are eradicating is to prevent the 
spread, is that not correct? It is not to take the animal out 
of misery. It is to stop the spread of this.
    Mr. George. It is the only way you can stop the spread, is 
to kill the infected animals, because there is no treatment.
    Mr. McInnis. I am a little baffled, and I have not heard 
their side of the story, but it is my understanding that, for 
example, in the district that I represent, we have four 
national parks. The Rocky Mountain National Park, which has a 
prohibition against hunting, has also prohibited any 
depopulation in the national park. Have you visited with them 
about that? Can you give me that perspective?
    And also, I would like a forecast. If they do not allow 
this depopulation in their park, if it is located in the park 
and they do not allow us to kill the animals, do we have to set 
up a border patrol to make sure those animals do not come 
across into our territory? Would you expound on that just 
briefly for me?
    Mr. George. Mr. Chairman, I think the Rocky Mountain 
National Park has an enormous challenge because of the rules 
and regulations that they operate under. I think it is harder 
for them to use as a management tool the tools that we are 
using outside the park.
    We believe the only way we can handle the infectivity 
levels that we see in northeast Colorado on the boundaries of 
Rocky Mountain National Park is to move in where we find 
infected animals and take them all out. We regard this as hot 
spots, and in some instances, we have seen percentages of 
infection rate as high as 20 percent, which is absolutely 
unacceptable.
    None of us like doing that. It is not a pleasant task. But 
remember that deer and elk are a renewable resource and that if 
we are successful in reducing the incidence of the disease, the 
herds will repopulate themselves as healthy animals.
    The issue is no different inside Rocky Mountain National 
Park. The disease management protocols have to be the same, but 
their challenge is the different set of rules. We have met. The 
Acting Superintendent of Rocky Mountain National Park was kind 
enough to come to my office to see me a couple of weeks ago. We 
have begun in earnest our next level of discussions about 
cooperation. In fact, I am hoping and expecting within the next 
couple weeks we will have a memorandum of understanding between 
the park and the Division of Wildlife that coordinates both our 
elk management practices and our CWD disease management issues.
    Mr. McInnis. Thank you, Mr. George.
    Mr. Inslee?
    Mr. Inslee. Thank you, Mr. Chairman. I want to thank the 
Chair for holding this important hearing.
    I wanted to focus my questions on the ability of States as 
a first responder to these outbreaks and how they relate to the 
commercial game farm industry and how that interplay has acted 
or not acted to try to stem this tide quickly. I wanted to ask 
Governor McCallum about the Wisconsin experience.
    I have heard that the first time this was discovered in 
Wisconsin was February, but I am looking at some memos that 
have been provided to me that show on April 17, 1998, the 
Wisconsin State veterinarian had a memo from the Nebraska 
Department of Agriculture that said that an elk from an 
infected herd that had tested CWD-positive had been shipped to 
a farm near Bloomer, Wisconsin. In a memo dated May 27, 1998, 
to Bob Susan from the State of Colorado, indicating there had 
been a shipment but that Wisconsin had no current rules for 
CWD.
    And then on September 15, 1998, a memo from a DNR 
biologist, Steve Miller, to Secretary George Meyer of Wisconsin 
in which he called for a moratorium on the import of all game 
farm animals, and he said, and I think this is really 
interesting, he said, ``At present, it appears this would be 
the only way to help assure the disease is not spread into 
Wisconsin.''
    Now, I understand since that date, until March this year or 
last night, the State of Wisconsin had not imposed a moratorium 
on importation of game farm animals. It had not required random 
sampling of game farm animals. It had not required testing of 
dead or sick deer on these farms. It had not required a State 
registry of animals. It had not required tracing back of all 
diseased animals to the source.
    And given, assuming these memos are accurate, and I would 
obviously like your comment, but given this information that 
these animals from infected herds were coming into Wisconsin, I 
am having a hard time figuring out how a State like Wisconsin, 
that is so dependent on the integrity of its food industry for 
its economy, would not have responded quicker in a more 
effective way to this infestation.
    I am very interested in this because, obviously, the 
commercial game farm industry, to the extent it has political 
clout, if this is a problem nationwide, because that is how 
this disease may be being spread--you know, these animals can 
travel 1,000 miles, 1,500 miles in a couple of days with a 
truck, and if we are not having States respond to this when 
they have knowledge of it, that is of great concern.
    So if you can help me understand why the Wisconsin 
administration did not react more rapidly to this information, 
I would appreciate knowing it.
    Governor McCallum. I can, and as you said, if your 
information is incorrect, I should let you know. Your 
information is incorrect.
    Mr. Inslee. Thank you.
    Governor McCallum. There have been no farm animals, game 
farm animals that have been found infected, and furthermore, we 
have had rules in place in the State of Wisconsin.
    Mr. Inslee. So I want to make sure I understand. As I 
understand what these memos said, is that on at least two 
occasions, from different States, the Administration was 
notified that an animal from a herd that had tested positive 
for CWD in other States had come into the State of Wisconsin. 
Maybe that particular animal had not been confirmed for CWD, 
but had come from an infected herd. Is that your understand as 
to what had happened?
    Governor McCallum. This press conference was held 2 days 
ago that you are referring to with the memos, and George Meyer, 
who you referred to, was the Secretary of the Department of 
Natural Resources and would have been the one responsible for 
it at the time. My understanding is, since then, he has 
suggested he should not have been at the press conference and 
he was not fully aware of the information that he was talking 
about.
    Mr. Inslee. So I want to make sure that I understand. This 
September 15 memo from a DNR biologist where he called for a 
moratorium on the import of all game farm animals and said, as 
I understand it, and tell me if this is inaccurate, it says, 
``At present, it appears this would be the only way to assure 
the disease is not spread into Wisconsin.'' Was there a memo 
like that from a State biologist?
    Governor McCallum. Well, if you are asking about a memo in 
1998 that went to--I have got 65,000 employees. I do not keep 
track of all their memos. But I can tell you we have no one 
since. We have procedures in place in the State of Wisconsin to 
prevent the importation of animals. We have rules in place and 
we are doing everything we can to prevent the importation of 
these animals. We do not want--the game farm is very important 
to us, as the wild herds are important to us, and we are going 
to put steps in place in a bipartisan fashion, as we saw with 
the legislature last night. This is not a partisan issue. We 
are going to work together to move forward since February 28, 
when I became aware of the issue, and will continue to be very 
aggressive in the State of Wisconsin to address it.
    Mr. Inslee. Well, our concern is that States may be too 
interested politically in the game farm industry and, 
therefore, resulting in the infection of the public asset, 
which are the wild herds, which have tremendous economic value 
to Wisconsin and a lot of other States.
    Now, my understanding is, until March this year, your State 
did not impose a regimen of testing for imported animals, nor 
did it impose a moratorium, nor did it impose mandatory testing 
of diseased and dead animals on game farms, is that correct?
    Governor McCallum. We have regulations in place, and I am 
going to just turn around and ask my Secretary of Agriculture 
how long they have been in place.
    You are correct. We put the regulations in effect as soon 
as we found out, the 28th. Apparently, there were not the 
regulations in place prior to the 28th.
    Mr. Inslee. Now, there was a discussion--I am out of time, 
Mr. Chairman. I am sorry. I am out of time. Thank you, 
Governor.
    Governor McCallum. Thank you.
    Mr. McInnis. Mr. Gilchrest?
    Mr. Gilchrest. Thank you, Mr. Chairman. Can any of the vets 
or biologists tell me that if a coyote, eagle, bear eats an 
infected deer or elk, that the disease can transfer that way?
    Dr. Miller. To the best of our knowledge, no. Certainly, 
birds have not been described as being infected or playing any 
known role in any of the prion disease transmissions. 
Similarly, species in the dog family do not seem to be 
susceptible. Domestic and wild cats in the United Kingdom were 
infected with BSE and we are actually looking right now at the 
role that mountain lions might be playing in several aspects of 
Chronic Wasting Disease ecology. But as far as we know, there 
are not any roles that carnivores or predators are playing in--
    Mr. Gilchrest. So a fox or a coyote or a bear in the wild 
may have some similar natural immunity as domestic livestock to 
this disease?
    Dr. Miller. It is not immunity per se, but there seems to 
be some resistance among species for these different strains of 
prion. So a strain that is adapted, as this one is, for deer 
and elk does not readily go into any other species, including 
humans, thankfully.
    Mr. Gilchrest. I see. So it is likely--this disease is a 
bacteria?
    Dr. Miller. It is actually a protein.
    Mr. Gilchrest. A protein.
    Dr. Miller. Yes. It is very--
    Mr. Gilchrest. So it is not a bacteria. It is not a virus. 
It is not a parasite. It is some type of protein--
    Dr. Miller. Yes. It is--
    Mr. Gilchrest. --that is unique to perhaps, at least we 
hope at this point, deer, elk, things like that?
    Dr. Miller. This particular strain appears to be unique and 
focused its attention on deer and elk. There is another strain, 
or maybe more than one strain of these, that occur in sheep and 
goats, but the two are somewhat different.
    Mr. Gilchrest. There is a different type. So what would it 
be similar to for us for the layman to understand? It is a 
protein, so it is a genetic thing?
    Dr. Miller. No, it is kind of a cross between something 
very simple, like a virus, in terms of it being transmissible, 
but in other ways, it maybe acts more like a toxin. It 
accumulates in an animal's system by the conversion of normal 
protein within that animal to this abnormal form. So--
    Mr. Gilchrest. So is it a very bizarre form of life that 
actually replicates itself and grows and evolves?
    Dr. Miller. It at least perpetuates itself and propagates 
itself. Whether it is alive or not, I guess is the subject of 
some debate, because it does not have--most of the other--all 
the other forms of life that we recognize in science have 
nucleic acid, have DNA or RNA as their base for coding and 
information and perpetuation and this does not.
    Mr. Gilchrest. And this does not?
    Dr. Miller. This does not.
    Mr. Gilchrest. This does not.
    Dr. Miller. It is a very new form of disease-causing agent 
to science. The theory, the prion theory has only been around 
for ten, 15 years. Stan Prusiner actually won a Nobel Prize 
just a few years ago for developing this theory, and so that is 
part of why the research maybe has not advanced as rapidly as 
it might have if this were a more conventional pathogen.
    Mr. Gilchrest. So part of the best help that we can provide 
is funding for some understanding of the mechanism upon which 
this protein functions?
    Dr. Miller. I think at least one of the facets, and there 
is certainly funding that is available right now for scientists 
looking at the basics of prion biology here in the United 
States and also over in Europe, but certainly understanding the 
biology of these disease agents is going to help us in figuring 
out how to protect animals through vaccines, potentially, or 
through some therapeutic drug that might block the action of 
these things. I know the scientists up at the NIH lab in 
Hamilton have worked a little bit on some of these issues, as 
well as scientists over in Europe.
    Mr. Gilchrest. I would just like to make another quick 
comment. It was mentioned that maybe USDA should deal with the 
farm-raised elk and Interior deal with the wild elk. But my 
question is about a rancher or a farmer out there that has to 
deal with the wild game. Is there any provision for that 
rancher to--I do not know, somebody used a politically correct 
term to killing these animals and I forget what that was, 
eliminate or whatever--depopulate. So can the rancher at a 
season see something that appears to be CWD and eliminate that 
particular--with the USDA program or State agriculture program?
    Governor McCallum. In Wisconsin, the legislation we just 
passed, we are now allowing--in the area that we are trying to 
eradicate them, we are allowing farmers who are driving 
tractors to shoot deer.
    Mr. Gilchrest. Farmers to do what?
    Governor McCallum. Farmers who are driving tractors can 
shoot deer. We are just trying to depopulate the area.
    Mr. George. Mr. Chairman, if I might also respond to that 
last point, in Colorado, our preference is for the instance 
that you describe, a rancher or any other citizen who believes 
there is an infected animal on his property, to call the local 
wildlife manager and allow us to come in and investigate the 
circumstance. There are other kinds of diseases that cause 
animals to appear as a CWD-infected animal appears from 
symptoms.
    And the other part of it is, this is so serious to us that 
we want to know, is that animal actually infected? We will take 
out the animal, test it, and then make a determination. If we 
have an infected animal on private property, we will come back 
to the landowner, discuss thoroughly with that individual what 
we know, and we will ask permission then to immediately attempt 
to eradicate all other animals that might have been infected by 
that, or exposed to that other animal.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Mr. McInnis. Mr. Kind?
    Mr. Kind. Thank you, Mr. Chairman. Thank you again to all 
of the witnesses for your testimony. We look forward to working 
with all of you as we develop a comprehensive program to 
address this, not just resources, but some technical assistance 
and the research that really needs to be put in place.
    We have to be careful in how we address this issue 
publicly, too, because we do not want to create a human health 
hysteria out there at the same time. I think it is important 
that we are clear that there is no known transmission to humans 
that has been detected or other livestock herds or other type 
of animals, for that matter.
    But there are still questions lingering, the questions I am 
getting back in my district in regards to the safety of venison 
that has been taken. I was doing a program yesterday and I had 
a lot of hunters calling in and saying they are dumping the 
venison from their freezers. They are just not going to take 
the chance. And we have food pantries right now in Wisconsin 
that are rejecting the donated venison that is a big part of 
deer hunting season, where they are able to accept the donated 
venison from hunters across the State.
    Mr. George, you raised this issue too and being very clear 
about it, but is there anyone on the panel now that knows of 
any public health expert that can, in fact, close the door for 
certain in regards to any exposure or risk to humans in regards 
to CWD, especially as it relates to the consumption of venison, 
of potentially infected deer? Mr. George, do you know of any 
human health expert that can, in fact, say, no, humans are 
absolutely safe from this?
    Mr. George. Mr. Kind, I think quite the opposite is true. 
My experience in working with medical professionals is that 
they have an enormous respect for the unknown, an enormous 
respect for nature being in charge of much of what happens to 
us in life. And I do not have a problem with that hesitancy. I 
think that it is right for professionals to articulate only 
what we know.
    But I think the right way to deal with Chronic Wasting 
Disease in this context, as managers of wildlife, and 
agriculture would say, as well, in domestic elk and deer, is 
that, first of all, we have an obligation to know everything we 
can know, and that is part of why we are here today, is to help 
bring all of our combined resources together to step up the 
pace so that we know more and more as time goes on.
    But just as importantly, and I think all health 
professionals will agree with this, is that you must then be as 
eager to tell the public everything that you know. The key to 
all of this is to tell the public everything we know so that 
they can form their own educated opinion about how to act 
themselves, and that is super-critical in our example about 
hunting seasons coming up. If we are doing our job right and we 
keep all of this CWD discussion science-based, fact-based, 
data-based, and tell the truth at every point in all of our 
public utterances, then we can keep this from being a fear-
driven or panic-driven, or ultimately an economic-driven 
problem.
    Mr. Kind. I thank you and I could not agree with you more. 
It is really what is alarming when you get into this issue, 
really the paucity of research that is out there and the 
absolute need that we have to develop that science and start 
having some of these questions answered.
    Governor McCallum, let me turn to you. We are just now 
studying the details in regards to the bill coming out of the 
State special session that you held and I commend you for 
drawing the other Representatives' attention to this, too, and 
calling them back in special session. A couple of questions, 
though, in regards to the whole herd kill-off, the proposed 
15,000 kill-off, because what is being proposed is really in 
the epicenter of my new expanded Congressional district and I 
am starting to get some feedback in regards to safety concerns, 
because--
    Governor McCallum. It is the district you wanted, 
Congressman.
    Mr. Kind. That is right.
    [Laughter.]
    Mr. Kind. Thank you very much for signing that into law. 
But I am starting to get some feedback in regards to some 
safety issues, and what is being proposed, I understand, is 
possible shooting from helicopters, also drive-by shooting on 
roads and streets and that, and there are a lot of kids in the 
area, obviously, playing in the fields or perhaps running 
around in the woods, too. I know one of our local State Reps 
down there raised this during the special session. So that is 
one question I have that hopefully you can address.
    But the other one, too, is in regards to the staged type of 
plan, doing it in pieces, just from my experience as a hunter 
myself, I know that once the firing starts, the deer disperse, 
and unless we have a plan in place to establish a perimeter to 
try to contain and prevent the spread of these deer once the 
firing starts, I do not know if it is going to be in our best 
interest to do this in stages, going for maybe a 500-deer kill-
off, and then a 1,000-deer kill-off at some later stage, 
because, especially in the spring or summer when it is going to 
be tough to pick them up anyway.
    If they start spreading around the State of Wisconsin and 
in this enlarged area, are we asking for more trouble in 
regards to the spread of the disease unless we have some plan 
that can contain them in a relatively narrow geographic spot? 
If you could address those two issues.
    Governor McCallum. I will try to get at your question. I 
believe the question was pertaining to allowing the shooting 
from helicopters was the first portion. Of course, I will leave 
it up to the Department of Natural Resources, which, as you 
well know, has sought input from local officials, from public 
officials, from landowners, from hunters, conservationists, the 
farm community in the State of Wisconsin, and I will rely on 
them to put together the best plan possible.
    As you well know, also, it is difficult to find deer and it 
is much easier to spot them from the air. If you want to be 
certain in trying to eradicate the animal from this area, you 
are going to have to be very aggressive at it. And again, it 
was passed, and if you have a concern, it was passed in a very 
wide, bipartisan margin. I will rely on their expertise.
    The second question pertained to the phase--
    Mr. Kind. The kind of phased-in program that is being 
proposed, killing off the deer in stages rather than trying to 
set up a perimeter and doing it at once.
    Governor McCallum. Rather than having a large--well, in 
some respects, they are contradictory because you have got to 
be able to use helicopters from the air to be as efficient as 
possible in this. I cannot answer the second question. I do not 
understand--
    Mr. Kind. I guess the concern I have is once the shooting 
starts, the deer, they are going to run. They are going to go 
down. They are going to spread, and this entails the spreading 
of the disease to a much larger geographic area if this is a 
phased-in approach that we are going to be taking in the State.
    Governor McCallum. I do not understand what you are getting 
at. Are you asking if we should do this State-wide or what is--
I do not understand the direction your question is taking.
    Mr. Kind. Again, concerns have been raised--
    Governor McCallum. I apologize. I would like to answer 
the--
    Mr. Kind. We will be in touch with the officials in charge 
of the program and see what response they have to it. Thank 
you.
    Mr. McInnis. Mr. Tancredo?
    Mr. Tancredo. Thank you, Mr. Chairman. Thank you so much to 
the panel. This has been an amazingly elucidative panel, I 
think, and I certainly appreciate it.
    Mr. Miller, your testimony, I find quite provocative in 
many ways. First of all, stating that Chronic Wasting Disease 
is not a new prion disease. The clinical syndrome of chronic 
wasting was first recognized in captive mule deer populations 
in Colorado in the late 1960's. But tying the first recognition 
of a disease like this to its first occurrence seems like a 
substantial leap of faith. That is a very interesting point, 
because if, in fact, we have recognized that we saw this 
manifest itself somehow 40-some years ago, at least, but, of 
course, it could have been 400 years ago, frankly, right?
    Dr. Miller. It could have been.
    Mr. Tancredo. Then I suppose I am wondering, since the time 
that we know that we could identify this particular strain and 
today, would that not be long enough for us to determine the 
actual progress of this disease? What I mean is, if you have 
got 40 years to look at it and it has not seemed to manifest 
itself in a way that is quite alarming until just now, I guess 
I am wondering, what does that mean for us? How should we 
interpret those data so that we know that we are not 
overreacting?
    How do we know it has not been here 4,000 years and, in 
fact, the natural course of events takes care of it? It has not 
decimated the deer and elk herds up to this point in time, and 
even in the 40 years since we have known it, it has not done 
it. So I am wondering how to interpret those data.
    Dr. Miller. Part of the interpretation, I think, is to 
understand, Mr. Tancredo, that the disease was not even 
recognized as an infectious disease for the first ten or so 
years that it was recognized, but based on what we have seen in 
terms of the patterns of spread within northeastern Colorado, 
for example, and southeastern Wyoming, it appears that it is 
slowly working its way out and, quite honestly, it has been 
there for a while but probably has not been there for hundreds 
of years. Based on what we know about movements of deer and elk 
in those areas, if it had been there for hundreds of years, it 
should be more widespread than it is right now within those 
areas, and infection rates, we would guess, might even be 
higher than what we are seeing today.
    Mr. Tancredo. Like many other diseases, over time, you have 
these sporadic infection rates that are high, and then all of a 
sudden, we really do not know--at least, certainly I do not 
know why--the disease is not eliminated, but it goes back to 
some smaller portion of the population. It is cyclical, is what 
I am trying to say. How do we know that that has not happened?
    Dr. Miller. We have certainly seen no evidence for that in 
the places--and we admittedly have not had the luxury of having 
decades and decades of experience with this disease--
    Mr. Tancredo. Four decades.
    Dr. Miller. --in terms of looking at it in the wild. Well, 
but again, understand that, really, over about the last 10 
years, we have really had the tools and the understanding to 
begin looking at it in the wild and what we have seen within 
that relatively short time period, compared to the hundreds, if 
not thousands, of years that you are talking about is that 
there is not any up and down. It seems to hold at a steady rate 
or at least slightly increase.
    If you look at the disease in confinement settings, which 
maybe is just a compression of some of these actions over time, 
and this has been repeated several places, several times over 
the last 20, 30 years, right now, in our captive mule deer herd 
in our research facility in Fort Collins, we cannot keep a deer 
alive for more than 5 years in that population. I would wager 
that if we went in and tested those deer, that every single 
deer in the pens where we have the disease perpetuating is 
infected with Chronic Wasting Disease.
    I think on a local basis, with small populations and the 
way deer structure themselves, and elk, too, to some extent, it 
is actually a population whose aggregates are kind of small 
family units that come together, but within those small units, 
infection rates can be remarkably high. The folks in Nebraska 
have been looking at infection rates of somewhere in the range 
of 50 percent, I believe, Bruce. In the core of some of our 
endemic areas, we have had local populations, as Director 
George mentioned, of 20, 30 percent.
    So I think if this was a widespread, long-term problem, we 
would have seen more cases around the country. You would see 
much more uniformity in distribution. The difference with these 
diseases between a disease like plague, for example, or some of 
the pastrolosis pneumonia type problems that we see, 
respiratory disease problems in wild sheep that I spent a 
number of years studying, is the host population can develop 
some level of resistance. The immune system actually comes into 
play in helping create that stalemate between the pathogen and 
the host.
    To date, we have seen no suggestion that that system, or a 
similar system, comes into play with wasting disease in deer. 
We have not identified yet groups of deer, genetically or 
otherwise, that are resistant to the disease.
    Mr. Tancredo. Thank you. That is very helpful. You also 
mentioned that, in addition, contaminated environments likely--
    Mr. McInnis. Mr. Tancredo--
    Mr. Tancredo. Oh, I am sorry. Are we out of time? I am 
looking at the green light. I am sorry.
    Mr. McInnis. They only have one timer up here. Again, I 
apologize to the Committee members for interrupting, but I 
want--
    Mr. Tancredo. That is all right. No. I just--
    Mr. McInnis. --all of you to have an opportunity to 
question. Ms. Baldwin?
    Mr. Tancredo. Could I say just one other thing to Russ 
George, and that is that, Russ, your comment that this knows no 
State boundary, I told the staff I knew there was an 
immigration point here.
    [Laughter.]
    Mr. George. That was done just for you, Congressman.
    Mr. McInnis. Ms. Baldwin?
    Ms. Baldwin. Thank you, Mr. Chairman.
    I really want to thank the panelists for their testimony 
because I think all of us can agree that this was an extremely 
informative presentation. We are all seeking answers to 
questions.
    This is an issue that I am deeply concerned about and I 
will echo a number of the comments of my colleague with whom I 
work closely on this as well as share a border. We are at the 
epicenter in Wisconsin of the occurrence of Chronic Wasting 
Disease and, consequently, we get lots of questions from 
constituents. This disease has an enormous impact on the 
families, the economy of our region, the economy of our whole 
State.
    I do not think constituents ask us questions because they 
view us as independent efforts in Chronic Wasting Disease or 
view us as having any particular expertise but because we have 
access to you and the information that people on the cutting 
edge of this are acquiring and disseminating.
    I think it is evident from this panel that while we have 
been enlightened in many, many respects, there are also so many 
questions that remain unanswered. Because my district is ground 
zero in Wisconsin for this disease, I am still struggling with 
what sort of answers I should provide when I get these urgent 
questions.
    It is clear from the testimony that there is much that 
remains to be done in terms of research, in terms of 
understanding, controlling, eradicating, and preventing this 
disease, and it is my hope that the Federal agencies and State 
agencies will continue to work very closely together, and it is 
imperative, of course, that we, as Members of Congress in 
affected areas, and, frankly, the Congress at large, be kept 
abreast of the latest information as it develops so that we can 
play the liaison and informational role that we have been 
elected to serve.
    The Federal Government, in my opinion, must take an active 
role in providing assistance to those on the front line, and 
that is with financial resources, research and coordination 
with Federal agencies. I am proud to highlight an exceptional 
Federal resource that we have in the Second Congressional 
District and that is the USGS Wildlife Health Center, and I 
certainly want to make sure that we are doing an adequate and, 
in fact, more than adequate job of supporting them in their 
efforts to combat this disease.
    Given the financial stress that this disease places on 
States like Wisconsin, which is dealing with financial stresses 
of its own, there is such a critical Federal role to play in 
providing assistance.
    I want to inquire just a little bit further about the 
safety and health of my constituents. I can tell you that I was 
certainly heartened to hear the words of Mr. George earlier in 
his testimony when--I believe I scrawled them down correctly to 
say, ``We believe that there is virtually no risk to human 
health. We believe there is virtually no risk to other 
species.''
    You are experts on wildlife health. You said you have been 
actively consulting with experts in human health. I am 
wondering two things. My grandmother always said to me, ``Err 
on the side of caution.'' I do not know why I would advise my 
constituents anything else. But I am wondering the sort of 
scientific basis for the conclusions that venison presents 
virtually no risk to human health and what would you tell my 
constituents to do with the venison in their freezer?
    Mr. George. Thank you. I am not going to try to answer the 
scientific part of your question. I will ask Dr. Miller and Dr. 
Thorne to do that. But we cross the line from science to 
sociology so quickly that as a manager, I want to share with 
you my views about that.
    We start from the science of the issue. We must always be 
correct about that, be complete about it. But the real 
challenge, not only being right, is to communicate that in a 
way that people are entitled to believe it and do believe it. 
So we have spent a lot of time in recent years talking to the 
public about venison and elk for human consumption.
    We put in the hands of every hunter that may be taking an 
animal in an area where we know there is Chronic Wasting 
Disease and we lay out a number of safety and sanitation, if 
you will, protocols. We say to them, here are ways that you can 
process your meat that might be more sanitary in any respect, 
but is also helpful with this disease. For example, we know 
that the prions have a tendency to accumulate in the nervous 
tissue, so we say, do not cut through the spinal column, do not 
invade the brain cavity. Stay away from all that. You can use 
gloves. Here is the proper way to care for your equipment.
    All of these things are very important, but in the end, the 
message is, each individual needs to make his own informed 
judgment about it. And so it is our responsibility to have the 
facts and to make those facts known.
    In your first comment, I think you hit on a very important 
subject that has not been really discussed a lot here today and 
it is the much broader communication and education piece of 
this. It is no less serious with Chronic Wasting Disease than 
maybe any other major issue we work on. If we are consistent in 
our message, if we are accurate, complete, and consistent 
across the country, people will be able to understand better 
than before and will be able to make their informed judgment, 
and that is all we can do about that. We do not have science 
far enough along to be able to say with certainty, but all you 
can do is say what you do know and lay it out so that people 
can make their decision about it.
    Mr. McInnis. Your time is up.
    Mr. Osborne?
    Mr. Osborne. Thank you for being here this morning. Just a 
couple of questions, and I am going to start with Dr. Miller. 
You or someone mentioned that once infected animals had been 
eliminated from a given area, there is still the disease 
apparently present environmentally. I guess that, more than any 
other statement that I have heard, concerned me the most 
because, obviously, we have a chance to eradicate animals, but 
do you have any idea how long the disease would continue to 
persist environmentally in an area?
    Dr. Miller. We do not have a good absolute measure on that 
because right now, we do not have the tools to even be able to 
identify the pathogen in the environment. Probably in some 
cases, it can be maintained on the order of years. That is why 
it is so important to get into these places early and fairly 
thoroughly.
    The mental model that I use in thinking about this is that 
the agent accumulates over time in an area where you have 
infected animals. The more infected animals you have and the 
longer time those animals are contributing infection to the 
environment, the more of a mess you end up with at the end of 
the day. So by going in quickly, identifying areas as we have 
done in western Colorado and as the folks in Wisconsin have 
done, as they have been doing in Nebraska, identifying places 
where the disease seems to be localized and eliminating those 
animals relatively quickly, you are going to have the best 
chance of minimizing environmental contamination.
    I also think that it is going to vary somewhat from place 
to place, and the areas where we have the most experience with 
wasting disease, we have much less water, for example, flowing 
through our systems than we do in the Midwest. We have a 
relatively arid on the front range of Colorado and in southern 
Wyoming where we deal with this disease. It may be that in 
places where there are higher volumes of water going through a 
system, there is more dilution that will help get rid of the 
infectivity, or at least spread it out to where animals are not 
going to become infected.
    And then managing these populations in a way that you can 
eliminate groups of animals and then let repopulation occur 
slowly over time--one of the misconceptions is that when you 
kill a group of deer, that the rest of the deer are just going 
to pull right back into those vacant areas, and, in fact, that 
is really not the case. So there will be some time, some buffer 
of time that hopefully will allow the disease to work its way 
out of the system. It probably goes away over time, but 
minimizing the contamination early on is probably the best 
strategy.
    Mr. Osborne. Thank you. I have one question for Mr. 
Morrison. Obviously, Nebraska is a little bit unique in that we 
border South Dakota and then, of course, Wyoming and Colorado, 
so we are kind of at a juncture of several States there. What 
barriers have you experienced or do you see State-to-State that 
have interfered with the process? Is there anything that you 
see that could be improved in terms of working together? You 
mentioned you want to have a cooperative effort, but are there 
barriers that you see that have prevented that right now?
    Mr. Morrison. Mr. Chairman, Congressman Osborne, no, sir. 
Right now, there is a very good effort going on between the 
States, including Wisconsin just recently joined us. The basic 
only barrier I see is State-driven agency budgets for travel to 
meetings and to conferences to learn about the disease, et 
cetera, which could be addressed through the Federal program at 
times. But as far as the entities working together, it is one 
of the best cooperative efforts I have seen in my 30 years of 
experience in wildlife management.
    Mr. Osborne. One last question. We have talked about 
eradication and we have also talked about thinning and I am not 
real clear. Wherever the disease is found, is the only solution 
that you see just total eradication, or by thinning the 
population, do you tend to inhibit the disease or lessen its 
spread? I guess anybody who has expertise, I would invite an 
answer.
    Mr. Morrison. They are looking at me, so I guess I have to 
try. The effort in Nebraska, anyway, is--we say eradication. It 
is virtually impossible to eradicate a wild deer herd in my 
mind. Our plans are to continue thinning that deer herd down to 
a point where we do not find CWD in the testing anymore and 
leave it at that low level for a period of years, perhaps 5 
years, and if we do not find CWD for that time, then let it 
buildup.
    That is the only method we know of right now to remove CWD 
from the area, is remove the deer. There is no known treatment 
or anything else.
    Mr. Osborne. Thank you.
    Mr. McInnis. Mr. Barrett?

  STATEMENT OF HON. TOM BARRETT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Barrett. Thank you, Mr. Chairman. First, I want to 
thank you for holding this hearing and for your forceful 
comments at the beginning of the hearing about the need to have 
the Federal agencies coordinate their efforts and respond to 
this very serious problem as quickly as possible.
    In my 10 years in Congress, I cannot remember another 
hearing where a majority of the members of the Wisconsin 
delegation have attended the hearing, not to mention the 
Governor of the State of Wisconsin and two secretaries from 
Wisconsin. That will show you the importance of this issue to 
the State of Wisconsin, and the reason for that is quite 
simple.
    Deer hunting is an integral part of the history, of the 
culture, of the economy of the State of Wisconsin and the 
threat to the deer population in the State is a threat to the 
State itself. Similarly, I think the fact that we have half of 
the delegation from Colorado here and a third of the delegation 
from Nebraska here shows that other States also consider this 
to be a very, very serious problem that demands a quick 
response.
    What I am most concerned about today is the lack of 
response that we have gotten from the U.S. Department of 
Agriculture. On March 20, all nine members of the Wisconsin 
delegation wrote to the Secretary of Agriculture and asked her 
to immediately release $4 million of emergency funds to the 
State of Wisconsin so that we can respond to this crisis. It is 
now May 16. There is still no written response.
    My understanding is that the Secretary's office contacted 
Congressman Kind's office last night about 5 to inform him that 
the money would not be forthcoming because the Department wants 
to take a national approach to this rather than, apparently, a 
State-by-State approach. I have to remind the Department of 
Agriculture that Colorado, Wisconsin, Wyoming, Nebraska are all 
part of the United States, and to the extent that this is a 
problem in these States, this is a national problem.
    The implication is somehow if we want the money to go to 
the States, that it is pork barrel spending and for that 
reason, the money will not be forthcoming. I can tell you at 
least what I will do and what I believe the other members of 
the delegation from the State of Wisconsin will do. We will 
continue to fight for this funding. If we cannot get it 
directly from the Department of Agriculture, we will try to get 
it through legislative channels.
    Ironically, we will do this at a time when the White House 
is complaining about the add-ons that are coming from Congress, 
that somehow we should not, as Representatives to Congress, be 
adding on additional spending beyond what the White House is 
doing, and if we do so, that it is pork barrel spending.
    In my mind, this is not a fight over pork. This is a fight 
over venison and we will do everything we can to make sure that 
we get the funds in the State of Wisconsin to have the testing, 
to have the assistance that is necessary for us to eradicate 
this disease.
    It is an issue that I think the Governor takes very 
seriously, and I thank you for your leadership at the State 
level. I think that the State now clearly recognizes that there 
is a problem and has been acting quickly. I am troubled by the 
reports that Mr. Inslee referred to, but this is not the time 
for that discussion. The time now is for us to act together, to 
act on a bipartisan basis, which is being done in the State of 
Wisconsin, but equally important, the Federal Government has to 
recognize that it is a partner in this fight.
    I want to quickly just read from a statement that was made 
by Scott Craven of the University of Wisconsin-Madison when he 
told USA Today, ``If we do not seize this chance and CWD 
spreads in Wisconsin, decimates the deer herds, or spreads to 
adjoining States, I believe in five, ten, or 20 years, history 
will not judge us kindly.''
    The Federal Government must be a strong partner in 
Wisconsin's effort to combat Chronic Wasting Disease. That is 
why I thank you all for being here today. Again, I thank you, 
Mr. Chairman, for your leadership on this, but I want the 
Federal Government to be a partner in this and it has to happen 
quickly.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    [The prepared statement of Mr. Barrett follows:]

 Statement of Hon. Tom Barrett, a Representative in Congress from the 
                           State of Wisconsin

    Thank you, Chairman Gilchrest and Chairman McInnis, Congressman 
Underwood and Congressman Inslee. I appreciate your having scheduled 
today's hearing, and I appreciate the opportunity to share with the 
Subcommittees the very grave concerns of Wisconsin hunters and 
conservationists.
    I will not reiterate for you the chilling clinical dangers of 
Chronic Wasting Disease (CWD). You have invited gifted expert witnesses 
who can more than adequately address those important issues.
    Instead, let me emphasize how important this issue is for the 
people of the State of Wisconsin.
    As you know, CWD has been found for years in the deer herds of 
Colorado, Wyoming, and Nebraska. But because those states have 
relatively sparse herds, with typical population densities of 2 to 5 
deer per square mile, the contagion posed a limited threat to the whole 
herd.
    But as the U.S. Geological Survey has reported, it was the 
detection of CWD in the wild white-tailed deer herds of Wisconsin that 
brought concerns over the disease to a crisis level. This is because, 
unlike western states, Wisconsin's two-million-plus deer herd populates 
some parts of our state at densities conservatively estimated at over 
75 animals per square mile. No one knows how rapidly CWD will spread 
among deer at these densities or what long term effect the disease will 
have on a herd that big.
    Recent news reports have highlighted the very troublesome 
possibility that, though State of Wisconsin officials were aware of the 
danger posed by infected herds in Western states, they did nothing to 
restrict importation of potentially infected deer into Wisconsin or to 
limit the interaction of game farm animals and wild deer. This 
important concern certainly warrants investigation.
    What is most important, however, is that Wisconsin officials are 
now taking this very serious threat very seriously. In an unprecedented 
step, the Wisconsin Department of Natural Resources has asked private 
landowners to hunt over 15,000 deer in a 287-square-mile eradication 
zone around the outbreak's epicenter, near Mount Horeb in southern 
Wisconsin. State wildlife officials are also planning to dramatically 
extend the fall deer hunting season. A hunt that traditionally runs 
nine days will run from October through January, in an effort to 
eliminate all deer in the area.
    At the request of concerned state legislators, Governor McCallum 
has called a special legislative session on CWD. The legislature is 
considering an agreement that would direct $4 million in emergency 
state funding for the fight against the disease.
    But the state desperately needs help from the Federal Government to 
meet the challenge. According to published estimates, Wisconsin 
officials will need at least $22.5 million over the next three years to 
finance the emergency plan.
    Wisconsin's entire Congressional delegation joined together in 
March, asking Agriculture Secretary Ann Veneman to release $4 million 
in emergency Commodity Credit Corporation funding to help Wisconsin 
officials respond to the immediate crisis. Wisconsin's delegation has 
also spoken with one voice in support of the Bush Administration's 
request for $7.233 million in CWD funding for 2003. Since our initial 
request, I have learned that internal USDA estimates now suggest that 
2003 funding of no less than $15 million will be required to respond to 
CWD.
    We acted quickly and decisively because the stakes are tremendously 
high in Wisconsin, in both personal and economic terms. Deer hunting 
has always been a defining aspect of the state's culture and sporting 
heritage. It has been and remains a way for parents and children share 
a family tradition, and an estimated 700,000 hunters share that 
tradition in Wisconsin every year. And deer hunting is also critical to 
Wisconsin's economy. According to published reports, each year's hunt 
also brings an estimated $233 million in retail sales revenue to our 
state and, in total, contributes more than $1 billion to Wisconsin's 
economy.
    I am very disappointed that Secretary Veneman has not yet responded 
to the united call of Wisconsin's Congressional delegation for Federal 
emergency assistance on this critical issue. I wrote to her yesterday, 
reiterating our request and asking that she consider taking several 
additional steps to bolster the Federal response to this crisis. I am 
hopeful that she will see that Wisconsin cannot afford further delay.
    My colleagues, the threat in Wisconsin is very real and very 
pressing. As Scott Craven of the University of Wisconsin-Madison told 
USA Today, ``If we don't seize this chance and CWD spreads in 
Wisconsin, decimates the deer herd or spreads to adjoining states, I 
believe in five, 10 or 20 years, history will not judge us kindly.'' 
The Federal Government must be a strong partner in Wisconsin's effort 
to combat Chronic Wasting Disease. I ask that the House Resources 
Committee act quickly to express its strong support for the funding 
requests submitted by Wisconsin's Congressional delegation.
                                 ______
                                 
    Mr. McInnis. Thank you.
    Mr. Green?
    Mr. Green. Thank you, Mr. Chairman. I also thank you for 
holding the hearing today and for the legislation that you are 
putting together. I think it will make the Federal Government a 
partner, as my colleague, Mr. Barrett, just referred to. I 
think that is the critical part of the answer.
    Obviously from the hearing today, we are dealing with a 
challenge that has so many facets to it. We have had academic 
discussions. We have had discussions about long-term research, 
and I think those are all important. You could have a series of 
hearings on Chronic Wasting Disease and I think we would find 
something new each time.
    But I think in terms of my constituents who we are going to 
be going out hunting, thousands of them this fall, they want to 
know something very simple. They want to know that the deer 
that they shoot, that the deer that they kill is safe. That is 
the question that they want answered.
    I commend Governor McCallum. Governor, you have been 
Governor for just over a year and you have moved quickly on 
what is a difficult challenge. Could you reiterate for us, for 
me, how you plan on helping to meet that problem of the testing 
capacity, which I think for our constituents, yours and mine, 
will be the crucial question that they ask.
    Governor McCallum. Congressman, thank you for the question. 
You are correct, it is the crucial question, because those of 
us that are hunters, it is the first thing that comes to our 
mind. I think there is a tendency for us to think of it in 
terms of what we would do to personalize it.
    That is why one of the requests I have had of the Federal 
Government is the certification for the fast test process. I 
would like to see in the State not only the State lab for 
testing, but I would like to see the private sector set up so 
that individual hunters can take their venison in for the quick 
test. And again, this quick test that we are looking for 
certification for is much like--I would use the analogy like 
the pregnancy testing. It is not as reliable. It is less 
expensive, much quicker. It is not within 24 hours that you 
need to get the brain and send it off for the testing and wait 
several weeks. It can be done much faster.
    So having that certification take place would allow us to 
move more rapidly with the private sector and with that type of 
testing set up around the State. I would like to see that in 
place by hunting season.
    Mr. Green. Governor, I am sure I speak for the whole 
delegation. Anything we can do to help you in that process of 
getting certification, we stand ready to do. Thank you, 
Governor.
    A question for Mr. George. You talked about various aspects 
of the challenge and Colorado's response. Let me ask you about 
carcass disposal, because that is an issue that I am also 
concerned about. We hear lots of discussion about what the 
right approach is, whether it is landfill, whether it is 
incineration. I know there are some new technologies. What has 
Colorado's approach been and what have been the results? What 
has been the experience?
    Mr. George. Thank you, Congressman. The preferred method of 
disposal for infected carcasses is either incineration or 
chemical digestion. I do not think anyone wants to bury 
infected carcasses anywhere in the ground.
    Now, many landfills in Colorado are designed to meet the 
health requirements that would be sufficient for containing 
within the depository any infected animal, and so far, there 
are no regulations that prevent it. But we think that the 
better judgment is not to put infected carcasses into 
landfills.
    But bear in mind, in all of these instances, we are 
talking--in the Western Slope incident, we had 99 out of 100 
not infected animals, healthy animals killed. Of course, you 
have to kill the healthy along with the infected. There is no 
other way to do it. So the question for that local community 
was not whether they were concerned about putting 99 out of 100 
healthy carcasses in their landfill, but they are designed to 
only take a few a day in order to cover it that night. So it 
was a matter of quantity, not necessarily health concerns.
    But we intend to incinerate anything that is infected. We 
do not have such an incinerator. The Colorado Department of 
Agriculture recently acquired one. It is somewhat low volume, 
needs a hole to be dug for it. It is just unwieldy. But we 
intend to have available with the expenditure of resources 
sufficient incineration capability that that is how we 
recommend disposing of these animals.
    Mr. Green. I see I am out of time, Mr. Chairman. Thank you.
    Mr. McInnis. Thank you, Mr. Green.
    Mr. Udall?
    Mr. Udall of Colorado. Thank you, Mr. Chairman. I wanted to 
thank you for holding this important hearing today. It has been 
very, very helpful to me, as I think it has been to my 
colleagues.
    I wanted to direct a question initially to Dr. Miller. My 
colleague, Mr. Tancredo, talked a little bit about, in effect, 
natural genetic selection possibly being at play. You are going 
to hear some testimony later, I think, or at least it will be 
included in the record, from Dr. Southwick, who is a professor 
at the University of Colorado, suggesting that some of the 
herds west of Boulder, which is an area in my district, appear 
to have low transmission rates and that perhaps one of the 
dangers we face in eradicating whole herds is that we may be 
eliminating those deer who could be not susceptible to this 
transmission of this disease.
    Could you just speak to that concern?
    Dr. Miller. Certainly, Congressman. To date, the work that 
has been done, both with live animals and also looking at 
genetic evidence of resistance in deer, in particular, has 
failed to demonstrate any resistance. Now, that is not to say 
that on occasion, an animal somehow makes it through a life in 
our research facilities, the research facilities in Wyoming, 
without becoming infected. But the number of animals that go 
that route are few and very far between.
    Right now, in the absence of some way to assure that that 
process is going to occur and occur in a timely fashion, kind 
of waiting around for nature to help us out on this seems ill 
advised. Certainly, if we had a mechanism for identifying a 
genetic strain of deer that were resistant to wasting disease 
or some way of promoting resistance in deer, I can assure you, 
everybody sitting at this table would be happy to take 
advantage of that and apply that as part of their management 
strategies.
    But right now, we are very limited with the tools that we 
have available, and in terms of trying to contain the disease, 
we are doing the best we can with the tools that we have. The 
fact that there have been relatively few cases in Boulder 
County may be less a function of those animals being resistant 
to disease. It is just the fact that the disease has not been 
there very long. Geographically, that is what it would suggest. 
So the fact that infection rates are really low--a few years 
ago, in our research facility, the infection rates were very 
low, as well, and now they are in excess of 90 percent again.
    Mr. Udall of Colorado. Of course, people in Colorado think 
there are unusual people in Boulder County, so maybe there are 
unusual deer in Boulder County, as well.
    [Laughter.]
    Mr. Udall of Colorado. It is really a pleasure to see my 
old colleague, Russ George, here. Those of you who do not know 
him should know that he served as the Speaker of our State 
House and with great distinction. It is great to see you here, 
Director George.
    Mr. George. Thank you, Congressman.
    Mr. Udall of Colorado. I know we worked together on the 
Natural Resources and Livestock Committee. We spent a lot of 
time on the three Ws--weeds, whirling disease, and wasting 
disease, and we also spent a lot of time talking about the 
appropriate State and Federal and local roles when it came to 
governance.
    I want to associate myself with Mr. Barrett's comments 
about the need for the Federal Government to step up quickly 
and go to work, but I also wanted to ask you, what should the 
Federal Government not do? Where would the Federal Government 
make this a greater problem or where would it get in the way of 
what the States are doing?
    Mr. George. Thank you, Mr. Udall. We need to be equal 
partners and not have a question of Federal primacy arise in 
the discussion. The Federal Government should be involved 
whenever we have an issue of national concern, but there is not 
any reason in this instance for the Federal Government to be 
more than a partner providing resource coordination, guidance, 
assistance.
    Wildlife are local. Wildlife are traditionally managed at 
the State level, and there is no reason to change that even 
though we have this new challenge. So I would ask that whatever 
we do at the Federal level, in the first instance, recognize 
the role of the States as the primary wildlife manager, and I 
think the same would be true for the domestic captive wildlife 
industry, as well. It is also localized, and State departments 
of agriculture ought to have the lead in all of that.
    But we are all in this together, Mr. Udall, and I think 
that is the point of your question and the response I want to 
make. There is no reason for competition among any of us, 
whether it is Federal versus State or whether it is agency 
versus agency. In order to accomplish our necessary goals here, 
we all need to row together from the moment we start, and that 
is what I would hope will happen here.
    Mr. Udall of Colorado. Mr. Chairman, thank you again for 
holding the hearing and I look forward to working with you. 
This is a very important issue for the State of Colorado and 
all the other States that are involved. Thank you.
    Mr. McInnis. Thank you, Mr. Udall. That concludes the 
questioning by the Committee. I want to thank all the members 
of the panel. This is very informative. I would also ask for 
the courtesy of you responding to any additional written 
questions or inquiry by Members of Congress or their staff. So 
thank you very much. We appreciate it.
    Mr. George. Thank you, Mr. Chairman and Committee.
    Mr. McInnis. The Committee is going to stand in recess just 
for 5 minutes to allow the second and third panels to take 
their seats. Those are the two panels that we will combine. So 
if Mr. Groat, Mr. Butler, Mr. Zebarth, Mr. Wolfe, and Mr. 
Pacelle would come forward.
    [Recess.]
    Mr. McInnis. The Committee will come back to order.
    I welcome the second and third panel. Again, obviously, a 
couple of our panel members are members of Federal agencies. I 
would hope, and I am confident that the agencies have gotten 
the message, one, about the primacy, two, about the urgency of 
the matter, and I would hope that the panel members can take 
time to address that, as well as I am sure they heard my 
introductory remarks about the necessity of some type of plan 
of action be drawn as to what the coordination of the Federal 
agencies should look like.
    So with that in mind, why do we not start with the 
Department of Interior. Mr. Groat, thank you for coming today. 
I appreciate your time. You may proceed.

    STATEMENT OF CHARLES G. ``CHIP'' GROAT, DIRECTOR, U.S. 
GEOLOGICAL SURVEY, U.S. DEPARTMENT OF THE INTERIOR; ACCOMPANIED 
BY RANDY BOWMAN, SPECIAL ASSISTANT TO THE ASSISTANT SECRETARY, 
 FISH, WILDLIFE, AND PARKS; AND RANDY JONES, DEPUTY DIRECTOR, 
                     NATIONAL PARK SERVICE

    Mr. Groat. Thank you, Mr. Chairman. My name is Chip Groat. 
I am Director of the U.S. Geological Survey and I am pleased to 
have the opportunity to present the views and opinions of the 
Department of the Interior on this important topic.
    I think all of us heard your message very clearly and we 
heard several messages from members of the previous panel, 
first of all and foremost that the management of the 
populations affected by this disease are clearly a State 
responsibility, whether we are talking about farmed herds or 
free-ranging herds.
    Second, the importance of research--as you said, research, 
research, research--in clearing up the lack of understanding 
that we have, and this was demonstrated in the answers to many 
of the questions that were posed. We manage best if we 
understand, and there are so many areas of this critical 
disease that we do not understand that research is certainly a 
key part of dealing with those uncertainties.
    I think another part of the message that we heard that goes 
along with maximizing the research effort is the word very 
strongly that the Federal agencies who have different 
clienteles, in one sense, and in some sense different and 
overlapping capabilities coordinate very closely in making sure 
that our efforts are maximized and also that our ability to 
support the States in providing understandings and providing 
funding is put together very clearly.
    I think the characterization that was pointed out by Mr. 
Russell, that the Department of Agriculture and the Department 
of Interior have complementary capabilities in some sense and 
complementary interests in certain aspects of the research, yet 
work with the States through different avenues, through 
departments of agriculture, and in the case of the Department 
of the Interior, through the State fish and wildlife agencies, 
in cooperation with the International Association of Fish and 
Wildlife Agencies, just points out that we do have to make use 
of all of these avenues in a coordinated fashion in supporting 
the States' efforts.
    Dr. Miller's point that many universities are involved in 
the research effort already, that there are some funding paths 
available for them, but that more funding is needed for both 
their work, and in our case and Agriculture's work, for our own 
in-house researchers to deal with this is a critical point, 
too.
    So the coordination message, Mr. Chairman, is very clear 
from a Federal agency point of view and we would like to 
emulate the States and their abilities that they have 
demonstrated to work together.
    The States' primary responsibility for management of this 
is an important place to start. The only aspect different from 
that that the Department of the Interior would bring is that 
the Department of Interior has responsibility for managing one 
of every five acres of country in the United States, and so we 
do have some in-house interest and responsibility in our parks, 
our wildlife refuges, for wildlife, free-ranging wildlife herds 
on those properties and that even there, that is not a uniquely 
Federal responsibility, that in many cases these 
responsibilities work in concert with States and State 
interests.
    The fact that free-ranging wildlife do not recognize 
political boundaries includes State/Federal boundaries and, 
therefore, the need to coordinate closely with the States in 
this regard is extremely important.
    In describing the research capabilities, the USGS Wildlife 
Health Center in Madison, Wisconsin, is the only Federal 
research facility specializing in wildlife disease and is 
uniquely positioned to work in the field with fish and wildlife 
agencies in dealing with that, as well as the Federal Land 
Management Agency. Through the USGS Madison Center, we have 
cooperative activities with the States and other Federal 
agencies in relation to other diseases, such as the West Nile 
virus, the Newcastle disease, avian cholera, botulism, and 
others.
    We recognize the critical importance of understanding the 
causes, the pathways, the mechanisms of transmission of these 
diseases and we recognize that those pathways and transmissions 
in wildlife populations that are free-ranging may have 
different dynamics than those that are in wildlife populations 
that are farmed. Therefore, the critical importance of 
understanding both domains, and where we can contribute 
uniquely to the understanding of free-ranging populations and 
their behaviors in cooperation with our State partners, we are 
willing to work closely with Agriculture in their efforts to 
deal with their aspects of it.
    We also recognize that information, as many members have 
pointed out in their questions, to the public and to each other 
is a critical part of dealing with this issue. Our 
understandings from a scientific point of view, from a 
management point of view, from the impacts on wildlife on 
domestic livestock and on people, and what we do and do not 
know must be understood, must be communicated effectively with 
the public and with our partners, both the State and the 
Federal level. So we are looking forward very much to working 
with the Department of Agriculture and with our State partners 
in developing an integrated information system that allows us 
to understand the extent, the transmission, and what we do and 
do not know about this disease so we can inform each other and 
the public about this.
    I think you will be pleased to know, and I am sure Dr. 
Butler will reinforce this, that we heard your message and we 
anticipated your message and that the Department of Agriculture 
and the Department of the Interior have already agreed to form 
a working group to coordinate this. In fact, the first meeting 
of that group will take place within the next few days. It is 
both at the highest level of management and it is at the 
highest level of science, so we are encouraged that we are not 
having any trouble at all getting together on this issue.
    I want to point out that, so far, on the lands managed by 
the Federal Government, the only occurrences that have been 
demonstrated at this point is on one particular reserve of the 
National Park Service, which was mentioned before, and the fact 
that the Park Service has responded to this and--excuse me, the 
Rocky Mountain National Park is the only unit that has been 
affected and that the National Park Service is providing 
funding itself for three projects related to Chronic Wasting 
Disease and is taking an active role, both on its own lands and 
in supporting the research effort.
    So far, there are no known cases of Chronic Wasting Disease 
on National Wildlife Refuges lands. Regardless of that, the 
Fish and Wildlife Service is critically interested in using its 
relationships with State wildlife agencies as manifested, in 
cooperation with the International Association of Fish and 
Wildlife Agencies, to be a conduit for trading and dealing with 
management information related to those herds, which they have 
understandings of and which the States are responsible for. So 
in that sense, that part of the Department of the Interior will 
play a critical role in assisting the States with information 
and capabilities as they have in the past.
    Let me conclude by saying our stewardship and our 
cooperative relationship with the States dictate that we step 
forward to address this problem. We understand our 
responsibilities in terms of research and in terms of 
collaboration with the State managers of these wildlife 
populations and look forward to working as a Federal family, as 
well as with our States and universities, in dealing with this 
enormously important, critical disease. Thank you.
    Mr. McInnis. Thank you, Mr. Groat. I would be interested in 
the question and answer portion what the Rocky Mountain 
National Park's response is going to be if, in fact, you find a 
wasting disease animal. Are they going to allow eradication?
    Mr. Groat. I have Mr. Randy Jones, Assistant Director of 
the National Park Service with us. If you want him to answer 
now or during the question period, I am sure he would be happy 
to do that.
    Mr. McInnis. Yes, real quickly. I would be interested. Can 
you give me a response to that?
    Mr. Jones. Yes, sir. For at least the last 6 years, at 
Rocky Mountain National Park we have had a standing policy that 
any animal that exhibits the symptoms of Chronic Wasting 
Disease, that animal is taken, it is turned over to Colorado 
State University for necropsy, and the State is informed. It 
has resulted in a handful of animals taken and we have been 
cooperating with the State and a variety of research programs 
going on in the park.
    Mr. McInnis. Thank you. Thank you, Mr. Groat.
    [The prepared statement of Mr. Groat follows:]

   Statement of Charles G. Groat, Director, U.S. Geological Survey, 
                       Department of the Interior

    Mr. Chairmen and Members of the Subcommittees, thank you for this 
opportunity to provide the Department of the Interior's (Department) 
views regarding the emerging issue of Chronic Wasting Disease (CWD) in 
deer and elk. The Department is very concerned about the potential 
effects this disease could have on captive and free-roaming deer and 
elk and on the economies of affected areas of our country. The 
Administration believes that meaningful cooperation and coordination 
with the states is vital to addressing this matter.
    In addition, the Administration believes that it is critical for 
the Federal agencies involved to work in concert on this important 
issue. It is important that we work together to protect wildlife 
resources and maintain healthy wild populations of these animals. The 
Department has the skills and expertise to assist the states in the 
conduct of research to detect and characterize this unusual disease, to 
provide research and monitoring facilities, and to assist in other 
appropriate ways. Only through coordination, communication, and 
cooperation within the Federal family, with the states, and with 
stakeholders will we succeed in managing this issue.
    CWD is a disease known to be found in mule deer, elk, and white-
tailed deer. CWD is fatal to both deer and elk. The disease's cause, 
transmission route, and treatment methodologies are unknown, although 
associated with altered protein structures (called prions) in the 
lymphatic system and brain. The recent detection of CWD in wild white-
tailed deer in Wisconsin, the first known occurrence east of the 
Mississippi, increases the urgency in investigating and controlling 
this disease. Chronic Wasting Disease is not known to occur in humans 
or domestic cattle or sheep.
    The Department recognizes that states have primary responsibility 
for management of cervids and other resident species within their 
borders, including mule deer, elk, and white-tailed deer. With 
particular reference to hunting and harvesting, for instance, states 
set deer and elk hunting regulations--length of season, harvest 
methods, and limits--and have established wildlife management programs, 
generally housed within state fish and game or natural resource 
agencies.
    The Department manages roughly one in every five acres of land in 
the United States and has stewardship responsibilities for natural 
resources on these lands. Through the National Park Service, Fish and 
Wildlife Service, Bureau of Land Management, and Bureau of Indian 
Affairs, the Department provides assistance to, cooperates with and, in 
some cases, co-manages with states to ensure healthy, viable wildlife 
populations. Free-roaming wildlife do not recognize jurisdictional 
boundaries. The Department shares thousands of miles of coterminous 
boundaries with state, private, and other Federal lands. To 
successfully combat this disease we must employ an approach in the wild 
and in captive herds that respects the varied roles of Federal and 
state agencies, as well as affected landowners, while also bringing the 
strengths of each respective entity to bear on the challenge we face.
    Populations of deer and elk in a number of states and Canada have 
tested positive for CWD. Many states, like Colorado and Wisconsin, are 
in urgent need of basic information about CWD transmission and methods 
for control and prevention.
    The U.S. Geological Survey (USGS) is the principal science and 
research agency for the Department. The USGS National Wildlife Health 
Center (the Madison Center) is the only Federal research facility 
specializing in wildlife disease research and is uniquely positioned to 
work with state fish and wildlife agencies, as well as Federal land 
management agencies. Since 1975, the Center has provided research, 
training, and technical assistance to states and other Federal agencies 
related to the diagnosis, prevention, and management of wildlife 
diseases in naturally occurring populations. Through the Madison 
Center, the USGS has coordinated activities with states and other 
Federal agencies on critical disease outbreaks such as West Nile Virus, 
Newcastle disease, avian cholera, botulism, and others.
    The Department stands ready to assist with research, monitoring, 
information, and technical assistance roles in combating this disease 
in free-ranging deer and elk with our state partners. As more states 
detect CWD in their wild herds, they will need reliable information in 
a timely manner. As research reveals more clues about the disease, that 
information needs to be available rapidly to benefit state and Federal 
efforts in controlling the disease. The Department can and does 
develop, utilize and share research knowledge and assist nationally in 
monitoring and surveillance programs to help ensure that the most 
appropriate response strategies are shared among wildlife managers in 
state and Federal agencies. The Department, through the National 
Wildlife Health Center, can establish a forum for technical 
information, including issues such as depopulating procedures, non-
lethal testing procedures, disposal of infected carcasses, and worker 
safety.
    The Department and the Department of Agriculture have agreed to 
form a Joint Federal CWD Working Group. The Working Group's mission 
will be to assist the states in a cooperative and coordinated manner. 
Leadership will be comprised of one person each from the Departments of 
Interior and Agriculture and key officials from each bureau or agency 
within those two Departments.
    Currently, the Department is working with Colorado, Wisconsin, and 
other state fish and wildlife agencies in developing cooperative and 
synergistic research and control programs that are urgently needed for 
Chronic Wasting Disease. For instance, although a new diagnostic 
technique using tonsil tissue instead of brain tissue has been 
developed for live deer, this technique is not applicable to elk. 
Currently, this technique is best suited to captive animals. The 
Department proposes to participate with the state wildlife agencies to 
assist in a national program for the detection and management of CWD in 
wild herds of deer and elk.
    The Department's land management bureaus can contribute to the 
application of science in the cooperative management of Federal lands 
under their control. The National Park Service, which manages more than 
84 million acres contained in 385 park units, is extremely concerned 
about CWD and the potential impacts this disease could have upon the 
wildlife resources of the parks and adjacent lands and the ability of 
park visitors to view wildlife. To date, Rocky Mountain National Park 
is the only unit of the National Park System that is known to have elk 
and deer infected with the disease. However, Wind Cave National Park in 
South Dakota, and Agate Fossil Beds and Scotts Bluff National Monuments 
in Nebraska are at high risk of infection because the disease was 
recently detected in nearby wild deer and elk or in nearby facilities 
for captive rearing deer and elk.
    Chronic Wasting Disease, which is not endemic to Rocky Mountain 
National Park, was first discovered in the park in 1981. The prevalence 
of infection for deer, based on samples taken in the park is about 5-
6%, the same for animals outside the park. The prevalence of the 
disease in elk, less than 1%, is believed to be the same for elk 
outside the park. For the past seven years, both the Colorado Division 
of Wildlife (CDOW) and the National Park Service have been 
collaborating on research projects, conducting surveillance of deer and 
elk movements, cooperating on capturing deer to obtain tonsillar 
biopsies for CWD testing, removing infected animals, and developing 
joint strategies for management of the disease. Recently the CDOW was 
asked to work with the park as a cooperator developing a Chronic 
Wasting Disease Management Plan and environmental impact statement for 
the Rocky Mountain National Park area. Federal and state funds will be 
used to support this effort.
    This week, the National Park Service has approved for funding three 
projects related to CWD in two national parks. Two projects will be 
conducted in Rocky Mountain National Park. One of those projects will 
develop a management plan, and the other will implement interim 
management actions. In Wind Cave National Park, a study is planned to 
detect the occurrence and transmission of the disease in deer within 
and near the park. Animals will be monitored for movement patterns, 
including dispersal and migration, and other factors relevant to CWD.
    To date, there are no known cases of CWD on National Wildlife 
Refuge lands. Regardless, the U.S. Fish and Wildlife Service and the 
CDOW recently agreed to jointly address CWD if, and when, it occurs on 
National Wildlife Refuge lands. This will include survey, testing, and 
active management, including any necessary efforts to depopulate 
infected herds.
    The Department's stewardship role and cooperative relationship with 
states dictate that it step forward to help address this problem. 
Without coordination of information collected by Federal and state 
agencies, information provided by new research, and the means to 
rapidly disseminate that information to state agencies and Federal land 
managers, this disease could further impact wild deer and elk 
populations and have an impact on local economies.
    Mr. Chairmen, this concludes my written statement and I will be 
pleased to respond to any questions you might have.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 79658.010
                                 
    [The response to questions submitted for the record by the 
U.S. Geological Survey follows:]
 U.S. GEOLOGICAL SURVEY ANSWERS TO SUPPLEMENTAL QUESTIONS FROM MAY 16 
              OVERSIGHT HEARING ON CHRONIC WASTING DISEASE
Questions from the Minority:
1. Some researchers speculate that CWD stems from deer used in a 
        nutritional study at the Fort Collins research stations where 
        CWD was first detected in 1967. Some believe they were fed 
        sheep with scrapie or lived on scrapie-contaminated ground. 
        What is your reaction to this theory? Is there any way to prove 
        this?
    Several hypotheses exist as to the origin of Chronic Wasting 
Disease (CWD), which include (1) spontaneous alteration of a protein 
(prion) and subsequent transmission to susceptible deer and elk; (2) a 
strain of scrapie that adapted to cervids; or (3) disease from an 
unknown prion strain. There is little scientific evidence that supports 
any of these hypotheses. Links to scrapie involve potential exposure of 
experimental deer and elk to scrapie contaminated facilities. There is 
no documentation that suggests that deer and elk were fed diets 
containing sheep products, only suppositions. Other speculation 
includes the possibility that the animals were diseased when they 
arrived at the experimental facility; that the experimental animals had 
contact with free-ranging animals while at the facility; or that there 
was contact with other captive animals (both wild and domestic), 
possibly shipped from outside the immediate area, harboring the 
disease. Alternatively, models by the Colorado Division of Wildlife 
suggest that the epicenter of the outbreak is well north of Fort 
Collins and the research pens in question. The origin of CWD will 
likely never be determined. Research on transmission pathways may 
provide some evidence regarding the disease's origin and is also 
urgently needed to help us understand the potential risks.
2. Does it make sense for the Federal government to cost share with the 
        States on research? What is an appropriate cost share?
    An Interagency Task Force on CWD is preparing a plan to implement 
the actions described in the June 26, 2002, report titled ``Plan for 
Assisting States, Federal Agencies, and Tribes in Managing Chronic 
Wasting Disease in Wild and Captive Cervids.'' The Implementation Plan 
will address possible cost-share options. A number of Federal agencies 
in the U.S. Department of the Interior (DOI) and the U.S. Department of 
Agriculture (USDA) have responsibilities for issues presented by CWD. 
In a few cases, these agencies have management or regulatory authority, 
such as in management of certain public lands or livestock disease 
control issues. However, since this is primarily a state 
responsibility, it is expected that the Federal role, working in 
cooperation with the States and Tribes, will be to conduct and support 
research, conduct surveillance where appropriate (e.g., on Federal 
lands), and provide technical assistance, communication, and education 
programs. Under these circumstances, a cost share arrangement may prove 
to be most effective, but the Task Force has not yet addressed this 
question.
3. Is the slaughter of animals or ``depopulation'' necessary? Is it a 
        proven effective strategy?
    There have been few well-studied efforts to control a disease of 
this magnitude in populations of free-ranging large mammals in the 
United States and, therefore, there is not a proven effective strategy 
for controlling disease in free-ranging deer and elk populations. 
Several management strategies for controlling CWD have been suggested 
(e.g., targeted removal, testing and culling, depopulation in focused 
areas, etc.), however, at the present time none of these methods have 
been scientifically evaluated in order to predict which management 
strategies are likely to be successful.
4. What progress is being made on urine or fecal tests for CWD? How 
        soon will we have better capabilities for live tests?
    At present, the focus of nearly all of the testing development for 
CWD is for animal tissues. There are several enzyme-linked 
immunosorbent assay (ELISA)-based plate assays under development of 
which none have been validated. There is a considerable effort, 
scheduled to begin this fall, that will attempt to validate at least 
some of these high throughput tests, but these efforts are dependent 
upon the availability of positive control tissues, which are in short 
supply. There is the report of a urine test, which has been developed 
overseas, for the detection of the causative agents for BSE (Mad Cow 
Disease) in humans and cattle. Other investigators are assessing the 
validity of this urine test in humans and cattle. However, no one knows 
if this test will work for CWD and this also would have to go through 
the same validation procedures as the ELISA-based tests.
    There is currently too little known about this disease to develop a 
test that can be conducted ``at the animal'' with instant results for 
either live or dead animals. In concept, a live animal test is very 
attractive. In terms of practicality, the use and further development 
of live animal tests will likely have the greatest and most immediate 
advantage to testing in captive wildlife settings (game farms) or for 
specific management applications, such as National Parks, where large-
scale depopulation is not an option. Under captive settings, animals 
can be captured and released into an enclosure where they cannot 
escape. These animals can be held for extended periods until test 
results are obtained, at which time positive animals can be more easily 
re-captured and killed. In most wild settings, the capturing and re-
capturing of live animals is resource intensive and dangerous to both 
animals and personnel. Without a rapid field test, captured animals 
would have to be released, tagged or radio collared, and culled when 
test results confirm infection (cost estimates for this process run 
between $400 and $600 per animal, depending on the method of capture 
used).
5. Some States, such as Nebraska, seek funding for double fencing at 
        game farms. Is double fencing an effective tool in CWD 
        management?
    In theory, double fencing should be an effective way to prevent 
direct contact between wild and captive cervids, provided that the 
separation is complete and no other means of transmission across this 
barrier exists. However, because the transmission routes for CWD are 
not known, we cannot guarantee that this method will prevent 
transmission. Moreover, this method will not address the issue of 
translocation (intra or interstate) of CWD infected captive or wild 
cervids. The continued improvement of certification protocols and 
testing methods, including a ban or moratorium on the shipment of deer 
and elk across State boundaries would provide other effective tools in 
CWD management.
6. Are tonsillar biopsies as accurate as brainstem tests in detecting 
        Chronic Wasting Disease infection? Can't biopsies detect 
        infection even earlier than the brain pathology?
    Biopsies or removal of lymphoid tissues (tonsils and some lymph 
nodes) are tested by the same test used on brain stem samples (obex). 
These tissues can be just as sensitive indicators of the disease as 
brain samples in deer (white-tailed and mule), but not in elk. This 
disease can be detected at earlier stages from lymphoid tissues (tonsil 
and some lymph nodes) than from brain in deer. Therefore, it is 
possible to have a positive tonsil test result with a negative brain 
test result early in the course of the disease. In captive deer, 
positive tonsillar biopsy was observed 2 to 20 months before CWD-
related death and up to 14 months before onset of clinical signs of 
CWD.
7. What do we know about the incubation, perpetuation and transmission 
        of the disease?
    Most of what is known about the incubation, perpetuation, and 
transmission of CWD has come from studies on captive deer and elk, and 
much more remains to be determined. The incubation period for CWD in 
deer and elk is estimated to be 18 to 24 months and may be longer. As 
testing methods improve, younger animals (as young as 6 months old) 
have been shown to be incubating the disease. The period of 
infectivity, that is, when an animal is shedding infective material, is 
not known, but may occur over an extended period, even when the animal 
appears healthy. CWD is transmitted from animal to animal and likely 
from contaminated environments to animals. Transmission likely occurs 
via excretions, secretions, and from decomposition of infected 
carcasses. Anecdotal accounts suggest that contaminated environments 
may remain a threat for infection of deer and elk for extended periods, 
potentially years. The smallest amount of infective material that is 
required to produce disease is not known. The effects of animal density 
on disease transmission are not fully understood, but areas of very 
high animal density (e.g., at feeding or baiting stations) present an 
increased opportunity for spread of the disease.
                                 ______
                                 
    Mr. McInnis. Mr. Butler?

STATEMENT OF JAMES G. BUTLER, DEPUTY UNDER SECRETARY, MARKETING 
     AND REGULATORY PROGRAMS, UNITED STATES DEPARTMENT OF 
    AGRICULTURE; ACCOMPANIED BY RON DEHAVEN, D.V.M., DEPUTY 
ADMINISTRATOR FOR VETERINARY SERVICES, ANIMAL AND PLANT HEALTH 
  INSPECTION SERVICE; CAIRD REXROAD, PH.D., ACTING ASSOCIATE 
ADMINISTRATOR, AGRICULTURAL RESEARCH SERVICE; AND PHIL SCHWAB, 
    PH.D., LEGISLATIVE DIRECTOR, COOPERATIVE STATE RESEARCH 
                EDUCATION AND EXTENSION SERVICE

    Mr. Butler. Thank you, Mr. Chairman. I have been present 
throughout the discussion this morning and certainly listened 
and learned from the topics. We plan to cooperate in every 
effort.
    I would like to submit my statement for the record and I 
will summarize comments from the Department of Agriculture.
    There are three agencies within USDA currently involved in 
studying CWD: first, the Animal and Plant Health Inspection 
Service, which has the authority to deal with livestock 
diseases and to manage wildlife damage; second, the 
Agricultural Research Service, which is currently conducting 
CWD research; and finally, the Cooperative State Research 
Education and Extension Service, which provides grants to 
universities to conduct research in specific areas of CWD.
    Surveillance for CWD has been a cooperative effort with 
State agriculture and wildlife agencies and USDA. Farmed cervid 
surveillance has been increasing since 1997 as an integral part 
of the USDA program to eliminate CWD from farmed elk, and to 
establish a certificate program for herds free of the disease. 
Since 1997, CWD has been diagnosed in 20 farmed elk herds in 
six States, Colorado, Kansas, Montana, Nebraska, Oklahoma, and 
South Dakota.
    In September 2001, Secretary Veneman signed a declaration 
of emergency for CWD, which allowed APHIS to seek Commodity 
Credit Corporation funds. Since September, APHIS has received a 
total of $14.8 million in CCC funds, which have been used for 
CWD indemnity payments, testing, disposal, and surveillance.
    The APHIS indemnity program is voluntary and producers who 
choose not to have an eligible herd depopulated are not 
required by APHIS to do so. Under this program, indemnity 
amounts are determined by an appraisal. USDA is paying up to 95 
percent of the fair market value for these depopulated animals 
up to $3,000 of the appraised value of each animal. 
Additionally, in April of 2002, USDA agreed to buy out and 
depopulate exposed farmed elk herds in the area of Colorado 
where free-ranging animals have tested positive for the 
disease. Elk owners who agree to indemnity are allowed to 
restock their land only with non-cervid ruminants, like cattle 
and sheep. We will consider requests from other States based on 
availability of funding.
    One thing that has been made clear by APHIS's work in the 
field, there is more need for research on this disease. ARS has 
been conducting numerous research projects regarding TSEs, 
among them, several important projects regarding Chronic 
Wasting Disease. CWD is more challenging than other BSE 
research because the disease affects mule deer, white-tailed 
deer, and elk with different pathogenic patterns. Diagnostic 
testing needs to be tailored for each of these species. Further 
control measures for captive farm-raised elk will optimally 
include a live animal test, while free-ranging deer would be 
tested by a deer-side screening of hunter-killed animals, which 
typically number in the tens of thousands over a short period 
in the fall.
    With this in mind, ARS has several ongoing projects, 
including live animal tests for elk, techniques for detection 
of CWD agents in soil and water, and the development of a test 
that can be used at check stations during hunting seasons. ARS 
is also working on the identification of a gene possibly 
associated with resistance to CWD in elk. The gene is rare in 
the wild population and CWD prevalence in elk is low. 
Therefore, an oral challenge trial is being determined--the 
susceptibility is underway.
    APHIS's National Wildlife Research Center in Fort Collins, 
Colorado, has been involved in research on CWD as well. NWRC is 
researching ways to identify barriers, repellents, and other 
methods to keep deer and cattle separated. This research is 
conducted to control bovine tuberculosis, which may have much 
of the same information apply to CWD.
    CSREES is also addressing CWD through its competitive 
research program. In Fiscal Year 2002, the national research 
initiative for animal and plant health specifically called for 
research on livestock-related wildlife interactions. Research 
proposals under this program are currently under peer review 
and awards will be made by late summer. In addition, CSREES is 
supporting a study through the critical issues program at the 
University of Wyoming, which is investigating the 
susceptibility of cattle to Chronic Wasting Disease. Finally, 
CSREES is administering a special grant program to Colorado 
State for the Center of Ecologically Important Infectious 
Animal Disease to study a variety of animal diseases, including 
CWD.
    USDA is committed to fighting this serious health threat. 
The President's Fiscal Year 2003 budget reflects its commitment 
by including an increase in funding for APHIS, ARS, and CSREES. 
The budget requests an increase of $7.2 million for a 
nationwide CWD elimination and surveillance activities, which 
would be directed primarily toward captive cervids, $8.6 
million for TSE research, $386,000 for targeted CWD, and $16.4 
million for basic research in the emerging agriculture disease 
initiative of the national research initiative.
    CWD is a disease that crosses State, county, and local 
boundaries and is present in both wild and farm populations. 
With this in mind, USDA has already met with our counterpart, 
as you have just heard, to coordinate a Federal response. The 
Department of Interior has agreed to form a joint CWD working 
group with USDA and the first meeting is scheduled for May 23. 
The purpose of this working group will be to assist the States 
in cooperation in a coordinated manner. ARS, CSREES, and U.S. 
Geological Survey are planning to sponsor a meeting in August 
to discuss CWD research priorities and to share information. 
ARS is also working with several universities, including 
Colorado State and the University of Washington, on CWD 
projects.
    In addition, APHIS continues to work with its counterparts 
at the State level. USDA recognizes and respects the 
jurisdiction of States and acknowledges States' wildlife 
agencies as the lead in CWD. When CWD was found in free-ranging 
populations, APHIS has assisted and will continue to assist 
affected States by providing laboratory and diagnostic testing, 
and supporting and assistance in CWD surveillance activities.
    APHIS has also provided support to Wisconsin and Colorado 
in harvesting deer and elk for further sampling after new finds 
in wildlife. APHIS's epidemiological team has worked with 
Wisconsin's State veterinarian to investigate the outbreak 
there.
    Mr. McInnis. Mr. Butler, we are going to have to wrap it up 
because I want to give everybody an opportunity.
    Mr. Butler. All right. Thank you.
    Mr. McInnis. That was good.
    [The prepared statement of Mr. Butler follows:]

  Statement of Dr. Jim Butler, Deputy Under Secretary, Marketing and 
          Regulatory Programs, U.S. Department of Agriculture

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to speak with you today about the U.S. Department of 
Agriculture's (USDA) efforts to research, monitor, and manage Chronic 
Wasting Disease (CWD) in deer and elk. CWD is a transmissible 
spongiform encephalopathy (TSE) found only in cervids (members of the 
deer family) in North America. First recognized as a clinical 
``wasting'' syndrome in 1967 in mule deer in a wildlife research 
facility in northern Colorado, it was identified as a TSE in 1978. CWD 
is typified by chronic weight loss leading to death. While there is no 
known relationship between CWD and any other TSE of animals or people, 
the Administration believes that meaningful cooperation and 
coordination with industry, states, and other Federal agencies is vital 
in further addressing this issue.
    There are three agencies within USDA currently involved in the 
study of CWD: first, the Animal and Plant Health Inspection Service 
(APHIS), which has the authority to deal with livestock diseases and to 
manage wildlife damage; second, the Agricultural Research Service 
(ARS), which is currently conducting CWD research; and finally, the 
Cooperative State Research, Education, and Extension Service (CSREES), 
which provides grants to universities to conduct research in areas such 
as CWD.
    Surveillance for CWD has also been a cooperative effort involving 
State agriculture and wildlife agencies and USDA. Farmed cervid 
surveillance has been increasing each year since 1997 and will be an 
integral part of the USDA program to eliminate CWD from farmed elk and 
the establishment of a certification program for herds free of the 
disease. Since 1997, CWD has been diagnosed in 20 farmed elk herds in 6 
States: Colorado, Kansas, Montana, Nebraska, Oklahoma, and South 
Dakota. In September of 2001, Secretary Veneman signed a declaration of 
emergency for CWD, which allowed APHIS to seek Commodity Credit 
Corporation (CCC) funds. Since September, APHIS has received a total of 
$14.8 million in CCC funds, which has been used for CWD indemnity 
payments and testing, disposal, and surveillance costs.
    The APHIS indemnity program is voluntary, and producers who choose 
not to have an eligible herd depopulated are not required by APHIS to 
do so. Under the program, indemnity amounts are determined by 
appraisal. At present, USDA is paying up to 95 percent of the fair 
market value for depopulated animals up to $3,000 of the appraised 
value of each animal. Additionally, in April 2002, USDA agreed to buy 
out and depopulate exposed farmed elk herds in the area of Colorado 
where free-ranging animals have tested positive for the disease. Elk 
owners who agreed to the indemnity are allowed to restock their land 
with only non-cervid ruminants like cattle, swine, and sheep. We will 
consider requests from other States based on the availability of 
funding.
    One thing has been made clear by APHIS' work in the field: there is 
a need for more research on this disease. ARS has been conducting 
numerous research projects regarding transmissible spongiform 
encephalopathies (TSE), among them several important projects regarding 
CWD. CWD is more challenging than other TSE research because the 
disease affects mule deer, white tailed deer, and elk with different 
pathogenic patterns. Diagnostic testing needs to be tailored for each 
species. Further, control measures for captive, farm-raised elk will 
optimally include a live animal test, while free-ranging deer would 
best be tested by ``deer side'' screening of hunter-killed animals, 
which typically number in the tens or hundreds of thousands over a 
period of a few weeks each fall.
    With this in mind, ARS has several ongoing projects including a 
live animal test for elk, techniques for the detection of the CWD agent 
in soil and water, and the development of a test that can be used at 
check stations during hunting season. ARS is also working on the 
identification of a gene possibly associated with resistance to CWD in 
elk. The gene is rare in the wild population and CWD prevalence in elk 
is low. Therefore, an oral challenge trial to determine disease 
susceptibility is underway.
    APHIS' National Wildlife Research Center (NWRC) has also been 
involved with research on CWD. NWRC is researching ways to identify 
barriers, repellents, and other methods to keep deer and cattle 
separated. This research is being conducted to control bovine 
tuberculosis, but much of the information will apply to CWD. NWRC is 
also planning construction on a wildlife disease building because of 
APHIS' increasing involvement in wildlife diseases.
    CSREES is addressing CWD through its competitive research programs. 
The Fiscal Year 2002 National Research Initiative Animal Health program 
specifically called for research on diseases related to livestock-
wildlife interactions. Research proposed under this program is 
currently under peer-review and awards will be made by late summer. In 
addition CSREES is supporting a study through the Critical Issues 
program at the University of Wyoming, which is investigating the 
susceptibility of cattle to Chronic Wasting Disease. Finally, CSREES is 
administering a Special Research Grant to Colorado State University for 
the Center for Economically Important Infectious Animal Diseases to 
study a variety of animal diseases, including CWD.
    USDA is committed to fighting this serious health threat. The 
President's Fiscal Year 2003 budget reflects this commitment by 
including increases in funding for APHIS, ARS, and CSREES. The budget 
request includes an increase of $7.2 million for nationwide CWD 
elimination and surveillance activities, which would be directed 
primarily toward captive cervids; $8.6 million for TSE research, of 
which $386,900 is specifically targeted for CWD; and an estimated $16.4 
million for competitive basic research into the emerging agricultural 
disease initiative of the National Research Initiative, which would 
include grants to study CWD and other TSE diseases.
    CWD is a disease that crosses State, County, and local boundaries 
and is present in both farmed and wild populations. Because of this, it 
is our view that combating CWD must be a coordinated and cooperative 
effort between USDA, the U.S. Departments of Interior and Health and 
Human Services, and State departments of agriculture and wildlife.
    With that in mind, USDA has already met with its counterparts at 
Interior in an effort to coordinate the Federal response. USDA and The 
Department of Interior have agreed to form a Joint Federal CWD Working 
Group. The purpose of the working group will be to assist the states in 
a cooperative and coordinated manner. ARS, CSREES and the U.S. 
Geological Survey are planning to sponsor a meeting in August to 
discuss CWD research priorities and share information. ARS is also 
working with several universities, including Colorado State University 
and the University of Washington, on projects related to CWD. USDA is 
also talking with the Department of Health and Human Services because 
of the Department's jurisdictional responsibilities with deer and elk 
products as feed for animals or human food (including dietary 
supplements) and cosmetics.
    In addition, APHIS continues to work with its counterparts at the 
State level. USDA recognizes and respects the jurisdiction of States 
and acknowledges the State wildlife agencies as the lead in CWD in 
wildlife. When CWD has been found in free-ranging populations, APHIS 
has assisted, and will continue to assist, the affected States by 
providing laboratory and diagnostic testing support and by assisting 
with CWD surveillance activities. APHIS has also provided support to 
Wisconsin and Colorado in harvesting deer and elk for further sampling 
after new finds in wildlife. An APHIS epidemiological team has worked 
with Wisconsin's State Veterinarian to investigate the outbreak there. 
A report on the team's work is currently being compiled.
    In conjunction with the States and industry groups, APHIS is 
developing a nationwide program to eliminate CWD from farmed elk. The 
Agency will soon issue proposed regulations for this program, which, if 
finalized, would require that all captive cervids be enrolled prior to 
interstate movement.
    We look forward to continuing our work on CWD with our Federal and 
State counterparts and are committed to decreasing the occurrence of 
this disease in free-ranging and farmed deer and elk populations. Thank 
you again for this opportunity. I will be happy to answer any questions 
you may have.
                                 ______
                                 
    Mr. McInnis. Doctor, you may proceed.

STATEMENT OF GLEN ZEBARTH, D.V.M., NORTH AMERICAN ELK BREEDERS 
                          ASSOCIATION

    Dr. Zebarth. Thank you, Mr. Chairman. I would like to thank 
the Committee for the opportunity to represent the North 
American Elk Breeders Association. My name is Glen Zebarth. I 
am a veterinary practitioner from Alexandria, Minnesota.
    The North American Elk Breeders Association, NAEBA, has 
taken a role in a response to CWD eradication in the farmed elk 
industry, which are animals that are raised and propagated 
behind fence and is defined as such in the Animal Health 
Protection Act of the 2002 Farm Bill. The goal of NAEBA, the 
elk industry, from when it was first discovered in farmed elk 
in a cow in Saskatchewan in 1996 and subsequently discovered in 
a farm situation in South Dakota in 1997, has been eradication. 
In opinion, there is nothing controversial about CWD. We do not 
want it and neither does anyone else, irregardless of where the 
animals are, and our goal has been toward eradication.
    Our action to obtain this goal of eradication started with 
a symposium called in August 1998 and resulted in a model 
surveillance control program that was submitted to the United 
States Animal Health Association, Wildlife Diseases Committee, 
and the Alternative Agriculture Committee in 1998. That 
protocol has been resubmitted and worked on and adjusted each 
year since and was a template for the emergency interim rule 
which Dr. Butler spoke that was implemented in September of 
2001.
    That program basically contains the key points of a third-
party verified inventory of all the animals in a herd; a 
verified record of animals that come in and leave the herd for 
a period of 5 years; a mandatory testing of the brain of every 
animal that dies, irregardless of the cause of death, that is 
in excess of 16 months of age in elk. It also contains a 
certification phase that after a producer has participated in 
this program in excess of 5 years, he is certified free.
    As Dr. Miller reported, in elk, the incubation period 
typically is 16 to 30 months. That would also be supported by 
Canadian data from the CFIA that involved the depopulation of 
9,000 animals on 42 facilities, and all of those animals, CFIA 
reports, have an epidemiological link back and a connection, 
not a sporadic occurrence, but an epidemiological link and 
connection and fall within that timeframe of incubation period.
    In regard to matters of threats to human health or to 
livestock, the FDA's BSE Scientific Advisory Committee met on 
January 19 of 2001 and the Chairman, Dr. Paul Brown, is quoted 
and his conclusion was that, ``To date, there is no identified 
instance of disease in human beings attributable to Chronic 
Wasting Disease, either through contact or through 
consumption.''
    The National Institutes of Health Rocky Mountain lab in 
Hamilton, Montana, in a published peer review journal in the 
year 2000 concluded that a barrier at the molecular level that 
should limit the susceptibility of non-cervid species to CWD 
exists.
    Dr. Beth Williams, who is in the audience today, has been a 
leading expert in CWD and first described the syndrome, and she 
has been involved in a 10-year study involving 12 cattle that 
were orally fed CWD, exposed, and have not become infected in 
excess of 4 years of exposure.
    Dr. Daniel Gould at Colorado State University did a follow 
study in Colorado of 262 adult-aged cows that went to slaughter 
from the endemic area in Colorado and those animals were all 
tested and found to be completely negative and no evidence of 
prion protein in any of those cattle that had lived their 
entire age life in the endemic area.
    The elk industry would like to thank USDA-APHIS for their 
great support in implementing the program and the funding and 
would urge continuing funding for USDA-APHIS to help the elk 
industry and the farmed cervid industry eliminate and 
completely eradicate this disease from our farm populations. 
Thank you.
    Mr. McInnis. Doctor, thank you very much.
    [The prepared statement of Dr. Zebarth follows:]

Statement of Glen Zebarth, DVM, North American Elk Breeders Association

    On behalf of the North American Elk Breeders Association (NAEBA), 
it is an honor to testify before the Subcommittee on Forests and Forest 
Health and the Subcommittee on Fisheries Conservation, Wildlife and 
Oceans. NAEBA developed the model CWD Eradication Program, which the 
USDA adopted, and has been actively involved in educating and 
encouraging its members to fully participate in the Chronic Wasting 
Disease program. NAEBA has also been providing science-based 
information about CWD to the public and has been actively supporting, 
through its affiliations with other elk industry groups, ongoing 
scientific research of Chronic Wasting Disease, including research 
aimed at developing a live animal test for the detection of CWD and a 
genetic challenge study conducted by the Elk Research Council and the 
USDA.
    As the leading industry representative, NAEBA recommends that state 
and Federal agencies adopt an interagency, public-private partnership 
to eradicate CWD in both domestic and wild cervids.
No Threat to Humans or Livestock
    On January 19, 2001, I was privileged to deliver testimony before 
the FDA TSE advisory committee, which is comprised of the leading 
scientific researchers in the government and private sector. Some of 
the individuals preset at this testimony were also present at those 
hearings, including Dr. Mike Miller. After reports and discussion on 
CWD, Committee Chairman Dr. Paul Brown concluded: ``To date, there's no 
identified instance of disease in human beings attributable to Chronic 
Wasting Disease, either through contact (with sick animals) or through 
consumption''.
    While NAEBA supports additional scientific studies on the actual 
cause of CWD and to develop a live animal test, it is important to take 
a moment to summarize some of the key research on CWD to date. Several 
studies have been conducted to determine the transmissibility of CWD 
from infected cervids to other species. In one study, conducted at the 
NIH's Rocky Mountain Laboratories in Hamilton, Montana, researchers 
determined that there existed ``a barrier at the molecular level that 
should limit the susceptibility of--non-cervid species to CWD'' 
(Raymond, C.J. et al. ``Evidence of a molecular barrier limiting 
susceptibility of humans, cattle, and sheep to chronic wasting 
disease.'' The EMBO Journal. 19.17 (2000):425-4430.
    Real-life conditions support the presence of a species barrier. 
Beth Williams, DVM, Ph.D., of the Wyoming State Veterinary Laboratory 
and leading expert on CWD, said that researchers have found no evidence 
that CWD can be transmitted from deer and elk to cattle under natural 
conditions and provided an interim report on two studies supporting 
these findings. In a 10-year study involving 12 cattle that were orally 
fed CWD-infected deer brain one time in 1997, all of the cattle are 
healthy. In a contact study also begun in 1997, 24 cattle are being 
kept alongside CWD-infected deer, and all 24 are healthy.
    In addition, a wide-ranging survey of cattle in contact with CWD-
exposed free-ranging deer supported the species barrier. In 1998, Dr. 
Daniel H. Gould of Colorado State University conducted a geographically 
targeted survey of adult-age cattle (five years or older) on 22 ranches 
where cattle co-mingled with free-roaming deer. None of the 262 cattle 
brains analyzed had any indications of Chronic Wasting Disease, and no 
evidence of prion proteins was detected in any animal tissue.
    In contrast, in a study where 12 cattle were injected 
intracranially with CWD-infected deer brain, three cattle became sick 
and were euthanized (Hamir, A.N., et al. ``Preliminary Findings on the 
Experimental Transmission of Chronic Wasting Disease Agent of Mule Deer 
to Cattle.'' Vet. Diagn. Invest.13 (2001). This type of transmission, 
however, would never happen under natural ranching conditions or in the 
wild.
Proactive Measures to Eliminate CWD
    While we believe that CWD poses no threat to humans or cattle, it 
does present a very real threat to our livestock, defined in the new 
farm bill as ``any farm raised animal'', which includes domestic deer 
and elk. CWD is not only a threat to our domestic elk and deer; it also 
endangers wild cervids. As an industry, we take the presence of CWD 
very seriously and we are committed to eliminating the disease from all 
cervids, both domestic and wild.
    Additionally, NAEBA is concerned with the public perception of CWD 
as a threat to human health. We have undertaken educational initiatives 
to allay consumer concerns about the transmissibility of CWD; however, 
more education and research needs to be conducted to ensure that the 
public has all the pertinent information about CWD, its origins, 
symptoms, and modes of transmission.
    The North American Elk Breeders Association has taken the leading 
role in eradicating CWD from domestic elk. The goal of our program has 
been and continues to be the complete eradication of CWD in farmed elk. 
It is not just the containment of the disease. When the disease was 
first identified in farmed elk in Canada in 1996 and then in the United 
States in December of 1997, the control and eradication of the disease 
became a top priority.
    In fact, when CWD was first discovered in 1997 at a farmed facility 
in South Dakota, the elk breeders of that state unanimously voted to 
support emergency legislation to address CWD aggressively. Ranchers of 
infected herds in South Dakota, out of respect of consumers' concerns, 
did not sell antler from CWD present herds and instead, voluntarily 
eradicated their herds. In January 1998, all elk farms were placed 
under mandatory surveillance and every farmed elk that died aged 16 
months or older regardless of cause was tested for CWD. Since 1998, elk 
farms in South Dakota have been CWD free indicating that a CWD 
eradication program can successfully work to eliminate the disease in 
farmed elk. North Dakota, which was also placed under a similar program 
in 1998, has never had a single case of CWD.
    Today, all but one elk ranch in Craig, Colorado that has had a case 
of CWD has been depopulated.
    Both the United States Department of Agriculture (USDA) and the 
Canadian Food Inspection Agency (CFIA) have adopted aggressive programs 
for the control and eradication of CWD, based on the model program that 
was drafted by NAEBA in 1998. Protocols include:
    1. LVerified inventory records on herds and animals. Regulations 
include tattoo records, microchip implants, and sale and transfer 
records.
    2. LRequired examination of the brains of all animals that die at 
over 16 months of age, regardless of their cause of death.
    3. LCertification of herds with CWD-negative status.
    4. LDepopulation of herds with one case of CWD. This is a standard 
disease eradication program necessitated by the absence of a reliable 
ante-mortem CWD test.
    5. LPayment of indemnity (of fair market value up to $3000 per 
animal) for all animals that are killed because of potential exposure 
to CWD.
    In addition, Federal law prohibits feeding domestic elk with animal 
remains. This ensures that animal by-products are not passed through 
the food chain and eliminates feeding as a potential vector for CWD 
transmission.
    One of the most important components of the CWD control program is 
the payment of indemnity to ranchers who are forced to depopulate their 
elk herds because of potential exposure to CWD. Indemnity payments have 
been part of the traditional role of government agencies in 
agricultural endeavors.
    NAEBA supports the USDA's Uniformed Method and Rules, which 
requires herds to participate in the CWD program before they are 
permitted to ship elk interstate. Intrastate movement is a state 
right's issue. NAEBA encourages all ranchers to participate in the CWD 
program and also suggests that intrastate movement of elk be restricted 
to those ranchers who are participating in the program.
CWD in Colorado
    CWD was first diagnosed as a clinical syndrome in captive elk in a 
Colorado Division of Wildlife research facility in Fort Collins in 
1967. Since that time, the disease has been determined to be endemic in 
northeastern Colorado and southeastern Wyoming. In fact, the disease 
prevalence is as high as 14% of the mule deer population in specific 
game management areas (http://wildlife.state.co.us/hunt/
HunterEducation/chronic.asp).
    Let me be very clear about definitions. Captive elk or deer are 
cervids that were captured from the wild and placed behind fences as in 
the Colorado DOW research herd. Farmed or domestic elk are elk raised 
on farms, some of which came from more than 10 generations of domestic 
herds. Farmed elk, by definition established by the recently signed 
Farm Bill, is considered livestock. This is an important distinction.
    In late September 2001, the appearance of CWD in Colorado elk 
ranches was the first real test of the national CWD program. Under the 
guidelines of the national CWD Eradication and Control program, Federal 
and state agencies, as well as affected elk ranchers, worked quickly to 
identify, depopulate, and test all exposed elk.
    The program worked successfully in quickly identifying, 
depopulating, and testing all exposed elk. A total of 1,732 elk in 
Colorado were depopulated and tested, and only 44 of these animals 
tested positive for CWD. Of the 44 positive test results, all but two 
either appeared at or could be traced back to the source herd. The 
other two positive cases were discovered on a ranch in Longmont.
    More than 200 animals were shipped to 15 states from affected 
Colorado elk ranches. These animals were also quickly identified, 
depopulated, and tested for CWD. Only one of 200 elk tested positive 
for the disease. The lone positive case was in a Kansas herd of 16 elk: 
the remaining elk in the herd were tested and determined negative.
CWD in Nebraska
    Unfortunately, CWD also recently appeared in Nebraska. On an elk 
and deer farm in northwestern Nebraska, state officials found the 
disease present in both deer and elk. The deer herd, which had been a 
wild herd that was fenced-in 1991, had an infection rate of 50%, while 
the elk herd had an infection rate of 10%. All the exposed animals were 
depopulated and tested for CWD in accordance with the USDA regulations.
    Additionally, wild deer culled from the land surrounding the ranch 
tested positive for CWD. Wyoming management unit 16 is less than 30 
miles from the affected ranch in Nebraska, and results from a study 
conducted in 2000 show the unit has a disease prevalence of 4.1% in 
free-ranging mule deer and 15.4% in free-ranging whitetail deer 
(Miller, M. W. et al, ``Epizootiology of chronic wasting disease in 
free-ranging cervids in Colorado and Wyoming'' Journal of Wildlife 
Diseases., Oct. 2000, 36:4, 676-690.).
CWD in Wisconsin
    The occurrence of CWD in Wisconsin is significant because it marks 
the first time that the disease has appeared east of the Mississippi 
River.
    While CWD has been detected in wild deer in Wisconsin, there has 
never been a case of the disease in domestic elk or deer in the state. 
Contrary to reports, there has never been a single documented case 
where CWD was transferred from an elk or deer ranch into the wild.
    Because of the appearance of CWD, the Wisconsin Commercial Deer and 
Elk Farmers Association (WCDEFA) has agreed to a temporary moratorium 
of the shipment of deer and elk. WCDEFA also supports a mandatory CWD 
surveillance program, with phased-in importation requirements (as 
outlined earlier in this testimony) that would allow the transport of 
deer and elk only if they come from herds that have been CWD-free for 
five years. WCDEFA is cooperating with state agencies to help educate 
the public and alleviate concerns about CWD impacting human health.
    NAEBA believes that the phased-in importation requirement plan, 
along with the CWD Eradication Program, is working to protect domestic 
as well as free-ranging cervids form CWD and to eliminate the disease. 
A permanent ban on the movement of cervids will only exacerbate fears, 
adversely impact hunting economies of affected states, and further 
erode markets for elk and deer products.
    Public hysteria, fueled by sensationalist comments in print media 
by critics of the elk industry, if continued to be left unchecked, can 
do more harm to the hunting economies of affected states than the 
disease itself.
Establishing an Inter-agency Approach to CWD Eradication
    We are glad to see that wildlife managers from states where CWD is 
present in wild populations are expressing their concerns about the 
disease; it is imperative that we work together to eradicate the 
disease entirely.
    NAEBA is submitting recommendations that we feel will build an 
inter-agency public-private approach to CWD eradication.
    1. LBuild regional coalitions to battle CWD. Individual states/
provinces cannot effectively fight CWD alone, due to financial concerns 
and high disease prevalence in isolated geographic areas. NAEBA urges 
state and national wildlife managers and agricultural regulators to 
form cooperative agreements on a regional basis to research and 
disseminate important CWD information, and to search out and eliminate 
infected animals.
    2. LEstablish a CWD Task Force. Any resolution of the CWD infection 
must involve all affected parties, including wildlife managers and 
agricultural regulators, as well as representatives of the domestic 
cervid industry, conservation and hunting groups, and other concerned 
stakeholders. State, provincial, or national governments should fully 
fund these task forces and charge them with developing a 10-year 
strategic plan for eliminating CWD from all cervids.
    3. LInitiate cooperation with Federal and national agencies. States 
and provinces should work with various Federal and national agencies, 
including USDA, US Department of the Interior, US Forest Service, CFIA, 
and National Parks Services to initiate more proactive CWD detection 
and eradication programs.
    4. LMove more decisively when CWD appears in wild cervid 
populations. States and provinces should aggressively control CWD in 
wild cervid populations by culling animals from known endemic areas, 
including Colorado, Wyoming, Nebraska, and Wisconsin. Additionally, 
states and provinces should make every possible effort to completely 
eliminate potentially exposed wild cervid populations in areas where 
contact is most likely between potentially infected cervids and humans, 
livestock, and agricultural production.
    5. LPursue a live CWD test. States, provinces, and the domestic 
cervid industry should empanel the leading experts on CWD and fund 
extensive research and development to create a live CWD disease test 
that will focus on all disease pathogens or by-products, including 
prions.
    6. LDouble-fence domestic herds in endemic areas. Using state, 
provincial and national funds, as well as donated industry and 
conservation forces, states and provinces should use double fencing on 
domestic cervid facilities to protect herds from infection in known 
endemic areas.
    7. LRestrict movement of hunted cervid carcasses from endemic areas 
to those tested negative for CWD. The movement of carcasses that have 
not been tested for CWD from endemic areas poses a threat to free-
ranging and domestic cervids in other areas.
    Recently, the USDA submitted a request $7.2 million as part of the 
President's budget to help combat CWD. NAEBA fully supports this 
request and is asking that additional funds be appropriated for testing 
of free-ranging cervids for CWD.
    The North American Elk Breeders Foundation (referred to hereafter 
as ``the Foundation''), a 501(c) 3 tax-exempt, non-profit educational 
organization, is requesting Federal funding in the amount of $600,000 
to engage in a proactive, nationwide science-based educational 
campaign. The Foundation's educational campaign is designed to 
encourage elk ranchers to participate in the CWD program, to provide 
science-based information to the public, and to ensure that their 
concerns regarding CWD are addressed.
    The Foundation is best positioned to educate elk ranchers and to 
continue its educational efforts to the public. Yet, due to the 
increasing attention on and prevalence of CWD, our limited resources 
are not sufficient to address these legitimate public concerns. We are 
asking Congress to assist us in this important effort to continually 
educate and inform the public about CWD.
    While all research has focused on prions as the causative agent of 
CWD, prions might be the result and not the cause. Knowing the exact 
cause of the disease will only accelerate the development of a live-
animal test as well as the formulation of a vaccine or other treatment. 
CWD may be caused by a virus, bacteria or bacteriaphage (a viral 
infected bacteria). It is important to know the cause of CWD in order 
to effectively pursue a cure.
    In addition, it is critical to pursue a live animal test, further 
test decontamination methods, and to continue research on genetic 
resistance. NAEBA, the North American Elk Breeders Foundation and the 
Elk Research Council vigorously support the competitive proposal 
process for research funds and looks forward to participating in and 
supporting further research.
NAEBA Comments on USDA Interim Rule
    The USDA specifically requested feedback on herd reintroduction 
after depopulation and decontamination methods. NAEBA submitted a 
response summarized below.
    There are a number of factors to consider when determining when elk 
can be reintroduced and the risk of CWD re-infection minimized. These 
factors include:
    1. LThe level of infectivity on the ranch.
    2. LThe stage each of elk detected with CWD.
    3. LWhether CWD was transmitted to other elk on the premises or 
whether the CWD positive elk is a trace-forward animal (i.e. an elk 
shipped from an exposed herd).
    4. LIf the CWD positive elk is a trace forward elk, how long was 
the elk on the trace forward herd.
    5. LResearch on ranches where positive animals were depopulated and 
whose owners have reintroduced elk.
    6. LAny environmental factors unique to the ranch.
    We believe that the herd plan, developed by the state veterinarian, 
a member of APHIS along with the rancher, should properly address the 
specific issue of elk reintroduction.
    In addition, NAEBA sees decontamination as a major area for further 
research. The Elk Research Council is involved in a decontamination 
study that has been ongoing for the past 18 months. NAEBA recommends 
decontamination procedures for ranches that have been exposed to CWD-
positive animals. This will help remove the infectious agent from the 
premises and will allow breeders to utilize their property again. 
Decontamination procedures should include burning or deep burial of 
contaminated materials, removal of soil (up to four inches deep) and 
replacement with an impervious material such as stone dust, removal of 
all organic material, and disinfectant of equipment with a substance 
such as sodium hypochlorite or sodium hydroxide.
Value of Elk Ranching
    Game farming has a rich history, dating back to Persian, Greek, and 
Roman societies. Elk ranching in particular is a value-added 
agricultural industry with annual sales of more than $50 million. It is 
a viable alternative for family ranching, and many ranchers have made 
significant financial investments in their operations. Elk ranching 
produces healthy, safe, beneficial products such as lean red meat and 
velvet antler dietary supplements for joint mobility and endurance.
    Tapping into the recreational aspect of elk ranching by allowing 
hunting on appropriate private facilities has not only been successful, 
but as predicted has enhanced rural economies and added another 
profitable agricultural opportunity to the state. Elk ranching is one 
of the last bastions of family farming in this country, and our 
industry is willing to do whatever is necessary to protect our animals 
from CWD.
    Those of us involved in elk ranching believe that by working 
together, trade organizations and state and Federal agencies can 
eradicate CWD from all cervids, both domestic and wild. By eliminating 
the disease, consumers can continue to enjoy the health benefits of elk 
products such as lean red meat and velvet antler, and ranchers 
throughout North America can continue to thrive in partnership with 
nature for many years to come.
                                 ______
                                 
    [The response to questions submitted for the record by Mr. 
Zebarth follows:]

        Response to Questions submitted by Glen L. Zebarth, DVM

Your testimony advocates ``phasing-in'' new requirements for animal 
        imports and monitoring B as opposed to immediate action. Given 
        that no one wants the disease to spread, why don't you advocate 
        immediate implementation?
    I do advocate immediate action in eradicating CWD in all cervids. 
The North American Elk Breeder's Association initiated a model CWD 
surveillance control program in October 1998. We would at this time 
advocate a 100% mandatory monitoring program for all cervids, free-
ranging and farmed. I would advocate an interstate movement requirement 
of 36 months CWD surveillance with that level ratcheting up to 60 
months. The increase from 36 months to 60 months is the area to which I 
must have been referring in regard to the quote ``phasing in''. The 
accepted incubation period of CWD in elk is 15 to 35 months, so that an 
immediate requirement of 36 months surveillance exceeds the incubation 
period. The additional time span of going to 60 months is added 
insurance.
    I would strongly encourage the Federal Government to support state 
veterinarians and their animal health departments to obtain adequate 
funding to implement these measures.
    I would also advocate the same interstate movement requirements for 
whole carcasses. Especially those moving from know endemic areas. As a 
proven method of transmission is oral ingestion of infected CNS tissue.
    I appreciate the opportunity to respond, if I can be of any further 
assistance please contact me.
                                 ______
                                 
    Mr. McInnis. The next doctor, Dr. Wolfe. You may proceed.

  STATEMENT OF GARY J. WOLFE, PH.D., CHRONIC WASTING DISEASE 
   PROJECT LEADER, ROCKY MOUNTAIN ELK FOUNDATION, BOONE AND 
              CROCKETT CLUB, MULE DEER FOUNDATION

    Mr. Wolfe. Good afternoon, Mr. Chairman and other members 
of the Committee. My name is Gary Wolfe and I represent an 
alliance of three sportsmen's-based wildlife conservation 
organizations. These are the Rocky Mountain Elk Foundation, the 
Mule Deer Foundation, and the Boone and Crockett Club. We 
really appreciate this opportunity to speak with you today 
about this very serious wildlife disease and we thank you for 
giving it the Congressional attention it deserves.
    Mr. Chairman, if you will accept my written testimony for 
the record, I will just briefly summarize it here for the 
Committee this afternoon.
    The Elk Foundation, the Boone and Crockett Club, and the 
Mule Deer Foundation are deeply concerned about the impact that 
Chronic Wasting Disease is having in certain localized areas, 
as we heard this morning, and we are also very concerned about 
its potential to spread throughout North America, possibly with 
devastating consequences to our wild deer and elk herds. So 
these three organizations have tried to do something about it. 
They have agreed to pool their resources, to share information, 
and collaborate on strategies and methods to positively assist 
with this Chronic Wasting Disease crisis.
    Other sportsmen's-based conservation organizations have 
recently learned of this alliance. They have expressed an 
interest in joining us, and I believe we are going to have some 
more groups coming on board. We recognize we have no authority 
for wildlife management. We do not want any authority for 
wildlife management, but we want to be a good partner and be in 
a supportive role for our agency partners there.
    So I would like to share with you for a moment some of the 
projects this coalition is going to be undertaking. We believe 
that one of the greatest needs is the timely and accurate 
dissemination of information to the public regarding Chronic 
Wasting Disease. That came up several times this morning. I 
think Russell George did an eloquent job of emphasizing the 
importance of that.
    So to help accomplish that objective, we have several 
things in line. First and foremost, we are going to be 
cosponsoring, along with several agency partners, a National 
Chronic Wasting Disease Symposium that is scheduled in August 
of this year, and the intent is to bring together the very best 
minds that are working on Chronic Wasting Disease and the 
leading wildlife managers that are involved in this and 
summarize not only the state of the knowledge, but really to 
come up with very specific recommendations as to what can be 
done to manage the disease.
    We also plan to participate in a number of regional forums 
around the country. For example, this past weekend, I was in 
Boise, disease, for a Chronic Wasting Disease Symposium that 
was sponsored, in part, by the Andrews Center for Public 
Policy, and that conference was attended by representatives 
from State and Federal agencies, sportsmen's organizations, 
game ranchers, and other concerned citizens, and I believe that 
really helped promote the knowledge and communication amongst 
the parties concerning the issue.
    One project I am really excited about and I think is going 
to make a difference in this communication is a comprehensive 
website that our partners are developing. This is going to be a 
comprehensive Chronic Wasting Disease website to facilitate the 
public's access to timely and accurate information on the 
issue. Unfortunately, issues tend to get blown out of 
proportion at times. They can either be underplayed or 
overplayed. We want to assist the public with getting the facts 
and separate fact from myth in this regard. We are going to be 
providing links to other sites. Several of the State agencies 
have excellent sites already up. So we are going to link to 
some other good sources there.
    Additionally, we are working with State and Federal 
agencies to develop policy recommendations, and as you see 
today, we intend to provide testimony and recommendations to 
key decisionmakers, such as State wildlife commissions, State 
legislatures, and the U.S. Congress.
    In regards to specific recommendations concerning ways in 
which the Federal agencies and Congress can support the States' 
efforts, we would like to offer several suggestions. In 
actuality, this is just to reiterate a number of good 
suggestions that were brought forward this morning.
    First and foremost, successful control and ultimate 
eradication of Chronic Wasting Disease is certainly going to 
depend upon a cooperative and well-coordinated effort between 
the various Federal agencies and the State agencies. We 
encourage you to rely heavily upon the recommendations from 
State wildlife agencies as it relates to managing wild 
populations.
    I was heartened to hear your opening comments this morning, 
Mr. Chairman. I think that is right on track. We are certainly 
going to encourage you to either have somebody at this Chronic 
Wasting Disease Symposium, but maybe more importantly, request 
a report back to this Committee from the sponsors of the 
Chronic Wasting Disease Symposium with some very specific 
recommendations.
    And fourth and last, because efforts to control Chronic 
Wasting Disease are costly and redirecting resources away from 
other State agencies' wildlife departments, we reiterate the 
need for some significant Federal funding being appropriated 
for several activities, briefly, to assist the State wildlife 
management agencies to conduct Chronic Wasting Disease 
surveillance with the wild populations, to assist them with 
their efforts to eradicate in it areas where it does exist in 
the wild, and also to help fund the much needed increased 
capacities of our State veterinary diagnostic laboratories.
    I see I am out of time. In conclusion, I would just like to 
say, please recognize that there are hundreds of thousands of 
sportsmen's conservationists in America that are concerned 
about this issue. We are willing to help and we are looking 
forward to working with Congress and our agency partners on 
resolving this issue. Thank you, Mr. Chairman.
    Mr. McInnis. Thank you, Dr. Wolfe. I would point out that 
your testimony is very refreshing. There are private 
organizations out there that want to assist us and I think it 
is excellent. I think it is a great idea. Your four steps are 
very well taken.
    I would ask, if you do not mind, we would like to have 
members of our staff probably, possibly members of the 
Committee, involved in the symposium, as well, and that extends 
to all our guests who are having meetings or things in regards 
to this. Our staff is devoting a lot of time to this issue.
    So this kind of communication between our organizations is 
important, and I am impressed with the commitment of resources 
which your organizations have made to assist us with this. As 
you said in your comments, we are all in this together. So, Dr. 
Wolfe, thank you very much for your testimony.
    Mr. Wolfe. Thank you, Mr. Chairman, and we will certainly 
keep your staff informed and involved in what is going on.
    Mr. McInnis. That will be very, very helpful.
    [The prepared statement of Mr. Wolfe follows:]

  Statement of, Gary J. Wolfe, Ph.D., Chronic Wasting Disease Project 
                 Leader, Rocky Mountain Elk Foundation

    Good morning Mr. Chairman and distinguished members of the 
Subcommittees. My name is Gary Wolfe, and I represent a coalition of 
three sportsmen's-based, nonprofit wildlife conservation 
organizations'the Rocky Mountain Elk Foundation, Boone and Crockett 
Club, and Mule Deer Foundation. I, and the organizations I represent, 
sincerely appreciate the opportunity to share our concerns regarding 
Chronic Wasting Disease (CWD) with you today. Thank you for giving this 
serious wildlife disease the Congressional attention it deserves.
    The Rocky Mountain Elk Foundation, Boone and Crockett Club, and 
Mule Deer Foundation are deeply concerned about the impact CWD is 
having, and may continue to have, on North America's wild deer and elk 
populations. We are concerned about the possible, but currently 
unknown, threats to other wild cervids, domestic livestock and humans. 
And, we are also concerned about the impact this disease may have upon 
millions of Americans' opportunity to hunt deer and elk each fall, and 
upon their confidence to put healthful wild venison on their families' 
tables.
    In response to these concerns, these three conservation 
organizations have recently formed an alliance to address CWD. The 
organizations have agreed to pool resources, share information, and 
collaborate on strategies and methods to positively impact the CWD 
issue. Upon hearing of this partnership, other wildlife conservation 
organizations have expressed an interest in joining our CWD Alliance.
    We believe that one of the greatest needs is the dissemination of 
timely and accurate information regarding CWD to our members, the 
general public, media and decision makers. It is important to separate 
fact from myth. Concerns about the seriousness of this disease should 
not be downplayed; but at the same time, unwarranted fears leading to 
hysteria and overreaction need to be quelled. To that end, the CWD 
Alliance is:
    <bullet> LCo-sponsoring, along with the National Wildlife 
Federation and several state wildlife agencies, a national CWD 
Symposium, scheduled for August 6 & 7, 2002 in Denver, CO. This 
conference will provide a common forum for concerned groups and 
regulatory agencies to discuss issues concerning CWD. The intent is to 
summarize the current information about the disease and present the 
status of management programs conducted by various agencies and 
organizations in an effort to control this disease. Most importantly, 
information and discussions presented at this conference will help 
shape recommendations for future management actions.
    <bullet> LDeveloping a comprehensive CWD website (www.cwd-info.org) 
to facilitate the public's access to breaking CWD news, scientific 
literature, ongoing research studies, recommendations from professional 
wildlife management agencies, links to other CWD information sources, 
and perhaps most importantly an easy to comprehend CWD overview 
including ``Frequently asked Questions''.
    <bullet> LCooperating on the publication of timely and informative 
CWD articles in our respective organizations' member magazines.
    Other activities of the CWD Alliance include:
    <bullet> LConsideration of grant requests for specific CWD research 
and management projects
    <bullet> L1Working with state and Federal agencies to develop 
policy recommendations for the management and eradication of CWD
    <bullet> LProviding expert testimony to select decision makers such 
as state wildlife commissions, state legislatures, and the United 
States Congress.
    We would like to offer the following recommendations regarding ways 
Federal agencies and Congress can support state wildlife management 
agencies and other involved state agencies in the control of Chronic 
Wasting Disease:
    <bullet> LFirst and foremost, successful control and eradication of 
CWD in both wild and captive populations of deer and elk will depend 
upon a cooperative approach and a well-coordinated effort between 
Federal and state agencies. We encourage you to rely heavily on the 
recommendations of the state wildlife agencies when considering Federal 
regulations or congressional legislation regarding CWD. Any such 
actions should recognize and reinforce the principle that state 
wildlife agencies have the primary responsibility for managing wild 
cervid populations.
    <bullet> LSecondly, since CWD may be spread to new areas through 
commercial trade in captive cervids, thus placing wild populations of 
deer and elk at risk, the United States Department of Agriculture's 
Animal and Plant Health Inspection Service (APHIS) should work closely 
with state wildlife agencies in the development of regulations 
affecting the interstate shipment of captive cervids.
    <bullet> LThird, request that the sponsors of the upcoming national 
CWD Symposium report back to these congressional subcommittees 
following the conference with specific recommendations for action.
    <bullet> LFourth, because efforts to control CWD are costly and are 
taking critical limited resources away from the impacted states' other 
wildlife management programs, we would like to see significant Federal 
funding appropriated to:
      * LSupport additional research into the diagnosis, pathogenesis, 
and epidemiology of CWD.
      * LAssist state wildlife agencies with the costs associated with 
the surveillance and testing of wild deer and elk populations for the 
presence of CWD.
      * LAssist state wildlife agencies with the costs associated with 
efforts to eradicate CWD from areas where it already occurs, and 
programs to prevent its spread to new areas.
      * LAssist state veterinary diagnostic laboratories with the costs 
associated with becoming properly staffed and equipped so they can 
quickly and effectively process the significantly increased number of 
samples being submitted for CWD testing.
      * LDevelop and implement, in coordination with state wildlife 
agencies, a national CWD public awareness campaign.
    In conclusion, America's wild deer and elk populations are 
priceless treasures. They are a source of beauty, inspiration and 
recreation for millions of Americans; and, they infuse billions of 
dollars annually into our national economy. Their health and vitality 
must be protected! Please remember, there are literally hundreds of 
thousands of American sportsmen-conservationists that are concerned 
about this issue and willing to help in its resolution.
    Once again, thank you for the opportunity to share our concerns and 
recommendations on this very important wildlife disease issue.
                                 ______
                                 
    [The response to questions submitted for the record by Mr. 
Wolfe follows:]
SUPPLEMENTAL QUESTIONS FROM MAY 16 OVERSIGHT HEARING ON CHRONIC WASTING 
                                DISEASE
                                  for
                             gary j. wolfe
    Answers to these questions constitute my own professional and 
personal opinions, and may not necessarily reflect the views of the 
organizations I represented at the May 16, 2000 hearing.

                      Questions from the Majority:

1. What do you consider to be the appropriate role for the Federal and 
        state governments to play in managing CWD in free-ranging 
        wildlife?
    I believe the Federal Government should fund research, serve as an 
information clearinghouse, facilitate national coordination, and assist 
the state agencies as a supportive partner. However, Federal assistance 
must not compromise the responsibility and authority of state wildlife 
management agencies for free-ranging wildlife.
    State wildlife departments should be the agencies primarily 
responsible for CWD management and control efforts in free-ranging 
wildlife within their boundaries.
2. What are some of the differences in managing this disease in game 
        (farm) animals compared to free ranging animals? Will applying 
        the theories and practices behind management of CWD in game 
        (farm) animals be effective and/or efficient in managing CWD in 
        free ranging animals? Please explain.
    A primary difference is the controlled environment of a game farm. 
Game farm animals are usually tame; easy to approach and handle; and 
their food, water and medications can be closely regulated. It is much 
easier to monitor game farm animals for the presence of disease, and 
much more practical to remove all sick animals from the population. 
Ingress and egress of game farm animals can also be controlled, whereas 
that is impossible in a free-ranging situation.
    Managing disease in the wild is a much more challenging situation 
than in the controlled environment and restricted area of game farms. 
Once established in a wild population, diseases are extremely 
difficult, and sometimes impossible, to eradicate. Wild animals are 
dispersed over large areas of rugged terrain where it is virtually 
impossible to observe all animals, much less capture all of them for 
disease testing or treatment. Managing CWD in free-ranging deer and elk 
is extremely difficult because of the long incubation period, 
uncertainty about the mechanism of transmission, and the potential for 
persistence of the causative agent in the environment.
3. Should the Federal Government support the management of wildlife for 
        the sake of wildlife rather than as a potential source for 
        infection of game (farm) herds? Why?
    Wildlife management policy should be focused on ensuring the health 
and sustainability of wild, free-ranging wildlife--not on the 
protection of privately owned game herds.
    The American system of public wildlife 'ownership' is unique in the 
world and a treasure enjoyed by millions of Americans. This public 
wildlife resource generates billions of dollars annually for our 
nation's economy. In contrast, the benefits of game farms accrue to 
only a very few, and their overall contribution to the nation's economy 
is minuscule compared to public wildlife.
4. Mr. McInnis has introduced a bill to define the Federal role in 
        managing CWD in deer and elk, and to define the authorities of 
        the Federal agencies. An important element assures that Federal 
        wildlife agencies partner with state wildlife agencies and that 
        Federal agriculture agencies partner with state agriculture 
        agencies. Could you comment on this bill?
    Representative McInnis' bill (H.R. 4795) is a giant step in the 
right direction. It provides much-needed funding for additional Federal 
CWD research, provides for a national CWD Clearinghouse based in the 
USGS, upgrades veterinary diagnostic labs, supports state efforts to 
manage CWD via pass-through funding to state wildlife agencies, and 
reinforces the premise that the state's have primary authority for 
managing the public wildlife resource within their boundaries.
    Movement of live animals (both captive and wild) is one of the 
greatest risk factors for the spread of CWD into new areas. This risk 
factor is exacerbated by human-aided transportation of live deer and 
elk. H.R. 4795 could provide additional protection for wild, free-
ranging deer and elk if it included a moratorium on the interstate 
shipment of live cervids until more is known about the epidemiology of 
CWD.

                      Question from the Minority:

1. I understand there is field evidence of genetic resistance to CWD in 
        some elk and mule deer. Are not eradication efforts 
        counterproductive in that they kill healthy animals that can 
        bring us out of this epidemic?
    I am not aware of any scientific evidence that supports the theory 
that some mule deer and elk are genetically resistant to CWD. Nor am I 
aware of any scientific evidence that some deer and elk develop an 
acquired immunity to CWD.
                                 ______
                                 
    Mr. McInnis. Mr. Pacelle, you may proceed.

     STATEMENT OF WAYNE PACELLE, SENIOR VICE PRESIDENT FOR 
 COMMUNICATIONS AND GOVERNMENT AFFAIRS, THE HUMANE SOCIETY OF 
                       THE UNITED STATES

    Mr. Pacelle. Thank you, Mr. Chairman, Representative Kind. 
I am Wayne Pacelle. I am Senior Vice President for 
Communications and Government Affairs for the Humane Society of 
the United States, the nation's largest animal protection 
organization, with seven million members and constituents in 
the U.S. I will try not to repeat comments that have been made 
prior about this issue and maybe draw out a couple of points.
    First, I do want to say that there is no dispute that all 
interested parties, whether they are hunters, livestock 
interests, wildlife managers, animal advocates, support the 
rapid development of a live animal test as a means of more 
precisely gauging the scope of the problem and addressing the 
disease in individual animals. I think we are all in agreement 
and I hope that we can all proceed with that element of this 
campaign against CWD.
    Second, and I want to spend a little time on this, is that 
before the test is developed, there is going to be great 
pressure to engage in mass slaughter of animals in areas where 
the disease has been identified. We want to urge policymakers 
to resist the temptation to support this draconian response. 
While mass slaughter may appear to demonstrate a swift and 
decisive political response to an obviously grave circumstance, 
it is not at all clear that mass slaughter would result in 
eradication of the disease.
    In captive facilities, current management options are 
limited to quarantine or killing of CWD-affected herds. In the 
1990's, two attempts to eradicate CWD from cervid research 
facilities failed. The causes of these failures were not 
determined, but environmental contamination remaining after the 
herd was killed was likely in both cases. Whether or not 
contaminated environments can be completely disinfected remains 
somewhat questionable, at least in the short run.
    But at least in those captive settings, there is an 
argument for the depopulation arguments. I think it is a much 
more difficult task in free-ranging animal populations. 
Management programs established to date focus on containing CWD 
and reducing its prevalence in localized areas. Translocating 
cervids and maintaining feeding stations have been banned in 
some States in an attempt to limit range expansion and decrease 
transmission. The slaughter of cervid populations in an area of 
high CWD prevalence has been attempted in Colorado as a 
management experiment, but the effectiveness of this approach 
has really not been determined.
    It is logical to think that lowered animal density should 
reduce both disease transmission and likelihood of emigration 
of affected animals to adjacent areas with no previous 
incidence of CWD. However, there are a bunch of complicating 
factors that I think we need to consider.
    One, of course, is the environmental persistence of this 
prion. We do not know its longevity, so if you depopulate an 
area, if animals then move back into the area, you have a 
problem. We know from deer and our experiences across the 
country with deer, and to a lesser degree elk, that these are 
extremely reproductively capable animals. They are highly 
adaptable and they will recolonize a vacant area after a 
localized eradication has occurred.
    I also think it is a dangerous slippery slope. We are 
talking about in Wisconsin killing 15,000 deer in this area 
where few animals have been identified. What happens if we have 
infected animals in northern Wisconsin, in northwest Wisconsin? 
Are we going to kill 15,000 or 25,000 in that area because we 
have identified a few animals? What happens if it is in 
central, north central Wisconsin? Are we going to kill another 
20,000 or 30,000 deer in that case? This is a very dangerous 
slippery slope, to think that we can apply almost an 
agricultural mentality here.
    Agricultural producers and the agencies that regulate them 
have a zero tolerance policy for certain diseases, like 
brucellosis, and we can understand that. But those are captive 
populations where you have vaccines, where you have diagnostic 
methods to assess these populations. We have a whole different 
situation here and the idea of controlling free-ranging 
populations, or controlling the disease in free-ranging 
populations through eradication is quite dangerous.
    I do want to refer all of you to the testimony of Dr. 
Charles Southwick of the University of Colorado. He believes 
that CWD may have been around for generations and he has really 
questioned from a population ecologist's viewpoint the idea of 
these eradication efforts.
    But I want to focus some time in the short time that I have 
remaining, Mr. Chairman and Representative Kind, on the idea of 
prevention. We obviously have heard before that captive cervids 
have this disease in a number of States, Colorado, Kansas, 
Montana, Nebraska, Oklahoma, Saskatchewan, and South Dakota. It 
is documented that spillover of CWD into local free-ranging 
cervid populations has probably occurred in at least two 
occasions.
    By transporting cervids from an endemic area, we are 
facilitating the spread of this disease. Several States, 
Colorado, Connecticut, Indiana, Nebraska, New York, Texas, 
Virginia, and Wisconsin, have adopted moratoria on the import 
of some or all cervids, and I think this is really one of the 
messages that I want to convey in the most forceful sense. No 
one has suggested it here today.
    We need a ban on interstate shipment of captive cervids, of 
deer and elk. If Wisconsin had adopted this policy years ago as 
a State, it would not be dealing with the enormous expenses and 
the enormous problems, the threat to the hunting industry, the 
threat to the deer. We really need to look at this. This is an 
appropriate area for the Federal Government. It does not usurp 
States' rights. The Federal Government under the Commerce 
Clause can deal with the issue of interstate movement of 
animals, and this subject has really been omitted from the 
discussion today and I hope you will give it serious 
consideration.
    I do want to take a moment to note that there are--
    Mr. McInnis. You need to wrap it up.
    Mr. Pacelle. There are bills that have been introduced by 
Sam Farr and Joe Biden to ban the interstate transport of 
exotic mammals for the purpose of being shot in so-called 
canned hunts. We really question the idea of game ranching of 
wild animals, making them agricultural animals, and they have 
been a primary agent in dispersing this dangerous prion across 
the country. Thank you very much.
    Mr. McInnis. Thank you, Mr. Pacelle.
    [The prepared statement of Mr. Pacelle follows:]

 Statement of Wayne Pacelle, Senior Vice President for Communications 
    and Government Affairs, The Humane Society of the United States

Introduction
    On behalf of The Humane Society of the United States, the nation's 
largest animal protection organization with more than seven million 
members and constituents, I am pleased to offer testimony before the 
Subcommittees on Forests and Forest Health and Fisheries Conservation, 
Wildlife and Oceans. We appreciate the invitation to participate and we 
applaud the committee for conducting this hearing, and hope that you 
will take decisive yet careful action, in cooperation with the states, 
to combat the severe dangers posed to animals by Chronic Wasting 
Disease (CWD).
    There is no dispute that all interested parties--the game farm 
industry, hunting groups, wildlife managers, livestock interests, and 
animal advocates--support the rapid development of a live animal test, 
as a means of more precisely gauging the scope of the problem and 
addressing the disease in individual animals. Before that test is 
developed, however, there will continue to be great pressure to engage 
in mass slaughter of animals in areas where the disease has been 
identified. We urge the committee to resist the temptation to support 
this draconian response. While mass slaughter may appear to demonstrate 
a swift and decisive political response to an obviously grave 
circumstance, it is not at all clear that mass slaughter would result 
in successful eradication of the disease. On the other hand, we do know 
that mass slaughter would cause enormous harm and suffering to 
thousands of perfectly healthy animals. It may even slow down the 
natural process of selection, whereby a population becomes resistant to 
CWD over time as individuals who are susceptible to CWD die, and those 
genetically resistant survive to successfully reproduce. In a broader 
sense, we urge this committee to focus considerable attention on one of 
the root causes of this problem: the game farm industry and its role in 
fostering the spread of this very dangerous disease. More specifically, 
we urge the committee to develop and advance legislation to ban the 
interstate and international shipment of deer or elk for use in the 
game farm industry. This action is not only well-justified in light of 
the current crisis, but also is well within the Federal Government's 
area of authority and responsibility. The HSUS also strongly urges the 
Committee to support efforts to urge that the control and monitoring of 
wildlife, farmed or free-ranging, and diseases such as CWD, be assumed 
under the jurisdiction of wildlife agency experts rather than state 
agriculture agencies.
Background on Chronic Wasting Disease
    Chronic Wasting Disease is a transmissible spongiform 
encephalopathy (TSE) of cervids. Natural infections have occurred in 
mule deer, white-tailed deer, and Rocky Mountain elk; the disease has 
been present in mule deer populations for at least 30 years (Williams 
and Young 1980). Other subspecies of elk are probably also susceptible 
to CWD (Williams, 2002) as well as other native and exotic cervid 
species (e.g. moose, caribou, key deer, sika deer, and fallow deer; 
Raymond, et al., 2000).
    The TSEs are grouped together because of similarity in symptoms, 
pathology, and presumed ancestral agent; the infectious agents are 
hypothesized to be prions (infectious proteins without associated 
nucleic acids; Williams, 2002). Scrapie of domestic sheep and goats, 
bovine spongiform encephalopathy (BSE) of cattle, and transmissible 
mink encephalopathy of farmed mink (Mustela vison) are TSEs of domestic 
animals. Scrapie, a TSE of domestic sheep, has been recognized in the 
United States since 1947, and it is possible that CWD derived from 
scrapie (Williams, 2002).
    The overall duration of CWD infection (time from exposure to end-
stage clinical disease) has been difficult to determine in natural 
cases but has been experimentally estimated to range between 12 and 34 
months (Williams, 2002). The maximum disease course is not known, but 
can exceed 25 months in experimentally-infected deer and 34 months in 
elk.
Spread of CWD
    The unusual biological features of CWD pose significant challenges 
for wildlife managers attempting to control or eradicate the disease. 
Because TSE agents are extremely resistant in the environment, 
transmission may be both direct (from animal to animal) and indirect 
(for example, from contaminated soil; Williams, 2002). Concentrating 
unnaturally large numbers of deer or elk in captivity or by 
supplemental feeding of wild cervids increases the likelihood of direct 
and indirect transmission of CWD between individuals as is the case for 
many other diseases. Contaminated pastures are thought to have served 
as sources of infection in some CWD epidemics (Miller et al. 1998; 
Williams, 2002); similar phenomena have been suspected in some 
outbreaks of sheep scrapie. The apparent persistence of the CWD agent 
in contaminated environments represents a significant obstacle to 
eradication of CWD from either farmed or free-ranging cervid 
populations (Williams, 2002; Geist, 1995).
    The incidence of CWD can be remarkably high in captive cervid 
populations. In one infected research facility, more than 90% of mule 
deer resident for >2 years died or were euthanized due to illness from 
CWD (Williams, 2002). Recently, a high CWD prevalence (about 50%) has 
been demonstrated in white-tailed deer confined at an infected Nebraska 
elk farm. Among captive elk, CWD was the primary cause of adult 
mortality (five of seven, 71%; four of 23, 17%) in two research herds 
and a high prevalence (59%) was detected in a group of 17 elk 
slaughtered from an infected game farm herd (Peters, et al. 2000).
    The potential for density-dependent disease transmission is greater 
among animals in captivity than in free-ranging wildlife. Captive 
animals are often held at higher than natural densities and thus are 
more frequently in direct contact and are more consistently stressed. 
Their repeated exposure to the same (potentially contaminated) soil may 
exacerbate effects of density on captive cervids.
    CWD may be transmitted between captive and wild cervid populations, 
in either direction (Coon, et al., 2002), and there is concern that 
transmission between cervids and cattle is possible, but this has only 
been demonstrated experimentally. (To date, cattle have rarely become 
infected when experimentally inoculated with CWD via intracerebral 
injection; Hamir et al. 2001.)
Detection
    Current quarantine methods for detecting CWD in captive wild 
species are unreliable and regulations for disease testing have failed 
to prevent the transportation of diseased animals, even though animals 
were certified as disease-free. For example, many states require only a 
30-day quarantine period before allowing animals to enter the state. 
The quarantine period is not sufficient in identifying animals infected 
with CWD due to the long incubation periods of the disease (a minimum 
of 12-34 months). A live-animal test using tonsil tissue has been 
developed and found to be effective for use in mule deer and may also 
prove to be effective in white-tailed deer (Williams, 2002).
Control
    No treatment is available for animals affected with CWD. Once 
clinical signs develop, CWD is invariably fatal. Similarly, no vaccine 
is available to prevent CWD infection. In addition, long incubation 
periods, subtle early clinical signs, absence of reliable live-animal 
diagnostic tests, an extremely persistent infectious-like agent, 
possible environmental contamination, and an incomplete understanding 
of modes of transmission all constrain options for controlling or 
eradicating CWD.
    In captive facilities, current management options are limited to 
quarantine or killing of CWD-affected herds. In the 1990's, two 
attempts to eradicate CWD from cervid research facilities failed; the 
causes of these failures were not determined, but environmental 
contamination remaining after the herd was killed was likely in both 
cases (Williams, 2002). Whether or not contaminated environments can 
ever be completely disinfected remains questionable.
    Managing CWD in free-ranging animals presents enormous challenges 
as well. Management programs established to date focus on containing 
CWD and reducing its prevalence in localized areas. Translocating 
cervids and maintaining feeding stations have been banned in some 
states in an attempt to limit range expansion and decrease 
transmission. The slaughter of cervid populations in an area of high 
CWD prevalence has been attempted in Colorado as a management 
experiment, but the effectiveness of this approach remains to be 
determined. It may seem logical that lowered animal densities should 
reduce both disease transmission and likelihood of emigration of 
affected animals to adjacent areas with no previous incidence of CWD. 
However, historic migration patterns and social behaviors 
characteristic of some deer and elk populations (e.g. dispersal of 
yearling bucks and seasonal movements) may diminish the effectiveness 
of wholesale density reduction in controlling CWD (Williams, 2002). In 
addition, eliminating most or all of the deer in a given area may 
result in immigration of deer from adjacent habitat into an area with 
potentially contaminated soil.
    The mass slaughter approach has a number of critics. Population 
ecologist Dr. Charles Southwick, of the University of Colorado, 
believes that CWD may have been around for generations, killing only 
those living in captivity or in other stressful conditions, such as 
drought or overcrowding. He advises capturing deer and taking biopsies 
of tonsil tissue, where evidence of infection may appear before 
symptoms develop, at least in mule deer. If this live-animal test were 
found to be effective for other cervid species, it would have the 
advantage of providing a means to avoid destroying healthy animals 
(Southwick, personal communication).
    Southwick states that he favors killing animals that display 
symptoms of CWD, but he warns that the proposed hunt is likely to 
spread the disease by forcing infected deer into other areas and by 
creating a depopulated area, with an infective environment, into which 
healthy animals will move. Mr. Chairman, I would like to call your 
attention to the testimony of Dr. Charles Southwick that was submitted 
along with my testimony. In addition to submitting my own testimony, I 
am submitting Dr. Southwick's, and I hope the Committee will pay 
careful attention to his recommendations.
    Managers from the USDA recently declared the current approach of 
``slaughter and test'' to be ineffective and worthy of replacement with 
better diagnostic testing (Diez, 2002). It is critical that any 
management plan put into action by state wildlife departments actually 
accomplish the management goal. Killing 14,000 - 15,000 deer (as is 
suggested in Wisconsin), after finding only a handful of deer affected 
out of the 500 tested, is a drastic measure for which there is little 
convincing justification. A sound scientific rationale for this action 
is lacking.
Prevention
    The HSUS strongly encourages this committee to focus on preventing 
the spread of CWD in the first place. Scientists have identified a 
number of ``endemic foci'' in Wyoming, Colorado and Nebraska. While 
these are considered the core endemic areas for CWD (Williams, 2002), 
it has also been found in captive cervids in Colorado, Kansas, Montana, 
Nebraska, Oklahoma, Saskatchewan, and South Dakota. It is documented 
that spillover of CWD into local free-ranging cervid populations has 
probably occurred in at least two locations (Williams, 2002). By 
transporting cervids from an endemic area, one is likely to establish 
more endemic foci, thereby facilitating the spread of the disease into 
new areas (Coon et al., 2002; Williams, 2002). Moratoria on the import 
of some or all cervids have been enacted by Colorado, Connecticut, 
Indiana, Nebraska, New York, Texas, Virginia and Wisconsin; and eight 
states have limited importation by banning canned hunts--one of the 
primary reasons for translocation of cervids--completely. We submit 
that the interstate transport of cervids and other exotic animals kept 
at game farm facilities should be prohibited nation-wide, at least 
until effective control measures, such as reliable ante-mortem 
diagnostic tests and effective vaccination programs, can be developed. 
In our view, USDA's Proposed National Program for Captive Elk is wholly 
inadequate. USDA appears to be operating with the inflexible assumption 
that the business of deer and elk ranching must continue and, given 
that assumption, the department describes a herd certification program 
that is doomed to fail in containing the spread of CWD. We suggest that 
USDA start over in developing a CWD control program, and that the 
department seek input from a variety of experts, including 
disinterested scientists. The current industry document reads like a 
playbook from the game farming industry, which obviously had inordinate 
influence in this document.
    The HSUS also urges better monitoring of the international and 
interstate trade in wildlife. Ranched cervids include both native and 
exotic species and scientists believe it is very likely that many 
species of the cervid family are susceptible to CWD (Williams, 2002). 
Unfortunately, the oversight of exotic mammals falls outside of the 
traditional regulatory jurisdiction of state agriculture departments 
and state fish and game agencies. In short, these animals often fall 
into regulatory limbo at the state level. It is important to monitor 
the transport of all species and subspecies of animals that are 
potential hosts of the disease--whether they are native or exotic.
    I want to take a moment to note that the House and Senate have 
pending legislation--H.R. 3464 by Rep. Sam Farr and S. 1655 by Senator 
Joe Biden--to ban the transport of captive exotics for the purpose of 
being shot in a canned hunting setting--an ethically repugnant and 
unsportsmanlike means of killing animals in guaranteed, ``no kill, no 
pay'' hunts. Concerns about the humane treatment of animals and the 
ethic of fair chase provide ample rationale for enacting this long 
overdue legislation. The disease threats posed by CWD makes the case 
even more compelling and urgent.
Economics and Ethics
    Game ranching has grown dramatically during the last decade, 
principally as an alternative animal husbandry industry. Several 
states, such as Michigan, Minnesota, Pennsylvania, and Wisconsin, have 
hundreds of game farms, where revenue is generated through the sale of 
animal parts, such as velvet or meat, and, in many states, through 
canned hunting arrangements.
    Scientists, such as Dr. Valerius Geist of the University of 
Calgary, have warned for years about the threats posed to wildlife by 
game farms (e.g., Geist, 1995). Dr. Geist has decried that game farms 
represent unbridled commercialization of wildlife, which runs against 
the norms that have dominated wildlife policy in the United States 
developed in the early part of the 20th century; that these operations 
pose disease threats posed to wildlife and the livestock industry; and 
that they contribute to the abuse of animals (Geist, 2002). The HSUS 
warned about the excesses of this industry for the past two decades, 
and these concerns have proved prophetic. This industry does far more 
harm than good in our society. Neither this Congress nor the states 
should subsidize its operations, nor should it support of its 
perpetuation or expansion.
    Taxpayers are footing the bill for crisis management of a problem 
to which the game farm industry has meaningfully and tangibly 
contributed. The Federal Government has also spent millions of taxpayer 
dollars to buy out and bail out these private owners. Their business is 
a risky one, and everybody who invested in it knew the risks. The 
Federal Government and the states have no obligation to rescue them now 
that they have helped spread a major wildlife disease throughout the 
country.
    The people of Montana--mainly hunters--witnessed the state fail to 
address this emerging problem, and took the matter into their own hands 
by qualifying and passing a statewide ballot initiative in November 
2000 to ban canned hunts and to halt the establishment of any new game 
farming operations. A number of other states, such as Wyoming, have 
courageously and persistently resisted the efforts of the industry to 
gain a foothold. The Federal Government should take this cue from the 
people and from foresighted policy makers. It is time to put an end to 
the interstate movement of animals for use in this industry.
    The industry claims it generates millions in economic activity. 
That may be true, but its operations have spawned disease threats that 
have cost millions to address. The costs will climb far higher, as we 
just begin to come to grips with the scope of the problem. Further, the 
spread of CWD threatens industries that generate revenues that dwarf 
the monies produced by game ranches, notably the wildlife watching and 
hunting industries. A columnist with the Denver Post noted, 
``Colorado's 160 domestic elk and deer ranches are, at most, a $44 
million a year industry. So to coddle a $44 million specialty business, 
legislators potentially jeopardized two economic engines worth more 
than $5 billion to Colorado. What business book did these guys read?''
    The Congress will have support for strong action to combat game 
farms from an unusual coalition of animal advocates and rank-in-file 
hunters. Most responsible hunters deplore these canned hunts, which one 
outdoor writer from Colorado recently labeled a ``fish-in-a-barrel 
practice by which pseudo-hunters pay tens of thousands of dollars to 
execute a ``trophy'' animal for the mantle.'' Animal advocates, 
conservationists, and hunters are now mounting a major effort in Oregon 
to outlaw game farms, and I am quite certain that similar interests 
will coalesce in other states.
Authority
    A national trend is emerging whereby authority to manage or license 
captive hunting operations is being wrested from state wildlife 
agencies and turned over to state departments of agriculture (for a 
good example of this in Vermont, see Buck, In press). The stated 
rationale has been that cervids represent alternative livestock 
opportunities for farmers and therefore should be managed by 
departments of agriculture. Advocates of the industry are driving this 
transfer of authority because they recognize that state wildlife 
agencies are carefully examining the disease transmission issues so 
central to this public policy discussion. (Coons et al., 2002). 
Agriculture departments are less sensitive to wildlife disease and 
humane issues than wildlife departments. Thus far, 21 states have 
handed over management of captive cervids to their agriculture 
departments. It is a ``confusing state of management affairs'' given 
that one can find ten different game farm management approaches by 
surveying ten different states (Buck, 2002). This does not make sense 
biologically, economically, or logistically. CWD and wild cervid 
populations do not recognize state boundaries and, as long as some 
states continue to allow the importation of cervids, their neighboring 
states remain at risk. That fact buttresses the case for Federal action 
in halting interstate transport of cervids.
Conclusion
    The Humane Society of the United States urges this Committee to 
take action to prevent further spread of CWD. When risks are 
identified, they should be avoided. With this in mind, we urge a 
nation-wide moratorium on inter-state translocations of cervids, at 
least until more is known about CWD and effective means of its control.
    We believe that it is unreasonable to advance a massive kill of 
wild cervid populations in the absence of compelling scientific 
justification for the effectiveness of this type of action. In addition 
to the questionable efficacy, we are concerned that the majority of 
does killed at this time of the year will be nursing fawns that are 
hidden away some distance from the doe. When nursing mothers are 
killed, these fawns will die from starvation, and their carcasses will 
rot. If the fawns are also infected, this will be an additional major 
contamination factor in the environment, as well as causing enormous 
suffering for the fawns.
    We also suggest severe restrictions on supplemental feeding and 
baiting of cervids as part of an overall effort to reduce direct 
transmission of CWD within wild populations. Finally, we ask that the 
Committee ensure that the management of free-ranging and captive 
cervids return to the jurisdiction of state wildlife agencies, whose 
personnel have the knowledge and expertise to address the movements and 
diseases of wildlife.
References
    Buck, J. In press. Status and management implications for captive 
cervid ranching in the Northeast. 67th Transactions of the North 
American Wildlife and Natural Resources Conference.
    Buck, J. 2002. Status and management implications for captive 
cervid ranching in the Northeast. Paper delivered to the North American 
Wildlife and Natural Resources Conference, Dallas, Texas, April 4.
    Coon, T.G., H. Campa, A.B. Felix, R.B. Peyton, S.R. Winterstein, 
2002. Farming captive cervids: a review of social, economic, and 
ecological opportunities and risks in Michigan and North America. Paper 
delivered to the North American Wildlife and Natural Resources 
Conference, Dallas, Texas, April 4.
    Diez, J. 2002. The Federal role in regulating alternative livestock 
operations. Paper delivered to the North American Wildlife and Natural 
Resources Conference, Dallas, Texas, April 4.
    Geist, V., 2002. Game ranching and the North American System of 
Wildlife Conservation. Paper delivered to the North American Wildlife 
and Natural Resources Conference, Dallas, Texas, April 4.
    Geist, V., 1995. North American Policies of Wildlife Conservation. 
Chapter 3 In: Geist, V. and I. McTaggart Cowan (eds). Wildlife 
Conservation Policy, Detselig, Calgary, Canada.
    Hamir, A.N., R.C. Cutlip, J.M. Miller, E.S. Williams, M.J. Stack, 
M.W. Miller, K.I. O'Rourke, and M.J. Chaplin, 2001. Preliminary 
findings on the experimental transmission of chronic wasting disease 
agent of mule deer to cattle. Journal of Veterinary Diagnostic 
Investigation 134: 91-96.
    Peters, J., J.M. Miller, A.L. Jenny, T.L. Peterson, and K.P. 
Carmichael, 2000. Immunohistochemical diagnosis of chronic wasting 
disease in preclinically affected elk from a captive herd. Journal of 
Veterinary Diagnostic Investigation 12: 579-582.
    Raymond, G.J., A. Bossers, L.D. Raymond, K.I. O'Rourke, L.E. 
McHolland, P.K. Bryant III, M.W. Miller, E.S. Williams, M. Smits, and 
B. Caughey. 2000. Evidence of a molecular barrier limiting 
susceptibility of humans, cattle and sheep to chronic wasting disease. 
EMBO J. 19(17):4425-4430.
    Williams, E. S., 2002. Chronic wasting disease: implications and 
challenges for wildlife managers. Paper delivered to the North American 
Wildlife and Natural Resources Conference, Dallas, Texas, April 4.
    Williams, E.S. and Young, S. 1980. Chronic wasting disease of 
captive mule deer: A spongiform encephalopathy. Journal of Wildlife 
Diseases 16: 89-98.
                                 ______
                                 
    [The response to questions submitted for the record by Mr. 
Pacelle follows:]

            Response to questions submitted by Wayne Pacelle

1) Why do you emphasize the need for a moratorium on game farms and 
        ``canned hunts'' in your testimony?
    The HSUS urges a ban on the interstate movement of deer and elk to 
and from game farms and ``canned hunt'' facilities. It is well 
documented that the incidence of Chronic Wasting Disease (CWD) has been 
prevalent in a number of game farms in the United States and Canada. In 
some captive cervid populations on game farms in North America, 
infection rates have exceeded 50 percent; these are extraordinarily 
high infection rates, and they suggest that the environmental 
conditions on game farms are highly conducive to the onset and spread 
of the infection. Several prominent scientists reason that unusually 
high densities of animals on game farms make the animals particularly 
susceptible to infection. Once the disease infects an individual in a 
captive population, other animals in the setting are likely to be 
infected, given the high densities and confinement.
    Recognizing that CWD has spread to at least nine states and that 
game farms appear to be infection hot spots, a growing number of 
states--including, most recently, Mississippi, North Carolina, Texas 
and Virginia--have adopted policies to ban shipments of deer and elk 
into their states. These states fear that infected animals will be 
introduced and threaten their populations of free-ranging and captive 
cervids. The risks posed by the introduction of CWD through imports 
greatly exceed the benefits provided to a state by importing a small 
number of deer and elk. A nation-wide moratorium on the interstate 
transport of deer and elk is an urgently needed component of a larger 
plan to prevent further spread of CWD.
    While exotic game ranches have not yet had major problems with CWD 
infections, as compared to deer and elk farms, researchers have 
demonstrated that the infective prion has a low species barrier and is 
likely to infect exotic cervids as well as cervids native to North 
America. Exotic deer and elk are transported among states to supply 
exotic game ranches, and these interstate shipments may spread CWD.
    Animal advocates and responsible hunters are highly critical of 
exotic game ranches because of the unsporting and unfair nature of the 
commercial killing and the threats posed to native wildlife by the 
spread of a number of wildlife diseases and by escapes of exotics. 
Voters in Montana approved a November 2000 ballot initiative, 
instigated by hunters, that banned canned hunts and outlawed the 
establishment of any new game farms.
    The Federal Government is spending millions of dollars to control 
and to contain the spread of non-indigenous species. The exotic hunting 
industry has a history of allowing the incidental release of exotics 
and thereby threatening native wildlife, and the industry may also play 
a role in spreading CWD. Let's anticipate and prevent the problem, 
instead of reacting to the problem once it occurs.
    Representative Sam Farr has introduced bipartisan legislation in 
the House to combat half of the problem'the interstate transport of 
exotic mammals, and the CWD threat adds a compelling argument to an 
already overwhelming case for enactment of this measure.
2) Is depopulation necessary? Has it proven an effective strategy?
    If a deer or elk contracts CWD, the animal will die. Because of the 
degenerative effect of the disease, infected animals will suffer before 
they perish. The HSUS, which seeks to prevent animal suffering, wants 
to stem any further spread of CWD.
    That said, we are very skeptical that depopulation strategies 
focused on free-ranging populations can work. On a game farm, it is 
possible to kill all of the animals in a confined setting. But in a 
free-ranging population, with no artificial or natural barriers to 
block emigration or immigration into an area where infected animals 
live or have lived, it will be virtually impossible to conduct an 
extermination program.
    Deer can be elusive animals. It would take a massive investment of 
human labor to identify and shoot all of the deer in a particular area. 
In an area covering hundreds of square miles, an extermination plan is 
almost doomed to fail. What's more, any extermination plan would have 
to be conducted over months, perhaps years, and during that time, deer 
from adjacent areas would immigrate into the newly vacant habitat 
because of the food availability and the lack of competition among 
conspecifics. The degree of difficulty in conducting an extermination 
program is even greater in ecotypes with thick vegetative cover. 
Conducting an extermination program in an arid environment in the West 
is far easier than in one in the East or Midwest that is heavily 
forested and provides abundant deer cover.
    If CWD is identified in a number of regions within a state, the 
task becomes even more logically impossible, with enormous capital and 
labor costs. There will also be other social costs associated with the 
human disruption caused by the number of people required to shoot so 
many animals.
    Extermination is often used in an agricultural environment when 
disease outbreaks occur. In that setting, such plans may be well 
justified in certain circumstances. To apply this same strategy to 
free-ranging wild populations is dangerous and likely to fail.
    Wisconsin is just now launching an intended extermination program, 
and it is too early to make a judgment about its effectiveness. There 
is considerable skepticism among residents of the state that such a 
program will work. Colorado has also launched a regional extermination 
program, and it is too early to make judgments about its effectiveness. 
While these efforts may satisfy the urge to take action in response to 
a very real crisis, we suggest more thought needs to go into ensuring 
that management efforts taken are wise and effective.

    Mr. McInnis. I will begin the questioning. First of all, 
Mr. Pacelle, I am not so sure that you have not confused the 
agendas, your opposition to domestic farming and this 
particular disease. Let me tell you, I do not know anybody that 
takes comfort in going out and wiping out or eradicating the 
deer population. I certainly see no comfort in doing that.
    But prior to the condemnation, using words ``draconian'' 
and ``political response,'' pal, you had better come up with an 
alternative. You cannot ignore the cancer, and in my opinion, 
that is exactly what it is. Now, the fact that it existed for 
hundreds of years, cancer existed for hundreds of years. But 
the fact that it was out there for hundreds of years, we did 
not take the philosophy, well, instead of going in and doing 
surgery and physically removing the cancer, we ought to let 
it--you know, it has been here 100 years. That is a pretty 
draconian effort. So I just want to point that out.
    Mr. Pacelle. Well, I would like--
    Mr. McInnis. Just a second.
    Mr. Pacelle. Sure.
    Mr. McInnis. The live test is absolutely a priority for us. 
I mean, everybody wants a live test. We do not like ratios of 
killing a couple hundred deer and finding one, if we even find 
one. I do not know anyone that does not do that. That is a big 
priority, so I agree with you on that point.
    But let me tell you, in the long run--in the short run, we 
have to sacrifice. We have to eradicate. The only reason we are 
doing that is not for a hunter jamboree. The reason we are 
doing that is that in the long term, we have established, 
healthy--and I stress the word healthy--herds out there.
    Now, the issue of whether or not elk farming should be and 
so on is an issue for another day. Our focus today here is as 
you have heard it.
    Now, very quickly--
    Mr. Pacelle. Mr. Chairman, may I respond briefly?
    Mr. McInnis. In a minute, I will let you.
    In regards to the agencies here, I know you are having a 
meeting in 7 days or so, but I do not want to task force this 
thing and let time go by. I think we have heard agreement 
across the board, not only on the Committee, but with our 
witnesses out there, about, one, State primacy, two, the need 
for funds, and I am interested in the Department of Agriculture 
responses as testified by the committee up here because I 
understand the Department of Agriculture has put money out for 
purchasing of animals and things like that. But this 
coordinated effort is an absolute most and it needs to move 
very quickly.
    Now, I also have another concern out there that is shared 
by Mr. Kind and the Governor of his State, and that is the 
economies of these States and the economies of these ranching 
communities. I have got ranchers out there that are barely 
able--what takes them over the top year to year is the fact 
that they have got hunting. And frankly, in my area, because it 
is such a popular area, the minute they lose the ranches, it 
goes to 35-acre condominium projects. So I have got some 
interest, my own self-motivated interest, in getting a cure.
    Again, I bring to the attention of our agencies, we want 
this a high priority, and I am not trying to hold my bill over 
your head, but the fact is, that is how we got our fire council 
put together finally between the agencies. So I hope we get 
rapid response on that.
    Dr. Zebarth, your testimony was appreciated. Obviously, it 
has devastated your industry in those particular States. It is 
not a particularly lucrative industry anyway, and I can tell 
you that with the elk breeders in Colorado, we have received 
nothing but cooperation. Obviously, they are concerned. We have 
disputes as to what the animals are worth and things like that, 
but overall, we all agree we have all got the same focus in 
mind and that is very helpful.
    Mr. Pacelle, I will give you a couple seconds here and then 
I will move on.
    Mr. Pacelle. Thank you very much. Mr. Chairman, we all 
agree that eradication, killing many animals, especially 
healthy animals, is not a favorable course of action. We all 
agree on that point. My question is not to the idea that we 
want to get at this problem but whether that is a worthy 
response and whether it will be effective. So I would urge you 
to look at my testimony, which lays it out a little more 
carefully.
    But also, I do think the issue of elk and deer ranching is 
a very salient issue. This is the way that--how did this get 
into Wisconsin? These animals are being transported across the 
country. Game farms have been identified as the main areas 
where CWD has been present, and many population ecologists, 
biologists, and the hunting community have castigated the game 
farm industry. Montana hunters led a ballot initiative which 
the Rocky Mountain Elk Foundation supported to ban the 
establishment of new game farms for the very reason--
    Mr. McInnis. Mr. Pacelle, I said a minute and you are 
taking advantage of the time.
    Mr. Pacelle. OK. Thank you.
    Mr. McInnis. Mr. Zebarth, let me respond very quickly. I 
should point out, Mr. Pacelle, that earlier in your testimony, 
you referred to Dr. Miller's testimony about the fact it has 
been around for hundreds or years, or possibly could be around. 
Elk breeders have not been around for that period of time, to 
the best of my knowledge, commercial elk farming.
    Mr. Pacelle. Right.
    Mr. McInnis. So it did not necessarily bring that in. But I 
think, in fairness, Mr. Zebarth, you should respond to that. 
But again, I want to run the time because I want Mr. Kind to 
have an opportunity to raise questions.
    Dr. Zebarth. In the case of Wisconsin, in the area where 
the wild white-tailed deer were found, there is one farm 
facility. That facility has never had CWD, has not received 
animals from a CWD-positive herd. In the sampling course that 
was done in a ten-mile radius circle around there, there was an 
emphasis of depopulating free-ranging white-tailed deer in the 
neighborhood of that facility. All the white-tailed deer that 
were depopulated close to that farm facility were negative. The 
deer that were positive were in the northern half of that 
depopulation zone. There is not any scientific evidence that 
the case in Wisconsin came from that farm facility or from any 
farm facility.
    In regard to the question or comment that was made earlier 
about the animals that had come from infected herds into 
Wisconsin, the program that is in place, USDA-APHIS's program, 
follows trace outs. Those animals were followed, depopulated, 
and were negative. Thank you.
    Mr. McInnis. Again, let me stress to our guests today and 
to the Committee, of course, we want live testing, and to me, 
that is one of the highest priorities we can do, is get into 
that live testing. That will give us all a great deal of 
comfort if we can just figure it out.
    Mr. Kind?
    Mr. Kind. Thank you, Mr. Chairman. I want to thank the 
witnesses again for your patience and your testimony here 
today.
    Let me just reiterate what Mr. Zebarth has testified to. 
Yes, there is no known case of an imported infected elk 
infecting the herds in Wisconsin, but it is still deeply 
troubling to hear reports that the State over the last few 
years was still importing live elk from out West in known 
infected herds. That is troubling, that the State of Wisconsin 
was still allowing that to occur when warning bells were being 
signaled and that.
    I understand now the State has passed a new law that 
prohibits the importation of either live elk or deer from 
abroad unless they meet a 5-year certification requirement as 
far as the surveillance and the monitoring, and I think that is 
a positive step forward.
    Dr. Butler, I was hoping you could shed a little bit of 
light on information we received from Chris Smith, who is 
Congressional Liaison, USDA, in response to a request the 
Wisconsin delegation made to USDA about 2 months ago, and that 
was for some assistance in the emergency discretionary fund 
under CCC to deal with the urgency that exists in the State and 
the rising expenses that we are dealing with the State, as 
well.
    I do not know if you have been informed, but we received a 
message from Mr. Smith last night that USDA would be denying 
our request, which is very disappointing and very troubling in 
the fact that we already have an authorized and appropriated 
program set up ostensibly for this purpose, and yet the USDA is 
denying our request, forcing, I think, individual members to 
have to go through the appropriation bills through line items 
at a time when the Administration is chastising Congress to 
hold the lid on line items and add-ons with these bills. If you 
have some information, I would be happy to be enlightened about 
that decision.
    Mr. Butler. Thank you, Mr. Kind. I do have minimal 
information and will certainly take back the comments from the 
Committee this morning of all the dialog and increase the 
intensity of our discussions within the Department and try to 
work with you in any way that we can. This is a serious issue 
not only for your State but for all the States represented 
here.
    Mr. Kind. I appreciate that and we will follow up, 
obviously, because it has just been a phone conversation, no 
written word yet, so we will have to do that.
    Mr. Groat, I appreciate your attendance and testimony, too, 
and I commend your agency for the work that you have done in 
this area already, the expertise that you are building up. In 
fact, I am familiar with some of the things going on with 
USGS's lab, the Wildlife Health Center located in Madison, in 
development of a live diagnostic test. I wonder if you could 
inform the Committee today in regards to where we are in 
developing a live test for CWD and how much longer we are going 
to have to wait before we have something reliable.
    Mr. Groat. Well, I think the live test you refer to is the 
tonsil test, which does allow sampling of an animal and 
returning it to a healthy state while we wait for the period to 
determine whether or not the animal is infected. The problem 
with that test is that it takes a number of days and a period 
of time to determine whether it is or not, and then if it is, 
if you have not got some way of finding it, you have got a 
problem.
    So the real emphasis on finding a live test that is both 
quick and efficient, as the Chairman pointed out, is extremely 
critical in all of this from a management point of view and 
from a health point of view.
    I wish I could report to you that there are large leaps of 
progress being made in developing new live tests. I know, as 
others have pointed out, that there is a lot of interest in 
this and efforts going on, and perhaps the symposia that have 
been discussed here where the workers get together and can 
share their knowledge and look in the most fruitful directions 
to go will give us some early indications of where that needs 
to go. But it is clearly an extremely high priority for us in 
the free-ranging populations as well as those that are 
concerned about farm populations.
    Mr. Kind. Thank you, and we will look forward to working 
with you and obviously with the USDA, too, as we try to develop 
a comprehensive approach to this issue. I think it is going to 
be very important that we mesh some of the things that are 
being done right now, but on a much more comprehensive and 
collaborative scale.
    Mr. Butler, back to you again. Do we know right now where 
all the farm-captive herds are from State to State, the exact 
location of all those captive herds? Do we have that 
information?
    Mr. Butler. I do not think we do, but we can request that 
information through the State departments, and I do think 
different States have different tracking mechanisms, but I am 
not certain we do at the Department.
    Mr. Kind. OK. I think that, too, may be an important step, 
just to get some baseline data here in the location of it, what 
States have already set up, because I have a feeling as we get 
into this, there is kind of a hodge-podge of laws being created 
from State to State right now and we need to find out what 
works and what makes sense, but without preempting what States 
are attempting to do.
    I am scared like everyone else is in regards to some of the 
reports in Wisconsin, the potential of this disease and the 
whole herd kill-offs that are being proposed, Mr. Pacelle, but 
I think Mr. McInnis raises a very salient question. If not 
this, then what? This is a very serious issue and I think there 
is a lot of science here that we are just scratching the 
surface on in regards to the spread of this disease, how it is 
contracted, how it is transmitted, the environmental 
contamination that Mr. Osborne raised today, too, and whether 
or not just slaughtering tens of thousands of deer is really 
the best approach and the safest and most practical way of 
doing it. But until we have some plausible alternatives, some 
suggestions, I think that is going to be, by and large, the 
response we are going to see.
    Mr. Pacelle. I wonder if it could even be done 
successfully, in the sense that you can eradicate a population.
    Mr. Kind. That is what I was really trying to get to with 
my Governor, is when the shooting starts, I know that the deer 
run and they spread and whether this is going to compound the 
problem rather than alleviate it, because we are not talking 
about captive herds. We are talking wildlife animals that are 
out in the free already.
    Thank you again, Mr. Chairman, for your indulgence and for 
holding this hearing today. I appreciate it.
    Mr. McInnis. Thank you, Mr. Kind. I also thank the members 
of your State, your Congressional delegation. They have been 
very helpful in regards to this.
    Mr. Tancredo?
    Mr. Tancredo. Thank you, Mr. Chairman. I apologize for not 
being able to be here during the live testimony.
    My questions would be really centered in one particular 
area, and so perhaps the gentleman from the Park Service could 
respond. Are you Mr. Jones?
    Mr. Jones. Yes, sir.
    Mr. Tancredo. Mr. Jones, I understand that in testimony 
earlier, when the question was raised of how, in fact, these 
infected animals are treated and how the parks treat this 
issue, that someone stated that animals were killed when they 
exhibited symptoms. But, of course, this does not--I mean, in 
light of all the testimony we have had today and the fact that 
it seems to us, or at least it is becoming apparent that the 
only way to handle this is with an aggressive treatment, which 
means depopulation, how does this fit? How does this concept of 
only dealing with an animal when it has exhibited symptoms fit 
with the idea that we have to depopulate the herd from which it 
came?
    Mr. Jones. I am not sure the full answer is depopulation. I 
am certainly not a biologist or a veterinarian. But I think the 
generic question you ask is a very valid one. What we need to 
do, though, is a comprehensive Chronic Wasting Disease in deer 
and elk management plan for lands including Rocky Mountain 
National Park. We have talked to the State of Colorado about 
that and that this plan would be developed in full partnership 
with them.
    Certainly, the history of the National Park Service, 
because of the body of laws that are unique to the National 
Park System for the preservation of wildlife, unfortunately 
comes with that a bigger burden for both planning, bureaucracy, 
and compliance issues, because we also have attracted over the 
years a long history of lawsuits related to wildlife management 
in national parks.
    So our approach in this case, in asking to do a 
comprehensive plan in cooperation with the State, is to take a 
few months, be deliberative, and, therefore, also hope not 
being in court for several years.
    Mr. Tancredo. I have no doubt that you will be roundly 
condemned for whichever decision you make.
    Mr. Jones. That is a fair assessment, sir.
    [Laughter.]
    Mr. Tancredo. But you should be used to that by now, so we 
have to go ahead and make what we believe to be the right 
decision and let the devil take the highmost.
    The Park Service classification of exotic disease, if that 
fits, I mean, can you use that description and would that give 
you greater latitude if, in fact, you--
    Mr. Jones. Yes, sir, in the case of Chronic Wasting 
Disease, just as we do in the case of rabies, we do consider 
this an exotic disease and, therefore, are pursuing our 
management policies under that concept.
    Mr. Tancredo. So that fits with the policy to just destroy 
the animal with the symptom.
    Mr. Jones. Actually, it also fits with expanding to do a 
more comprehensive plan that addresses trying to eradicate the 
disease in the park.
    Mr. Tancredo. It allows it or does it require it? If you 
classify something as an exotic disease, are you required to 
take certain measures beyond--
    Mr. Jones. I think the case certainly could be made that it 
would require us to do that, yes, sir.
    Mr. Tancredo. I guess I am confused. You have classified 
Chronic Wasting Disease as an exotic disease or you have not?
    Mr. Jones. Absent any other information to the contrary, 
from a management perspective, we consider it an exotic 
disease, not a natural disease. Therefore, we are committed--we 
share the concern, especially in a disease like this that has 
implications far beyond national park boundaries and, 
therefore, we do take it seriously. For example, and Mr. 
Chairman, I really commend you for holding this hearing because 
the attention you brought to the issue has, shall we say, 
facilitated the decisionmaking process on funding issues. So, 
for example, the National Park Service has committed an 
additional $1.2 million to expand the research and to help 
develop a management plan to address these issues.
    Mr. Tancredo. Thank you very much.
    Mr. McInnis. Thank you, Mr. Tancredo.
    I want to thank the panel. I think today's hearing--let me 
explain for those of you that are new to Congressional 
hearings. Unfortunately, because of the compression of time, we 
have numerous conflicts. The fact that we had the attendance 
that we did this morning was really a pretty good showing for a 
committee hearing. That is not the standard attendance.
    However, what is critical here is not just the fact that 
the Committee members are present to hear you and have these 
discussions. Getting these things onto the record is very 
important and it is also well covered by the press, who I have 
found the majority of times have been very responsible in 
regards to that.
    So I do not want you to be frustrated by the fact that just 
Mr. Tancredo and I are left up here on the panel. The message 
is clear, I hope from our direction to you, and the information 
and knowledge that you have given from your direction to us has 
been most helpful this morning.
    So I thank the panel. I thank all the participants who 
appeared today and the Committee now stands in adjournment.
    [Whereupon, at 1 p.m., the Subcommittees were adjourned.]

    The following information was submitted for the record:
    <bullet> LBastian, Frank Owen, M.D., Tulane University 
Health Science Center, Statement submitted for the record
    <bullet> LHart, Jerry, Arvada, Colorado, Letter submitted 
for the record
    <bullet> LKrut, Steve, Executive Director, American 
Association of Meat Processors, Letter submitted for the record
    <bullet> LLundquist, Ronald, President, Colorado 
Sportsmen's Coalition, Letter submitted for the record
    <bullet> LMap of Chronic Wasting Disease in North America 
submitted for the record
    <bullet> LSouthwick, Charles H., M.S., Ph.D., Professor 
Emeritus, Environmental., Population and Organismic Biology, 
University of Colorado, Statement submitted for the record
    <bullet> LSchad, Mark P., President, Ohio Association of 
Meat Processors, Director at Large, American Association of 
Meat Processors, Letter submitted for the record
    <bullet> LSteele, Dick, DVM, President, Colorado 
Sportsmen's Wildlife Fund, and President, Western Colorado 
Sportsmen's Council, Letter submitted for the record
    <bullet> LYoung, John, DVM, President, Colorado Veterinary 
Medical Association, Letter submitted for the record

    [A statement submitted for the record by Mr. Bastian 
follows:]

Statement of Frank Owen Bastian, M.D., Tulane University Health Science 
                                 Center

INTRODUCTION:
    I appreciate the opportunity to participate in this hearing of the 
Subcommittee on Forests and Forest Health: House Committee on Resources 
regarding the need for funding for Research, Surveillance and finding a 
cure for Chronic Wasting Disease (CWD). I am a Neuropathologist and 
have spent most of my professional career (over 25 years) searching for 
the cause of Creutzfeldt-Jakob Disease (CJD) and the other 
Transmissible Spongiform Encephalopathies (TSE), of which CWD is the 
manifestation of the same disease in deer and elk. I have outlined the 
need for a more diversified research effort and for additional 
governmental funding in a number of TSE symposia, in a monograph 
entitled ``Creutzfeldt-Jakob Disease and Other Transmissible Spongiform 
Encephalopathes'' published in 1991 (Mosby/YearBook), and in Testimony 
given before the house committee on Government Reform and Oversight 
(January 1997). I currently am funded by the NINDS to continue my 
studies that have linked a bacterium, Spiroplasma mirum, to CJD and the 
other TSE's. In this testimony I will deal with the problems associated 
with CWD, and my evidence for the presence of Spiroplasma in TSE-
infected cases, which could lead to other strategies for handling the 
CWD problem
BACKGROUND:
    The TSE's are infectious diseases of animals and humans, wherein 
the infectious filterable agent causes the brains to turn into a spongy 
state associated with rapid clinical neurological deterioration. 
Patients afflicted with CJD (the human form of TSE) die within a few 
months of onset of clinical signs. TSE is uniformly fatal in both human 
and animal infections. TSE in animal populations are represented by 
scrapie (in sheep and goats), transmissible mink encephalopathy, bovine 
spongiform encephalopathy (BSE or 'Mad Cow Disease'), and CWD in deer 
and elk. We have had scattered flocks of sheep afflicted with scrapie 
in this country, but BSE has not been reported. CJD occurs sporadically 
throughout the United States with usually 3 to 4 cases per year in a 
city the size of Mobile, Alabama. I suspect that the true incidence of 
CJD is more like 1 per 100,000 rather than the 1 per million incidences 
adhered to by the CDC. This discrepancy in CJD numbers is due to more 
awareness of these diseases among clinicians and pathologists.
    The emergence of new variant of CJD disease in the UK in 1996 
raised a new set of issues. Teenagers were dying of CJD, which is 
unusual since sporadic cases of CJD usually occur in older people- 40 
to 80 years of age. Furthermore, the neuropathology of this so-called 
new variant CJD (nvCJD) indicated evidence of a more virulent form of 
the TSE agent, in that it produced a ``florid'' amyloid plaque. Serial 
passage of Sporadic CJD tissue in experimental animals produces this 
identical plaque along with a shortened incubation. This more virulent 
form of TSE agent probably evolved in the UK from the practice of 
feeding cattle feed contaminated with TSE-infected animal parts. This 
adaptation or mutation of the agent implies that the TSE agent 
possesses nucleic acid as its replicative machinery. CWD is 
particularly worrisome because the neuropathology in the infected deer 
shows the presence of the same ``florid'' amyloid plaque, which implies 
that CWD is akin to a more virulent form of the TSE agent. It is 
particularly disturbing that CWD is currently rapidly spreading through 
the Western States and presents a serious threat to the wild deer 
population throughout the United States.
HANDLING THE CWD PROBLEM:
    The goal of the committee in dealing with CWD is admirable in 
establishing a surveillance system and finding a cure. However, there 
are major impediments to those goals. Firstly, the identity of the 
agent has not been established. As a result, there is no pre-clinical 
diagnostic test. Therefore, we know very little about the epidemiology 
of CWD. We have no idea how the disease is transmitted or what the 
distribution of the CWD agent is in nature. We don't even know what 
tissues or secretions from the infected deer are infectious. Since the 
prion theory was proposed in 1982, there have been few studies of TSE 
animal models. I will deal with the goals proposed by the committee in 
this section.
1. NEED FOR RESEARCH:
    The problem in dealing with CWD is that we know very little about 
the pathogenesis of this disease. The identity of the agent has not 
been resolved even though there has been extensive search. We do know, 
from experiments with scrapie, that the agent is uniquely resistant to 
fixatives, heat and radiation unlike known pathogens of disease. This 
has led to a bizarre theory that the agent is a replicating protein. A 
small molecular weight protein, referred to as the prion, accumulates 
in the TSE tissues and is protease resistant. However, there is 
evidence that this protein is likely a reaction product since it does 
not correlate with levels of infectivity. In some instances (5 to 15% 
of CJD cases) the prion does not accumulate. Purified preparations of 
the prion are not infective. Careful review of the data has indicated 
that most of the TSE agent is killed by boiling and fixatives. Only a 
tiny population of the agent survives suggesting alternative 
explanations such as alternate forms of bacteria.
    My research has uncovered evidence of the association of a 
bacterium, Spiroplasma mirum, with the TSE's. In 1976, I found by 
electron microscopy an inclusion within the brain of a patient with CJD 
that closely resembled a newly described bacterium seen primarily in 
insects and associated with plant diseases. I subsequently studied the 
neuropathology of experimental Spiroplasma infection in rats and showed 
that Spiroplasma induced a spongiform alteration of the rat brain 
identical to the spongiform change seen in CJD and the other TSE's. In 
1981, a unique fibril protein was found in protease-treated scrapie-
infected brains, referred to as scrapie-associated fibrils (SAF). SAF 
is seen only in association with TSE infection and are different from 
the ``prion''. SAF appears to correlate directly with scrapie-
infectivity. If you treat Spiroplasma broth cultures with proteases, 
you will find within the bacterium a core of fibrils identical to SAF. 
These Spiroplasma fibrils are seen only in this microbe and not within 
any other bacteria. Based upon this evidence, I obtained antiserum 
specific to scrapie and showed by Western Blot, that Spiroplasma 
proteins cross-react with scrapie antiserum. More recently, I have 
shown the presence of Spiroplasma DNA in CJD-infected human brains and 
in scrapie-infected sheep brain, but not in controls. These data 
represent direct evidence for the association of Spiroplasma with the 
TSE's.
    I propose that Spiroplasma is likely the causal agent and that the 
prion is simply a reaction product, possibly serving as a mechanism for 
hiding from the immune system. If so, more research is needed to study 
the role of Spiroplasma in the pathogenesis of CWD. We should be able, 
through study of the DNA findings, to characterize the different 
strains of the agent. The relatedness between the agent of CWD to the 
other TSE's should easily be determined and may give some clue as to 
the source of the infection.
    Unfortunately, most research monies have been dedicated to prion 
research, with funding essentially controlled by prion advocates and 
limited to 5 or 6 laboratories in the United States. More money is 
needed to fund a more diversified approach. Currently, only $ 20 
million is dedicated to TSE research in this country and the bulk of 
that ($ 14 million) goes to one laboratory. As I stated in my prior 
testimony, it is essential to encourage more unbiased researchers into 
the field, and that goal can only be accomplished by providing more 
funding opportunities. Therefore, we have to remove the control of 
government funding exercised by the prion advocates. A year ago, 
Senator Hatch's office proposed a commission to oversee research 
efforts for TSE's. Governmental officials in charge of TSE in this 
country quickly stated that they had everything under control and that 
there was no need for a commission. Obviously they were wrong and there 
is a need for new direction in dealing with this potentially dangerous 
situation.
2. THE NEED FOR SURVEILLANCE:
    The second goal of the committee is dependent upon the development 
of a pre-clinical diagnostic test, which currently is not available. 
Again, the problem is that the agent has not been conclusively 
identified and, therefore, it has been impossible to study the 
epidemiology of CWD. It is becoming apparent that many more animals are 
infected than clinically evident. There are reports of sheep flocks 
developing clinical scrapie in one animal, but when all the flock is 
killed and examined, several other animals carry the disease by 
examination of tissues. This experience has been noted in examination 
of CWD-infected deer and elk populations. Recent experiments that have 
shown that hay mites contain the scrapie agent, suggesting that a 
vector may be involved. Indeed, when a deer penned with other animals 
comes down with CWD, all the animals in the pen develop the disease, 
suggesting the work of a vector or exposure to secretions or excrement. 
Older experiments done in the 1960's have shown evidence of lateral 
transmission of scrapie in rodents, which supports this concept.
    Even though the identification of the transmissible agent is not 
solved, all governmental funding for development of a test has been 
limited to studies involving prion detection. The rationale for that 
approach is flawed since 1) the prion appears to be a late 
manifestation in the disease process; 2) there is evidence that the 
prion is not the agent; and 3) the prion is not present in a 
significant number of TSE cases. Furthermore, most detection methods 
for the prion are complex and not practical for use as a screening 
method. I propose that detection methods for Spiroplasma in the TSE's 
would involve a strategy, which could lead to practical low cost 
methodology. Methods would involve both a sensitive DNA test of 
peripheral blood and a screening of antibodies in blood or spinal fluid 
using ELISA methodology. Using the bacterial probe should allow 
resolving some of the questions regarding the distribution of the 
punitive bacterium in nature. We could determine whether there is a 
link between CWD and the recent deaths of young people in Colorado from 
CJD.
3. FINDING A CURE:
    The recent reports of response of experimental scrapie infection to 
tetracyclines raises the question whether an antibiotic treatment is 
feasible for CWD. Our experience with experimental Spiroplasma 
infection in vitro is that the bacterium is resistant to all 
antibiotics except tetracycline. Perhaps a bactericidal antibiotic 
could be developed for attacking this CWD agent. Another approach would 
be to follow-up on the immune cross-reactivity of Spiroplasma proteins 
with scrapie and develop a vaccine that would be effective in 
preventing TSE infection.
CONCLUSION:
    As in my prior testimony on TSE's in 1997, I have recommended more 
funding for investigation of CWD. The CWD problem is at a critical 
point and requires a broad research approach looking for alternative 
agents. The current actions of the USDA of depopulation will not work 
in the long run and we need a more defined plan of action. Hopefully, 
the committee will consider setting up a commission of scientists and 
informed lay people to oversee the attempt to stop this deadly scourge.
                                 ______
                                 
    [A letter submitted for the record by Mr. Hart follows:]
May 10, 2002

THE HONORABLE SCOTT McINNIS
THE UNITED STATES HOUSE OF REPRESENTATIVES
215 CANNON HOUSE OFFICE BLDG.
WASHINGTON, D.C. 20515

DEAR REPRESENTATIVE McINNIS,

    I HAVE BEEN ADVISED THAT YOU WILL BE CONDUCTING A HEARING ON 
CHRONIC WASTING DISEASE ON MAY 16 AND THE WRITTEN COMMENTS WILL BE 
ACCEPTED. I WOULD LIKE TO SUBMIT THE FOLLOWING COMMENTS FOR 
CONSIDERATION.
    GOVERNOR OWENS HAS INITIATED AN AGGRESSIVE PROGRAM TO PREVENT THE 
SPREAD OF CWD IN WESTERN COLORADO AND COMMITTED TO AN AGGRESSIVE 
MANAGEMENT PROGRAM IN THE ENDEMIC AREA.
    ALTHOUGH COLORADO IS THE EPICENTER OF THE ENDEMIC AREA FOR CHRONIC 
WASTING DISEASE, MANAGEMENT OF CWD CAN NO LONGER BE A ``STATE ISSUE''. 
CWD HAS BEEN IDENTIFIED IN MULTIPLE STATES, CANADA AND OTHER COUNTRIES. 
IT WILL NOW REQUIRE PARTICIPATION AND COORDINATION AT THE FEDERAL LEVEL 
BY DEPARTMENT OF AGRICULTURE, THE FOOD AND DRUG ADMINISTRATION, THE 
CENTER FOR DISEASE CONTROL AND THE US FISH AND WILDLIFE SERVICE.
    THEREFORE I AM REQUESTING THAT AN ADVISORY BOARD CONSISTING OF 
REPRESENTATIVES FROM THOSE AGENCIES BE ESTABLISHED TO COORDINATE 
EFFORTS IN RESEARCH, MONITORING AND MANAGEMENT OF CWD. THIS COMMITTEE 
WOULD PROVIDE INPUT TO CONGRESS ON THE NEEDS FOR FUNDING AND 
LEGISLATION REQUIRED TO CONTROL THE SPREAD OF CWD AND TO ENSURE THAT 
THE POTENTIAL FOR SPECIES CROSSOVER IS MINIMIZED.
    I AM AWARE THAT THE DEPT. OF AGRICULTURE PRESENTLY MAINTAINS THE 
RECORDS ON THE MOVEMENT OF ALTERNATIVE LIVESTOCK (CAPTIVE WILDLIFE), 
AND THAT THEY ALSO HAVE OVERSIGHT ON ANIMAL PROCESSING PLANTS. 
PROCESSING PLANTS PRESENT A SIGNIFICANT POTENTIAL SITE FOR SPECIES 
CROSSOVER OF CWD TO HUMANS AND OTHER LIVESTOCK.
    IT IS ABSOLUTELY ESSENTIAL THAT CWD AND OTHER TRANSMISSIBLE 
ENCEPHALOPATHIES AND THE FACTORS RESTRICTING SPECIES CROSSOVER BE 
CONDUCTED IN A COORDINATED PROCESS. I AM NOT SUGGESTING THAT RESEARCH 
BE RESTRICTED, BUT THAT THE INFORMATION ON RESEARCH THAT IS BEING 
CONDUCTED AND THE INFORMATION FROM THAT RESEARCH BE DIRECTED TO A 
CENTRAL REPOSITORY.
    BEFORE RESEARCH ON CWD, TSE's AND PRIONS CAN EVEN BE PUBLISHED; NEW 
INFORMATION IS EMERGING. THE RAPIDLY CHANGING INFORMATION CLEARLY 
INDICATES THAT WE CAN NO LONGER RELY ON THE OLD SAW ``THERE IS NO 
EVIDENCE THAT'' TO DEFINE THE RISKS ASSOCIATED WITH TSE's. AS WAS BEST 
STATED IN ONE PAPER I SAW, ``ABSENCE OF PROOF IS NOT PROOF OF 
ABSENCE''.
    ACCEPTABLE RISK LEVELS FOR ENDEMIC AREAS, TSE's AND PRIONS MUST BE 
ESTABLISHED BASED ON THE MOST CURRENT AND BEST SCIENTIFIC INFORMATION 
THAT CAN BE OBTAINED. RISK LEVELS MUST BE ESTABLISHED FOR PUBLIC 
PROCESSING PLANTS THAT ACCEPT DEER AND ELK FROM THE WILD OR FROM 
CAPTIVE WILDLIFE SOURCES. IF AN INDIVIDUAL MAKES A WELL INFORMED CHOICE 
TO CONSUME DEER OR ELK FROM HUNTING OR FROM CAPTIVE WILDLIFE SOURCES 
THAT IS A CHOICE. ALLOWING ANY POTENTIALLY INFECTED ANIMALS TO BE 
PROCESSED IN A PUBLIC PROCESSING PLANT WHERE INDIVIDUALS UTILIZE THOSE 
FACILITIES FROM OTHER SOURCES DOES NOT ALLOW THAT CHOICE. THAT RISK 
MUST BE EVALUATED AND REASONABLE RESTRICTIONS CONSIDERED.
    FEDERAL FUNDING AND LEGISLATION WILL BE ESSENTIAL TO THE 
DEVELOPMENT OF ADEQUATE PROGRAMS TO ENSURE THAT PUBLIC HEALTH AND 
LIVESTOCK PROTECTION WILL NOT BE JEOPARDIZED BY TSE's IN ANY FORM. THAT 
MAY REQUIRE FUNDING FOR RESEARCH AND DEPOPULATION OF CAPTIVE OR WILD 
ANIMALS.
    CWD IS NOW A NATIONAL AND AN INTERNATIONAL ISSUE AND CANNOT BE 
ADDRESSED BY INDIVIDUAL STATES. THE POTENTIAL THREAT TO HUMAN HEALTH 
AND DEER AND ELK CANNOT BE ALLOWED TO BECOME AN INIMBYY. IT'S NOT IN MY 
BACK YARD YET!
    THANK YOU FOR THE OPPORTUNITY TO PROVIDE COMMENTS ON THIS ISSUE.

SINCERELY,

JERRY HART
7336 BEECH COURT
ARVADA, CO. 80005
303-420-5517
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="167c7364647e77646256776262747f3875797b">[email&#160;protected]</a>
                                 ______
                                 
    [A letter submitted for the record by Mr. Krut follows:]

May 10, 2002

Mr. Josh Penry
Majority Staff Director
Subcommittee on Forests & Forest Health
1337 Longworth House Office Building
Washington, D.C. 20515

Dear Mr. Penry:

    In light of the Subcommittee's May 16 hearing on Chronic Wasting 
Disease and efforts to deal with it, the American Association of Meat 
Processors (AAMP) wishes to make several points concerning the issue. 
AAMP represents approximately 1,700 meat processing firms and their 
suppliers throughout the United States and Canada. The majority of 
these businesses are small and very dependent on the processing of deer 
and elk for their continued existence.
    AAMP estimates that big game processing is a critical part of the 
business in at least 50% of the 7,500 facilities operating under USDA 
inspection or jurisdiction and nearly all of the 2,500 firms operating 
under state meat inspection programs.
    It is significant that many of these small meat processing 
operations are also sustained in the non-hunting months by the custom 
processing of cattle, swine, sheep, buffalo and ratites for the owners 
of those animals, namely farmers and ranchers, for their own use. Large 
packing houses do not accept these privately owned animals that are 
slaughtered and processed as ``not for sale.'' Should these small 
processing houses be closed, it could have a devastating impact on 
small family farms and animal agriculture in general.
    It is clear that these firms conduct game processing activities 
from late August into the spring months, when sausage and other 
specialty products are produced from elk or deer meat. If these seasons 
were totally curtailed, they would be unable to keep employees, pay on 
equipment, facilities and other overhead items. For most, their 
facility is their retirement.
    Funding for research into ways to prevent or eliminate the spread 
of CWD is vital. Most plant operators realize that if unfounded and 
unscientific scares about CWD being transmitted to humans become 
rampant in the media, it could destroy their customer base. Even states 
without positive CWD animals could suffer the consequences in a media-
generated panic.
    Compounding the problem is the fact that many sportsmen go to other 
states to hunt deer and elk and bring them back to their own states for 
processing. Thus, a firm in a non-CWD state could also be hurt by this 
disease.
    A high percentage of hunters want specialty products, such as 
sausage, snack sticks, bolognas, or jerky items made from their elk or 
deer meat. Often the meat from several animals must be ground at the 
same time, in a ``batching'' of raw materials. Otherwise, it would be 
necessary to stop and do a complete cleanup of facilities and equipment 
for every animal brought in, which would render the processing too 
costly for consumers. Likewise, a large percentage of hunters are 
unable to handle the cooling, processing and wrapping of their meats in 
a safe manner, either through lack of skills or unavailability of 
necessary facilities, including hot water, seasoning controls, 
unawareness of other animal diseases, blast freezing chambers, proper 
packaging and wraps, and lack of understanding about proper cooking and 
curing temperatures and durations.
    Offal disposal, including bones, trimmings, heads, spinal column 
materials, is a nightmare for individuals. It is also a key problem for 
small processors when an increasing number of rendering firms refuse to 
collect this material, either through fear of CWD in the material or 
the economics of picking up in rural locations.
    Small game processing facilities are unable to obtain insurance to 
cover ``loss of business'' for a disease like CWD, public fears of CWD, 
or eradication efforts that eliminate wild or farmed deer and elk 
herds. Carriers designate this as an ``act of God'' any either deny or 
do not offer coverage.
    AAMP members and those non-members who conduct game processing 
operations do not have testing facilities. Few have excessive storage 
capacity for game animals, meaning that they may not be able to hold 
animals for hunters until test results for CWD are made known. In some 
instances, they may not want to accept any animal without knowing where 
it was taken or that it tested negative for CWD.
    They are very concerned about hunters who drop off their animals 
and refuse to pick them up without paying for processing costs, 
materials, labor, seasonings, equipment use and wrapping. If one animal 
arriving at a processing plant tests positive for CWD, they are fearful 
that all animals brought to that plant could be abandoned by the 
hunters. They are hoping for some indemnification for this loss if it 
is caused by CWD scares.
    These plant owners want to do the right thing and to cooperate with 
scientific and government agencies. But they may need financial help if 
the demands of prevent- ive or eradication efforts put them in a plant 
closing mode. They may not know how long a restoration to normalcy will 
take, or if things will every return to normal.
    There are thousands of what our industry calls ``shade tree'' 
butchers who work out of garages, corn cribs, or in the open 
environment. They often lack basic sanitation training, hot water, 
adequate cooling and storage facilities, and curing know-how.
    They often undercut legitimate processors in price since they have 
no overhead, pay no taxes, and are not inspected. As a seasonal 
enterprise, they often operate unknown to the authorities. If actions 
to deal with CWD are too onerous for established processors and they 
are forced to close, there will be little left except for these black 
market operations. From a food safety standpoint, that is a option that 
neither the Subcommittee nor other official agencies should exercise.
    AAMP and its member deer and elk processors stand willing to meet 
with the Subcommittee or other government agencies to further explain 
their concerns and work toward positive and effective solutions. If 
additional hearings are scheduled, we hope you would find time to hear 
the personal concerns of those in this important part of our hunting 
infrastructure.
    Thank you for your consideration and best wishes in your 
deliberations.

Steve Krut
Executive Director
                                 ______
                                 
    [A letter submitted for the record by Mr. Lundquist 
follows:]

May 13, 2002

Josh Penry
Majority Staff Director
Subcommittee on Forests and Forest Health
House Committee on Resources
1337 LHOB
Washington, DC 20515

Reference: Federal Government Involvement in Chronic Wasting Disease

Dear Mr. Penry:

    We believe that the key to controlling and eventually eliminating 
Chronic Wasting Disease is to stop transmission of the disease. We 
understand that the disease is transmitted through animal-to-animal 
contact and ingesting CWD contaminated food, etc. The expansion of CWD 
outside of the endemic area in Colorado and Wyoming appear to have 
resulted from infected captive animals transmitting the disease to the 
wild animals.
    Based on this understanding, we recommend that the containment and 
elimination of CWD will require concerted efforts on these fronts:
    <bullet>LLStopping the 35-year expansion of the epidemic area in 
Colorado and Wyoming;
    <bullet>LLStopping expansion of recently infected areas in 
Wisconsin, and Craig, Colorado
    <bullet>LLStopping infection of wild herds of deer and elk 
resulting from infected captive animals and contaminated lands.
    The only method to eliminate the disease we know of, is to 
aggressively eliminate all infected animals along with large numbers of 
healthy animals.
    To stop the spread of the disease, government agencies have to 
seriously look into containment. In Colorado, we believe that game 
ranches that have been infected and abandoned need to be double-fenced 
and the fences need to be maintained for the foreseeable future. The 
west side of Rocky Mountains National Park needs to be double-fenced 
this summer with the balance of the park double-fenced as soon as 
possible (based on the assumptions that the National Parks will not 
aggressively eliminate the deer and elk herds in the Rocky Mountain 
National Park). Finally, so far all CWD infected wild animals are north 
of I-70. Highway I-70 forms an effective barrier to migration of deer 
and elk in some parts of the state. We believe that with additional 
fencing, I-70 can become an effective barrier, stopping migration in 
all parts of the State.
    Recently in Colorado efforts have been directed towards opening up 
migration corridors. We feel that these efforts in Colorado and other 
states may be counter-productive with respect to the control of CWD. 
The best defense to CWD is a herd isolated from other herds which may 
become infected. To stop the spread of CWD, herds need to be separated 
and isolated where practical.
    In addition to the foregoing, we have specified recommendations for 
Federal Government involvement as listed below:
    <bullet>LLDevelop and implement containment policies as addressed 
above and provide funding.
    <bullet>LLEstablish a protocol for dealing with Chronic Wasting 
Disease, i.e. Wyoming is doing nothing, Colorado is removing 25% of the 
herd in 5 years, and Wisconsin is aggressively eliminating 15,000 deer.
    <bullet>LLDevelop policies for national parks, including 
containment and elimination. In Colorado, the west borders of Rocky 
Mountain National Park need to be fenced as soon as possible before the 
Summer migration.
    <bullet>LLCoordinate and fund research.
    <bullet>LLProvide funding for game elimination and containment in 
the form of grants to the States affected.
    <bullet>LLProvide assistance to increase testing laboratory 
capacity and the development of field tests for hunters.
    <bullet>LLGame farms and shooting ranches need to be regulated on 
an intrastate basis. Colorado's controls established by the Department 
of Agriculture appear good. However, risk is so high that game farms 
may need to be eliminated or required to maintain large bonds of $10 
million or more.
    <bullet>LLCentralize and coordinate all Federal resources within 
one agency.
    We would appreciate your consideration of these recommendations, 
and wish that we could have made this presentation in person.

Sincerely,

COLORADO SPORTSMEN S COALITION

Ronald Lundquist
President
                                 ______
                                 

    [A statement submitted for the record by Mr. Southwick 
follows:]
[GRAPHIC] [TIFF OMITTED] 79658.006

[GRAPHIC] [TIFF OMITTED] 79658.007

    [A letter submitted for the record by Mr. Schad follows:]

Attention: Sub-committee on Forests and Forest Health

RE: Written Congressional Hearing Testimony: Chronic Wasting Disease 
(CWD)

Hearing date 5/16/2002

Dear Sirs and Madams:

    As President of the Ohio Association of Meat Processors and 
Director at Large for the American Association of Meat Processors, I 
provide the following for your consideration:
    If CWD strikes, this would have a potentially devastating effect on 
processing plants in Ohio and nationwide.
    In Ohio, more than 50 % of our plants could be effected.
    In Ohio, some plants are dependent on game season with some 30+% of 
annual income coming from game processing.
    Some plants may well not survive if a high incidence of CWD were to 
be found in Ohio.
    Over the past three months, I have attended State Meat Processors 
Conventions in Illinois, Missouri, Wisconsin, Ohio and Nebraska. As CWD 
information has emerged, meat processors becoming aware of it--the best 
attended education/informational sessions (standing room only) were 
those sessions that were addressing CWD. I cannot state strongly 
enough, the devastating impact CWD could have, IF
    Misinformation is out there, the media reports it causing over 
reaction and public hysteria
    Game population are infected due to slow identification of infected 
population Testing time (per head) is not minimized, so the plant and 
hunter will be aware in a timely manner
    Disposal of infected head (offal and bones) is not such that 
processors can be fiscally and environmentally responsible. It is my 
understanding that currently the only means of disposal is in 
registered landfills.
    It is my understanding that Ohio will begin testing this year; I 
hope it is soon enough. However, the Ohio Association of Meat 
Processors (OAMP) will work with the Ohio Department of Agriculture 
(ODA) to try to insure that if incidents are found, they are reported 
accurately, taken within the context of the total testing and that a 
plan is in place to minimize the impact. In addition, we are currently 
working with Dr. Glauer of Animal Industries, ODA, to support 
alternative ways of infected carcass disposal. OAMP is committed to 
working with ODA to look for ways that both satisfy governmental and 
industry needs. Your committee, also, needs to work with and support 
State Agencies.
    I encourage your committee to consider representation from the 
industry, specifically, the American Association of Meat Processors 
(AAMP represents small to mid size plants and state associations are 
their affiliates. )
    In addition, please consider that identification is only part of 
the problem. Funding for research is essential--identification, 
solution proposals made and both strategic and tactical plans need to 
be developed and implemented. Our industry needs to be included as a 
vital part of wildlife management--both our survivals depend on it.

Respectfully submitted,

MARK P. SCHAD
President, Ohio Association of Meat Processors
Director at Large, American Association of Meat Processors
                                 ______
                                 
    [A letter submitted for the record by Mr. Steele follows:]

May 14, 2002

The Honorable Scott McInnis
The United States House of Representatives
215 Cannon House Office Bldg.
Washington, D.C. 20515

Dear Representative McInnis,

    Please enter the following comments into the record for the 
congressional hearing on funding for Chronic Wasting Disease.
    Much of wildlife management for all species in the United States 
has been funded by deer license sales. The same sportsmen who purchased 
these licenses have supported local economies in many rural areas.
    Now Chronic Wasting Disease threatens all this. Modeling studies by 
the Colorado Division of Wildlife and Colorado State University 
indicate that if CWD is not controlled our deer herds will no longer 
exist 100 years from now. In the near future CWD threatens license 
sales ergo wildlife management funding. Hunters will not buy licenses 
if they perceive the meat is not safe to consume. Would you feed 
venison to your children or grandchildren from the endemic area of 
Colorado or Wyoming even if it tested negative for CWD?
    First and foremost eradication of CWD must be the objective of any 
funding or research. Control efforts in Colorado over the last 35 years 
have failed miserably. Failures on a nationwide level will leave us 
with no deer in the United States.
    The chances of CWD moving from a maximum of 3000 infected deer and 
300 infected elk harvested over the last 35 years is infinitesimal 
compared to the current one case of nvCJD in humans per 500,000 exposed 
to BSE (mad cow disease). If CWD does jump the species barrier as BSE 
did it will have much more dire consequences. BSE was transmitted cow 
to cow by feeding infected meat and bone meal. NvCJD could be 
transmitted person to person only by contaminated surgical instruments, 
blood transfusions and theoretically by cannibalism. CWD is spread deer 
to deer through saliva, urine, and fecal matter. If CWD does jump the 
species barrier it could then transmit by the same routes just as the 
common cold or salmonella among humans. In test tube studies the 
species barrier to humans is no stronger for CWD than BSE.
    Research on a disease that develops this slowly will take years. In 
the meantime containment and control will be critical. Funding to 
Wildlife Services to aid states in eradication efforts is needed. 
Funding for double fencing of infected game farms is being born by 
sportsmen currently. We are not responsible for the mess they created 
and should not have to clean it up. Federal dollars would be more 
appropriate for environmental control of CWD on these farms. Double 
fencing will be required for 5 to 50 years depending on research into 
environmental persistence. Double fencing is necessary to prevent wild 
deer from entering and leaving contaminated premises through holes in 
fencing, over snowdrifts, and over fallen trees.
    The second objective for funding needs to be research on CWD. This 
would best be approached on all levels from state wildlife agencies, 
state universities, to Federal laboratories.
    Areas of critical importance are:
    1. LHow CWD is transmitted.
    2. LHow long CWD persists in the environment.
    3. LTreatments for CWD.
    4. LThe potential for crossing the species barrier.
    Sportsmen have generated tax revenues for scores of years and asked 
for little in return. Tax revenues on sporting goods, ATV's, trucks, 
and recreational vehicles total many millions. Now we are asking for 
your assistance in dealing with Chronic Wasting Disease.

Dick Steele DVM
President, Colorado Sportsmen's Wildlife Fund
President, Western Colorado Sportsmen's Council
687 2300 Drive
Delta, CO 81416
(970)234-8041
                                 ______
                                 
    [A letter submitted for the record by Mr. Young follows:]
    [GRAPHIC] [TIFF OMITTED] 79658.008
    
    [GRAPHIC] [TIFF OMITTED] 79658.009
    
                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
